No. ____

In the Supreme Court of the United States
————
STATE OF ARKANSAS,
Petitioner,
v.
CHARLES GRESHAM, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney
General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
DYLAN L. JACOBS
Assistant Solicitors
General

Counsel for Petitioner
July 13, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
The Social Security Act authorizes the Secretary of
Health and Human Services to approve “any experimental, pilot, or demonstration project which, in the
judgment of the Secretary, is likely to assist in promoting the objectives” of a host of state-administered
welfare programs including Medicaid. Here, Arkansas
sought approval to test the hypothesis that conditioning Medicaid expansion benefits on work, education,
or volunteering would lead to healthier outcomes for
its beneficiaries. The Secretary agreed, predicting that
Arkansas’s proposal would likely improve beneficiary
health and promote independence from governmental
support.
On review, the United States Court of Appeals for
the D.C. Circuit held that approval unlawful. It did
not hold that the Secretary’s prediction of health
benefits was unreasonable, or even that the Secretary
failed to weigh those benefits against the project’s
potential costs. Rather, it held the Secretary could not
even consider them because, in its view, the objective
of Medicaid is expanding the ranks of those on Medicaid
and beneficiary health is beyond the Secretary’s remit.
The question presented is:
Whether the Secretary’s approval of the Arkansas
Works Amendment was lawful.

(i)

ii
PARTIES TO THE PROCEEDING BELOW
Petitioner is the State of Arkansas. It was intervenordefendant-appellant in the court of appeals.
The following respondents were plaintiff-appellees
in the court of appeals: Charles Gresham, Cesar
Ardon, Marisol Ardon, Adrian McGonigal, Veronica
Watson, Treda Robinson, Anna Book, Russell Cook,
and Jamie Deyo.
The following respondents were defendant-appellants
in the court of appeals: the United States Department
of Health and Human Services (HHS), the Centers for
Medicare and Medicaid Services (CMS), an agency of
HHS, Alex M. Azar II, in his official capacity as the
Secretary of HHS, and Seema Verma, in her official
capacity as the Administrator of CMS.

iii
RELATED PROCEEDINGS
Gresham v. Azar, No. 18-1900 (D.D.C.) (judgment
entered Apr. 4, 2019).
Gresham v. Azar, No. 19-5094 (D.C. Cir.) (judgment
entered Feb. 14, 2020).
Gresham v. Azar, No. 19-5096 (D.C. Cir.) (judgment
entered Feb. 14, 2020).

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING BELOW .....

ii

RELATED PROCEEDINGS ...............................

iii

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISIONS INVOLVED ..........

1

STATEMENT ......................................................

1

A.

Statutory Background ..............................

1

1. The Medicaid Program .........................

1

2. Demonstration Projects .......................

2

B.

Arkansas Works ........................................

4

C.

Procedural History....................................

8

REASONS FOR GRANTING THE WRIT ..........

13

I.

The court of appeals’ decision is wrong....

13

A. Health and independence are Medicaid
objectives ..............................................

13

1. Section 1901 is not a statement of
the Medicaid expansion’s objectives ................................................

13

a. Section 1901 is not a statement
of programmatic objectives .......

14

(v)

vi
TABLE OF CONTENTS—Continued
Page
b. Section 1901 does not state
the purposes of the Medicaid
expansion ..................................

17

2. The Secretary properly considered
health and independence ...............

20

B. The Secretary’s approval was not
arbitrary and capricious ......................

23

The question presented warrants review

26

CONCLUSION ....................................................

31

II.

APPENDIX
APPENDIX A: OPINION, Court of Appeals
for the District of Columbia Circuit (February
14, 2020) .........................................................

1a

APPENDIX B: MEMORANDUM OPINION,
District Court for the District of Columbia
(March 27, 2019) ............................................

21a

APPENDIX C: Excerpts from administrative
record ..............................................................

61a

APPENDIX D:
42 U.S.C. 1315 ............................................ 193a
42 U.S.C. 1396-1 ......................................... 202a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Aguayo v. Richardson,
473 F.2d 1090 (2d Cir. 1973) .................... 3, 25
Barber v. Thomas,
560 U.S. 474 (2010) ...................................

17

Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc.,
467 U.S. 837 (1984) ...................................

11

Dep’t of Commerce v. New York,
139 S. Ct. 2551 (2019) ......................... 24, 25, 26
FCC v. Fox Television Stations,
556 U.S. 502 (2009) ...................................

25

Fresno Mobile Radio, Inc. v. FCC,
165 F.3d 965 (D.C. Cir. 1999) ................... 10, 24
Hall v. Florida,
572 U.S. 701 (2014) ................................... 29-30
King v. Burwell,
135 S. Ct. 2480 (2015) ...............................

18

MCI Telecomms. Corp. v. AT&T Co.,
512 U.S. 218 (1994) ...................................

11

Me. Cmty. Health Options v. United States,
140 S. Ct. 1308 (2020) ...............................

15

Melcher v. FCC,
134 F.3d 1143 (D.C. Cir. 1998) .................

10

MobileTel, Inc. v. FCC,
107 F.3d 888 (D.C. Cir. 1997) ...................

24

Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012) ......................... 2, 17, 18, 19

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Nichols v. United States,
136 S. Ct. 1113 (2016) ...............................

18

Pharm. Rsch. & Mfrs. of Am. v. Walsh,
538 U.S. 644 (2003) ...................................

23

Philbrick v. Azar,
397 F. Supp. 3d 11 (D.D.C. 2019) .............

27

Philbrick v. Azar,
Nos. 19-5293, 19-5295, 2020 WL
2621222 (D.C. Cir. May 20, 2020) ............ 27-28
Spry v. Thompson,
487 F.3d 1272 (9th Cir. 2007) ...................

3

Stewart v. Azar,
308 F. Supp. 3d 239 (D.D.C. 2018) ...........

30

Stewart v. Azar,
313 F. Supp. 3d 237 (D.D.C. 2018) ... 8, 9, 18, 20
U.S. Nat’l Bank of Ore. v. Indep. Ins.
Agents of Am., Inc.,
508 U.S. 439 (1993) ...................................

20

Young v. Azar,
No. 1:19-cv-3526
(D.D.C. Mar. 4, 2020) ................................

28

STATUTES
28 U.S.C. 1254(l)...........................................

1

42 U.S.C. 601(a) ............................................

14

42 U.S.C. 1315 .............................................passim
42 U.S.C. 1315(a) .......................................... 3, 21

ix
TABLE OF AUTHORITIES—Continued
Page(s)
42 U.S.C. 1396-1 ..........................................passim
42 U.S.C. 1396a(a)(8) ...................................

20

42 U.S.C. 1396a(a)(22) .................................

21

42 U.S.C. 1396a(a)(33)(A) ............................

21

42 U.S.C. 1396a(b) ........................................

2

42 U.S.C. 1396a (note)..................................

21

42 U.S.C. 1396b ............................................

2

42 U.S.C. 1396b(a) ........................................

16

42 U.S.C. 1396d(a) ........................................

11

42 U.S.C. 1396n(a)(2)(B) ..............................

21

42 U.S.C. 1396n(b)(1)-(2)..............................

21

42 U.S.C. 1396n(i)(1)(H)(i) ...........................

21

42 U.S.C. 1396u-8(a)(2)(A)(ii) ......................

21

42 U.S.C. 1396u-8(a)(3) ................................

21

42 U.S.C. 1396u-8(a)(3)(B) ...........................

21

42 U.S.C. 1397aa(a) ......................................

15

Further Consolidated Appropriations Act,
2020, Pub. L. No. 116-94, div. A, tit. II,
133 Stat. 2534, 2568 (2019) ...................... 15, 16
Public Welfare Amendments of 1962, Pub.
L. No. 87-543, sec. 122, 76. Stat. 172,
192 (1962) ..................................................

3

Pub. L. No. 93-233, sec. 13(a)(1), 87 Stat.
947, 960 (1973) ..........................................

14

x
TABLE OF AUTHORITIES—Continued
Page(s)
Pub. L. No. 98-369, sec. 2663(j)(3)(C), 98
Stat. 494, 1171 (1984) ...............................

14

Pub. L. No. 111-148, sec. 4108, 124 Stat.
119, 561-64 (2010) .....................................

21

RULES
Medicaid Program; Review and Approval
Process for Section 1115 Demonstrations,
77 Fed. Reg. 11,678 (Feb. 27, 2012) .........

3

U.S. House of Rep. R. XXI ............................

16

OTHER AUTHORITIES
Anthony Albanese, The Past, Present, and
Future of Section 1115: Learning from
History to Improve the Medicaid-Waiver
Regime Today, 128 Yale L.J. Forum 827
(2019) ............................................................

3

Arkansas 1115 Waiver Extension Application
(June 28, 2016) ..........................................

5

Arkansas Private Option 1115 Demonstration Waiver: 2014 Annual Report, Ark.
Dep’t of Human Servs. (2015) ..................

4-5

Abbe R. Gluck & Nicole Huberfeld, What Is
Federalism in Healthcare For?, 70 Stan.
L. Rev. 1689 (2018) ...................................

4

H.R. Rep. No. 111-299 (2009) .......................

20

Medicaid Waiver Tracker: Approved and
Pending Section 1115 Waivers by State,
Kaiser Fam. Found. (June 26, 2020) ........ 28, 29

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Status of State Action on the Medicaid
Expansion Decision, Kaiser Fam. Found.
(July 1, 2020).............................................

2

Letter from Mary C. Mayhew, Deputy Adm’r
& Dir., Ctrs. for Medicare & Medicaid
Servs., to Henry D. Lipman, Medicaid
Dir., N.H. Dep’t of Health & Human Servs.
(Nov. 30, 2018) ..........................................

27

The Use of Healthy Behavior Incentives in
Medicaid, Medicaid & CHIP Payment &
Access Comm’n (August 2016) .................

4

S. Rep. No. 87-1589 (1962) (Conf. Rep.) ......

2

James V. Saturno & Brian T. Yeh, Cong.
Res. Serv. R42098, Authorization of
Appropriations: Procedural and Legal
Issues (2016) .............................................. 15, 19
Letter from Andrew M. Slavitt, Acting Adm’r,
Ctrs. for Medicare & Medicaid Servs., to
Cindy Gillespie, Dir., Ark. Dep’t of
Human Servs. (Dec. 8, 2016) ......................

5

Letter from Jami Snyder, Dir., Ariz. Health
Care Cost Containment Sys., to Calder
Lynch, Deputy Adm’r & Acting Dir., Ctrs.
for Medicare & Medicaid Servs. (Oct. 17,
2019) .......................................................... 28-29
Letter from Marilyn Tavenner, Adm’r, Ctrs.
for Medicare & Medicaid Servs., to Andy
Allison, Dir., Ark. Dep’t of Human Servs.
(Sept. 27, 2013) .........................................

4

xii
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Gov’t Accountability Office, GAO-16464SP, Principles of Federal Appropriations Law (4th ed. 2016) ..................... 15, 16, 19

PETITION FOR A WRIT OF CERTIORARI
Petitioner the State of Arkansas respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the District of
Columbia Circuit in this case.
OPINIONS BELOW
The court of appeals’ opinion (Pet. App. 1a-20a) is
reported at 950 F.3d 93. The district court’s order (Pet.
App. 21a-60a) is reported at 363 F. Supp. 3d 165.
JURISDICTION
The court of appeals entered judgment on February
14, 2020. On March 19, 2020, this Court extended the
deadline to file any petition for a writ of certiorari to
150 days from the date of the lower court judgment.
The jurisdiction of this Court is invoked under 28
U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED
Pertinent statutory provisions are set forth in the
appendix to this petition (Pet. App. 193a-202a).
STATEMENT
A. Statutory Background.
1. The Medicaid Program.
In 1965, Congress enacted Medicaid to provide
health care coverage to four categories of low-income
people: the disabled, the blind, the elderly, and needy
families with dependent children. Pet. App. 3a (citing
42 U.S.C. 1396-1). From its inception, Medicaid has
been a cooperative federalism program. States administer the program under plans approved by the Secretary,

2
42 U.S.C. 1396a(b), and in return, States receive federal
funding. 42 U.S.C. 1396b. Every State participates in
Medicaid. Nat’l Fed’n of Indep. Bus. v. Sebelius (NFIB),
567 U.S. 519, 542 (2012).
In the decades after Medicaid’s enactment, Congress
slowly expanded Medicaid eligibility to include other
particularly needy groups, including pregnant women
and certain children. Id. at 583.
But in 2010, Congress “transformed” Medicaid. Id.
Enacted as part of the Affordable Care Act, what came
to be known as the Medicaid expansion made every
adult with an income up to 133 percent of the poverty
level eligible, and conditioned State participation in
traditional Medicaid on covering the new expansion
population. Id. at 542. In NFIB, this Court, reasoning
the expansion was “a new health care program,” not “a
mere alteration of [the] existing” one, held that condition was unconstitutionally coercive. Id. at 584-85.
As a result, a State’s participation in the Medicaid
expansion is voluntary. Id. at 585. And many States
have opted not to participate. See Status of State
Action on the Medicaid Expansion Decision, Kaiser
Fam. Found. (July 1, 2020).1
2. Demonstration Projects.
In 1962, concerned that the Social Security Act’s
various state plan requirements “often stand in the
way of experimental projects designed to test out new
ideas and ways of dealing with the problems of public
welfare recipients,” S. Rep. No. 87-1589, at 19 (1962)
(Conf. Rep.), Congress enacted Section 1115 of the
Social Security Act. Public Welfare Amendments of
1

https://www.kff.org/health-reform/state-indicator/state-activ
ity-around-expanding-medicaid-under-the-affordable-care-act.

3
1962, Pub. L. No. 87-543, sec. 122, 76. Stat. 172, 192
(1962) (codified as amended at 42 U.S.C. 1315). That
section provides that “the Secretary may waive
compliance with any of the requirements” of a host of
state-administered
public-assistance
programs,
including Medicaid, “[i]n the case of any experimental,
pilot, or demonstration project which, in the judgment
of the Secretary, is likely to assist in promoting the
objectives” of those programs. 42 U.S.C. 1315(a).
As the Secretary has explained, demonstration
projects “introduc[e] new approaches that can be a
model for other States and lead to programmatic
changes nationwide.” Medicaid Program; Review and
Approval Process for Section 1115 Demonstrations, 77
Fed. Reg. 11,678, 11678 (Feb. 27, 2012). For example,
decades before Congress imposed work requirements
as part of comprehensive welfare reform, States used
Section 1115 demonstration projects to experiment
with similar requirements. See Aguayo v. Richardson,
473 F.2d 1090, 1093-96 (2d Cir. 1973) (Friendly, J.)
(upholding such a project); Anthony Albanese, The
Past, Present, and Future of Section 1115: Learning
from History to Improve the Medicaid-Waiver Regime
Today, 128 Yale L.J. Forum 827, 833-34 (2019) (describing these “precursor[s]” to welfare reform under the
Bush and Clinton administrations).
The Medicaid expansion itself also began as a series
of demonstration projects that expanded Medicaid
coverage to then-ineligible populations. See Spry v.
Thompson, 487 F.3d 1272, 1274-75 (9th Cir. 2007)
(“States may also create ‘experimental, pilot or demonstration’ projects to serve ‘expansion populations’—
individuals who . . . are counted for federal reimbursements only because of the Secretary’s waiver.”). Indeed,
Massachusetts’ “Romney-care,” which inspired the

4
Affordable Care Act’s mandate and exchanges, was
such a project, “funded and facilitated by a Medicaid
demonstration waiver.” Abbe R. Gluck & Nicole
Huberfeld, What Is Federalism in Healthcare For?, 70
Stan. L. Rev. 1689, 1722 (2018).
Moreover, each of the last three administrations has
approved Section 1115 waivers designed to test healthy
behavior incentives. See The Use of Healthy Behavior
Incentives in Medicaid, Medicaid & CHIP Payment
& Access Comm’n 2, 7 (August 2016).2 And many
of those experiments—like the Arkansas Works
amendment—conditioned some aspect or level of
coverage on healthy behavior. See id.
B. Arkansas Works
In 2013, Arkansas became the first State in the
country to receive a Section 1115 waiver to implement
the Medicaid expansion. Gluck & Huberfeld, supra at
1737. Rather than enrolling beneficiaries in traditional Medicaid, Arkansas’s expansion plan enrolled
beneficiaries in private insurance plans, with the
State paying the premiums. See Letter from Marilyn
Tavenner, Adm’r, Ctrs. for Medicare & Medicaid Servs.,
to Andy Allison, Dir., Ark. Dep’t of Human Servs.
1 (Sept. 27, 2013).3 This first-in-the-nation publicprivate partnership was immediately successful—
cutting the State’s uninsured rate almost in half and
reducing hospitals’ uncompensated care losses by
more than 50 percent. Arkansas Private Option 1115
2

https://www.macpac.gov/wp-content/uploads/2016/08/The-Useof-Healthy-Behavior-Incentives-in-Medicaid.pdf.
3

https://www.medicaid.gov/Medicaid-CHIP-Program-Informa
tion/By-Topics/Waivers/1115/downloads/ar/Health-Care-Independ
ence-Program-Private-Option/ar-private-option-app-ltr-09272013.
pdf.

5
Demonstration Waiver: 2014 Annual Report, Ark.
Dep’t of Human Servs. 3 (2015).4
In 2016, Arkansas received further waiver authority
with the Secretary’s approval of the Arkansas Works
demonstration project. Building on its 2013 demonstration project, Arkansas Works provided premium
support for expansion beneficiaries on employersponsored insurance; required beneficiaries above
poverty level to pay premiums; incentivized annual
checkups with additional benefits; and, critically for
these purposes, referred all enrollees to the Arkansas
Department of Workforce Services for job training and
placement assistance. See Letter from Andrew M.
Slavitt, Acting Adm’r, Ctrs. for Medicare & Medicaid
Servs., to Cindy Gillespie, Dir., Ark. Dep’t of Human
Servs. 1 (Dec. 8, 2016);5 Arkansas 1115 Waiver Extension
Application 10-14 (June 28, 2016).6 The State expected
that “as individuals receiving this referral bec[a]me
employed . . . many [would] transition out of the
Arkansas Works program to [employer-sponsored
insurance] and private, individual market coverage.”
Id. at 14.

4

https://www.medicaid.gov/Medicaid-CHIP-Program-Informa
tion/By-Topics/Waivers/1115/downloads/ar/Health-Care-Indepen
dence-Program-Private-Option/ar-private-option-annl-rpt2014.pdf.
5

https://www.medicaid.gov/Medicaid-CHIP-Program-Informa
tion/By-Topics/Waivers/1115/downloads/ar/Health-Care-Indepen
dence-Program-Private-Option/ar-works-amndmnt-appvl12292017.pdf.
6

https://www.medicaid.gov/Medicaid-CHIP-Program-Informa
tion/By-Topics/Waivers/1115/downloads/ar/Health-Care-Indepen
dence-Program-Private-Option/ar-works-application07072016.pdf.

6
Like Arkansas’s original demonstration program,
Arkansas Works was successful at reducing the State’s
uninsured population. But the work-referral program
was a disappointment. Though a quarter of beneficiaries who acted on the referrals obtained employment,
only 4.7 percent of beneficiaries acted on the referrals.
Dist. Ct. R. 39-2 at 2. As a result, Arkansas concluded
that a stronger incentive was necessary.
Therefore, in 2017, Arkansas proposed an amendment
to Arkansas Works. Its centerpiece was a communityengagement requirement, designed to “promot[e]
personal responsibility and work,” “encourag[e] movement up the economic ladder, and facilitate[e] transitions
from Arkansas Works to employer-sponsored and
[exchange] coverage.” Pet. App. 192a. To receive
Medicaid expansion coverage, non-exempt, able-bodied
beneficiaries under the age of 50 were required to
report 80 hours of work, work-related activities, education, or volunteering per month. Pet. App. 111a-115a.
To avoid coverage loss, Arkansas carefully designed
a requirement that was attainable and could be complied
with in a variety of ways. Beneficiaries with minor
dependents, full-time students, pregnant women, the
medically frail, and many others were exempted. Pet.
App. 112a-113a. Attendance at educational programs,
including GED classes, counted towards the 80-hour
requirement. Pet. App. 114a. So too did vocational
training and up to 40 hours per month spent looking
for work. Pet. App. 114a. And the hourly minimum
wage was used as a proxy for work hours; thus, 40
hours of work at a wage twice the minimum would
count as 80 hours. Pet. App. 113a n.2. Moreover,
beneficiaries would only be considered non-compliant
and lose their benefits if they failed to meet the
requirement for three consecutive months. Pet. App.

7
117a. And non-complaint beneficiaries could reapply
for benefits the next calendar year. Pet. App. 118a.
In March of 2018, after notice and comment, the
Secretary, acting through the Administrator of CMS,
approved Arkansas’s proposed amendment. Pet. App.
65a. In contrast to previous Section 1115 approvals,
the Secretary issued a detailed letter responding to
commenters’ concerns and explaining why he concluded the amendment would likely assist in promoting
the objectives of Medicaid. Pet. App. 66a-79a.7
The Secretary predicted that the communityengagement requirement would likely promote two
Medicaid objectives. First, the Secretary explained
that the agency had “an obligation to ensure that
proposed demonstration programs are likely to . . .
improve health and wellness.” Pet. App. 69a. Citing
studies finding that work and other forms of community engagement are correlated with improved health,
the Secretary predicted the community-engagement
requirement would promote beneficiary health by encouraging community engagement. Pet. App. 70a. Second,
looking to Medicaid’s stated objective of “help[ing]
individuals and families attain or retain capability for
independence or self-care,” Pet. App. 69a,8 the Secretary
found “it furthers the purposes of the Medicaid statute
to test and evaluate these requirements as a means . . .
to promote beneficiary independence.” Pet. App. 75a.
Responding to commenters’ concerns that the
community-engagement requirement would result in
7

For examples of Section 1115 approvals under the prior
administration, see D.C. Cir. J.A., Vol. I, at 118-21, 127-29, 13740, 147-48.
8

See 42 U.S.C. 1396-1 (listing that as an objective of Medicaid
appropriations).

8
coverage loss rather than increased community engagement, the Secretary noted that Arkansas exempted
beneficiaries who were unable to work; that his approval
required the State to reach out to beneficiaries and
explain how to comply and report compliance; and that
beneficiaries would only lose coverage after receiving
three notices over three months that their failure to
satisfy the requirement placed their coverage in
jeopardy. Pet. App. 73a-76a.
All things considered, the Secretary concluded that
the requirement “create[d] appropriate incentives for
beneficiaries to gain employment” and predicted that
“the overall health benefits to the effected population
through community engagement outweigh the health
risks to those who fail to [comply] and who fail to seek
exemption.” Pet. App. 75a, 76a. But the Secretary
cautioned that if he was mistaken and the communityengagement requirement did “not adequately incentivize
beneficiary participation,” he could withdraw Arkansas’s
waiver. Pet. App. 75a.
C. Procedural History
Several months after the Secretary approved the
Arkansas Works Amendment, the District Court for
the District of Columbia held the Secretary’s approval
of a similar Section 1115 demonstration project in
Kentucky was arbitrary and capricious. See Stewart
v. Azar, 313 F. Supp. 3d 237 (D.D.C. 2018). In that
case, Kentucky had predicted for budgetary purposes
that under its project, its Medicaid expansion plan
would cover 95,000 fewer people. Id. at 247. Though
it is doubtful that this figure reflected expected coverage losses rather than transitions to commercial and
employer-sponsored coverage, the district court attributed
it entirely to the former and faulted the Secretary for

9
failing to address Kentucky’s supposed estimate of
coverage loss. See id. at 262-64.
Emboldened by that decision, a group of Arkansas
Works beneficiaries filed suit in the same district court
and designated this case as related to Stewart. Dist.
Ct. R. 2. They claimed that the Arkansas Works Amendment’s approval was arbitrary and capricious under
that court’s reasoning in Stewart—though Arkansas
made no comparable estimate of a reduction in Medicaid
expansion rolls. Pet. App. 31a, 35a. Arkansas
intervened to defend its program. Pet. App. 32a.
As in Stewart, the district court concluded the
Secretary’s approval was arbitrary and capricious.
First, while “express[ing] skepticism that health,
generally construed, was properly considered an objective”
of Medicaid at all, Pet. App. 45a, or that Medicaid had
any objectives beyond maximizing coverage, the
district court ultimately only held that providing
healthcare coverage to eligible beneficiaries was at
least a Medicaid objective. Pet. App. 38a. Second—
while not questioning the Secretary’s predictions that
Arkansas’s project would promote beneficiary health
and independence—the district court held, as in Stewart,
that the Secretary said too little about coverage. In
particular, the district court concluded that although
the Secretary had “acknowledg[ed]” and addressed “at
several points” comments predicting coverage losses,
the Secretary had “fail[ed] to address whether coverage loss would occur.” Pet. App. 40a. That supposed
omission, the district court concluded, rendered his
approval arbitrary and capricious. Pet. App. 50a.
Arkansas and the federal defendants appealed. The
court of appeals affirmed, but on largely different
grounds. It agreed with the defendants that—under

10
long-established circuit precedent the district court
did not cite—when multiple statutory “objectives could
point to conflicting courses of action,” an “agency could
give precedence to one or several objectives over others
without acting in an arbitrary or capricious manner.”
Pet. App. 18a (citing Fresno Mobile Radio, Inc. v. FCC,
165 F.3d 965, 971 (D.C. Cir. 1999) (Ginsburg, J.);
Melcher v. FCC, 134 F.3d 1143, 1154 (D.C. Cir. 1998)
(Wald, J.)). Thus, the court of appeals suggested, if
Medicaid had “a laundry list” of purposes, one of which
was beneficiary health, prioritizing beneficiaries’
health over maximizing their ranks would have been
permissible. Pet. App. 19a.
But the court of appeals declared that Medicaid was
not a multi-purpose program. Pet. App. 16a. Instead,
it held that Medicaid has just “one primary purpose,
which is providing health care coverage without any
restriction geared to healthy outcomes, financial
independence or transition to commercial coverage.”
Id. And remarkably, the court of appeals concluded
that “the alternative objectives of better health
outcomes and beneficiary independence are not
consistent with Medicaid.” Id.
The court of appeals based its novel interpretation
of the Medicaid statute on an equally novel approach
to statutory interpretation. It acknowledged that “the
Medicaid statute does not have a standalone purpose
section like some social welfare statutes” in the Social
Security Act. Pet. App. 10a. But the court of appeals
found what it deemed a statement of purpose in
Medicaid’s “appropriations provision” at Section 1901
of the Act. Pet. App. 10a-11a (citing 42 U.S.C. 13961). That section, enacted in 1965, states an appropriations purpose of providing “medical assistance on
behalf of [needy] families with dependent children and

11
of aged, blind, or disabled individuals”—that is, the
original groups of Medicaid beneficiaries. Given that
section, and the statute’s definition of medical assistance as medical services or payment for them, Pet.
App. 11a (citing 42 U.S.C. 1396d(a)), the court of
appeals concluded the entire program’s “primary objective” was “unambiguously” coverage. Pet. App. 12a
(quoting Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 843 (1984)).
Having discovered an exhaustive statement of
Medicaid’s purposes in its 55-year-old appropriations
section, the court of appeals readily dismissed health
and independence as “non-statutory objectives.” Pet.
App. 19a. As to health, the court of appeals simply
noted that Section 1901 “makes no mention” of it. Pet.
App. 13a. Though granting that health might be “the
ultimate purpose[]” of Medicaid’s provision of health
care coverage, the court of appeals reasoned the
Secretary was bound by “the means [Congress] has
deemed appropriate, and prescribed, for the pursuit”
of that purpose—even when acting under a statute
that authorizes waiving any and all of Medicaid’s
substantive requirements in pursuit of its objectives.
Pet. App. 13a (quoting MCI Telecomms. Corp. v. AT&T
Co., 512 U.S. 218, 231 n.4 (1994)).
As for financial independence, the court of appeals
questioned whether the Secretary had relied on that
objective in approving the Arkansas Works Amendment,
asserting that it was absent from the “specific section”
of the Secretary’s approval addressing Medicaid objectives and appeared only in responses to comments.
Pet. App. 14a. Ultimately, however, the court of
appeals concluded that financial independence too was
non-statutory. Here, the court of appeals encountered
a problem: the appropriations section it deemed an

12
unambiguously exhaustive statement of Medicaid’s
purposes says a purpose of Medicaid appropriations
was to “help [traditional Medicaid beneficiaries] attain
or retain capability for independence or self-care.”
Pet. App. 11a (quoting 42 U.S.C. 1396-1). Yet the
court of appeals simply sidestepped that problem by
declaring in a single sentence that the independence
Congress had in mind was “functional independence,”
not “financial independence from government welfare
programs.” Pet. App. 15a.
Having determined the Secretary’s approval pursued
“an entirely different set of objectives than the one we
hold is the principal objective of Medicaid,” Pet. App.
18a, the conclusion that his approval was arbitrary
and capricious necessarily followed.
Unlike the district court, the court of appeals did not
claim that the Secretary said nothing about coverage
loss. It acknowledged that the Secretary pointed to
features of Arkansas’s project that would mitigate
coverage loss, said he could rescind his approval if
greater loss occurred than he expected, and predicted
that the health benefits of the project would outweigh
the harms of coverage losses. Pet. App. 17a-18a. But
given its conclusion that coverage was essentially the
program’s sole objective, the court of appeals deemed
these statements an inadequate, “conclusory” treatment
of the problem. Pet. App. 18a.
Ultimately, however, the court of appeals’ problem
with the Secretary’s approval was more fundamental:
in predicting that the risks of coverage loss, no matter
how slight, would be outweighed by the project’s health
benefits, the Secretary “prioritize[d] non-statutory
objectives [over] the statutory purpose.” Pet. App. 19a.

13
REASONS FOR GRANTING THE WRIT
I. The court of appeals’ decision is wrong.
A. Health and independence are Medicaid
objectives.
1. Section 1901 is not a statement of the
Medicaid expansion’s objectives.
If Medicaid’s sole objective were maximizing eligible
beneficiaries’ coverage, then under the court of appeals’
reasoning no experimental work or community-engagement requirement would ever be permissible. After
all, all such requirements trade some risk of coverage
loss to achieve healthier outcomes and independence.
And under the court of appeals’ logic, that will always
be an impermissible tradeoff since Medicaid’s sole
objective is maximizing coverage.
Simply covering eligible beneficiaries, however, is
not Medicaid’s sole objective. So the Secretary may
balance it against others, as indeed every administration this century, in exercising its Section 1115 waiver
powers, has done.
The court of appeals’ contrary conclusion was based
on the original Medicaid’s appropriations section. It
read that provision as an exhaustive—and unambiguously so—statement of Medicaid’s purposes. There are
two problems with that interpretation. First, that
section is just an authorization of appropriations, not
a purpose section. Second, it says nothing about the
purposes of the ACA’s Medicaid expansion, or for that
matter, any of Medicaid’s other expansions since its
enactment. Rather, at best, it only speaks to the
original Medicaid’s purposes.

14
a. Section 1901 is not a statement of
programmatic objectives.
Enacted in 1965, and last substantively amended in
1973,9 Section 1901 says:
For the purpose of enabling each State, as far
as practicable under the conditions in such
State, to furnish (1) medical assistance on
behalf of families with dependent children
and of aged, blind, or disabled individuals,
whose income and resources are insufficient
to meet the costs of necessary medical services, and (2) rehabilitation and other services
to help such families and individuals attain or
retain capability for independence or selfcare, there is hereby authorized to be appropriated for each fiscal year a sum sufficient to
carry out the purposes of this subchapter.
The sums made available under this section
shall be used for making payments to States
which have submitted, and had approved by
the Secretary, State plans for medical
assistance.
42 U.S.C. 1396-1.
That section is a surpassingly odd place to find a
statement of programmatic objectives.
Congress
normally states agency objectives—including for social
welfare programs—in a purpose section. See, e.g., 42
U.S.C. 601(a) (TANF’s “Purpose” section, stating “[t]he
9

That amendment substituted “disabled” for the provision’s
original reference to the “permanently and totally disabled.” Pub.
L. No. 93-233, sec. 13(a)(1), 87 Stat. 947, 960 (1973). A later
technical amendment struck its reference to the former
Department of Health, Education and Welfare. Pub. L. No. 98369, sec. 2663(j)(3)(C), 98 Stat. 494, 1171 (1984).

15
purpose of this part”); 42 U.S.C. 1397aa(a) (SCHIP’s
“Purpose” section, stating “[t]he purpose of this subchapter”). But as the court of appeals acknowledged,
Section 1901 is not such a section. Pet. App. 10a.
The court of appeals suggested that Section 1901 at
least “articulates the reasons underlying the appropriation of funds,” thus instructing the Secretary on the
objectives to pursue in spending them. Pet. App. 10a11a. But even this overstates matters. For Section
1901 does not appropriate funds; Medicaid funding is
appropriated annually in Congress’s budgets. See,
e.g., Further Consolidated Appropriations Act, 2020,
Pub. L. No. 116-94, div. A, tit. II, 133 Stat. 2534, 2568
(2019). All Section 1901 does is “authorize[] [funds] to
be appropriated,” 42 U.S.C. 1396-1—a crucial nuance
that sharply limits its role.
Often when Congress appropriates funds for a
program, it “passes an Act authorizing” itself to appropriate in between creating the program and appropriating
funding for it. Me. Cmty. Health Options v. United
States, 140 S. Ct. 1308, 1319 (2020) (citing U.S. Gov’t
Accountability Office, GAO-16-464SP, Principles of
Federal Appropriations Law 2-56 (4th ed. 2016) (GAO
Redbook)). These authorizations are parliamentary
formalities, enacted to comply with House rules that
require appropriations in appropriation bills to have
been previously authorized by law. See GAO Redbook
2-55; James V. Saturno & Brian T. Yeh, Cong.
Res. Serv. R42098, Authorization of Appropriations:
Procedural and Legal Issues 4, 6-7 (2016) (“Authorization of Appropriations”).
While authorizations serve a useful parliamentary
role, they do not speak to agencies. Rather, an
authorization like Section 1901 is only a “directive to
Congress itself” that “serves little purpose other than

16
to comply with House Rule XXI,” the rule requiring
pre-appropriation authorization. GAO Redbook 2-56
(emphasis added). Congress directs agencies on how
to spend appropriated funds through programs’ organic
statutes, or appropriations provisions themselves, not
through appropriation authorizations—and it did so
in Medicaid. See 42 U.S.C. 1396b(a) (directing the
Secretary to fund States’ Medicaid plans); Further
Consolidated Appropriations Act, 2020, Pub. L. No.
116-94, div. A, tit. II, 133 Stat. 2534, 2568 (2019)
(same). So while Section 1901 might state Congress’s
purposes for authorizing itself to make Medicaid
appropriations more than 50 years ago, it doesn’t tell
the Secretary what purposes to pursue.
Besides Section 1901’s function, its text also
indicates it wasn’t intended to fully state Medicaid’s
purposes. Again, Section 1901’s first sentence says
that “For the purpose of enabling each State . . . to
furnish (1) medical assistance on behalf of [Medicaid’s
original beneficiaries], and (2) rehabilitation and other
services to help [them] attain or retain capability for
independence or self-care, there is hereby authorized
to be appropriated for each fiscal year a sum sufficient
to carry out the purposes of this subchapter.” 42 U.S.C.
1396-1 (emphasis added). If “the purpose” stated in
the sentence’s long preamble were the sole “purposes
of this subchapter,” Congress wouldn’t have referred
more broadly to “the purposes of this subchapter,” as
though there were others. It would have simply said
“that purpose” to refer back to the one stated.
That it didn’t makes perfect sense. Had Congress
only authorized appropriations to carry out the purposes it listed in 1965, appropriations for new Medicaid
beneficiaries and objectives to come might have been
seen as unauthorized. By explicitly acknowledging

17
“purposes of this subchapter” beyond the ones it listed,
Congress wrote an authorization that could last.
b. Section 1901 does not state the purposes
of the Medicaid expansion.
Even if Section 1901 were a statement of purpose,
it would only explain original Medicaid’s purposes.
Section 1901 states a purpose of providing medical
assistance to the four original Medicaid populations—
needy “families with dependent children” and “aged,
blind, or disabled individuals”—and a purpose of helping
“such families and individuals attain or retain capability for independence or self-care.” 42 U.S.C. 1396-1.
But as Section 1901 predates the Medicaid expansion by nearly half a century, it understandably says
nothing about the program’s objectives for expansion
beneficiaries: childless, non-disabled adults up to 133
percent of the poverty level. Indeed, if that section
stated Medicaid’s sole objectives, then even covering
expansion beneficiaries would exceed Medicaid’s objectives since it only discusses assisting “families with
dependent children” and “aged, blind, or disabled individuals.” Id. Thus, looking to the “original program[’s]”
appropriations section to find the objectives of the
expansion’s “new program,” NFIB, 567 U.S. at 582,
583, makes little more sense than searching for the
Medicaid’s expansion’s objectives in the Medicare Act.
The court of appeals did not grapple with this
problem. Instead, it simply applied the section’s
purpose to the Medicaid expansion as if the language
limiting them to original Medicaid beneficiaries
weren’t there. But a court cannot simply “read words
out the statute.” Barber v. Thomas, 560 U.S. 474, 490
(2010). Nor can it unilaterally extend that provision’s
reach to expansion beneficiaries: “To supply omissions

18
transcends the judicial function.” Nichols v. United
States, 136 S. Ct. 1113, 1118 (2016).
By contrast, the district court, at least, recognized
this problem. In Stewart, it suggested that the omission of expansion beneficiaries from Section 1901 was
another ACA “example[] of inartful drafting,” and that
they should simply be read into that provision alongside their original-Medicaid counterparts. Stewart,
313 F. Supp. 3d at 269 (quoting King v. Burwell, 135
S. Ct. 2480, 2492 (2015)). And once so read in, that
section would state the expansion’s purposes.
The district court’s argument for that conclusion,
however, was simply question-begging. It claimed
that “it [was] inconceivable that Congress intended to
establish separate Medicaid programs, with differing
purposes.” Id. at 270; Pet App. 46a (reaffirming that
conclusion).
But that’s hardly the case. For one thing, contrary
to the district court’s suggestion that original and
expansion Medicaid are the same program, NFIB
explicitly held that the two are different programs. See
567 U.S. at 582 (“We cannot agree that existing
Medicaid and the expansion dictated by the Affordable
Care Act are all one program . . . .”). And for another,
it is hardly “inconceivable” that Congress had somewhat different purposes in mind when it created
programs targeted at very different populations—nondisabled, childless adults vs. the aged, blind and
disabled—nearly half a century apart. Nor is it “inconceivable” that the same Congress that mandated cash
incentives under Medicaid for weight loss, see infra at
21, had a different view on the direct pursuit of health
than the body that enacted original Medicaid.

19
Because the district court did not consider Section
1901’s limited role as an authorization of appropriations, it did not make what may seem a better
argument for its rewrite of Section 1901: that expansion
beneficiaries must be read into that provision to
authorize expansion funding. That argument, however,
would also fail, because expansion funding has no
shortage of authorization as things stand. And even if
it lacked authorization, that would not cause the
expansion’s appropriations to fail.
First, Section 1901 itself authorizes appropriations
“to carry out the purposes of this subchapter,” which
assuredly include operating the expansion program
codified there. 42 U.S.C. 1396-1. Its lengthy preamble
only states Congress’s original reason for authorizing
funding; it does not limit the authorization. Second,
even under House and Senate rules, an organic statute
authorizing expenditures—as the Medicaid Act does
regarding the expansion—suffices to authorize
appropriations; provisions like Section 1901 are not
required. See Authorization of Appropriations, supra,
at 4, 6-7. Third and last, pre-appropriation authorization is only a parliamentary requirement, not a legal
one, and one that Congress often flouts. See id. at
8-9; GAO Redbook 2-80 n.72 (“Congress appropriates
huge sums each year to fund programs with expired
authorizations.”).
It is little wonder, then, that as Congress expanded
Medicaid “on more than 50 occasions” from the 1980s
to 2010, NFIB, 567 U.S. at 627 (Ginsburg, J.), it never
amended the authorization to name the new beneficiaries: doing so would have been entirely unnecessary.
Thus, it is impossible to conclude “beyond question”—
as courts must before judicially correcting statutes—
that Section 1901’s silence on the Medicaid expansion’s

20
purposes was a drafting error. U.S. Nat’l Bank of
Ore. v. Indep. Ins. Agents of Am., Inc., 508 U.S. 439,
462 (1993).
In sum, then, Section 1901 is silent on the Medicaid
expansion’s purposes. And there is no basis to
judicially correct its statement of original Medicaid’s
appropriations’ purposes to state the purposes of
expansion funds. So Section 1901 did not, unambiguously or otherwise, preclude the Secretary from deeming
health and independence objectives of the Medicaid
expansion.
2. The Secretary properly considered health
and independence.
Absent the court of appeals’ erroneous conclusion
that Section 1901’s preamble provides an exhaustive
list of Medicaid’s purposes, there isn’t any real dispute
that beneficiary health and independence are Medicaid
objectives. Indeed, even if coverage were Medicaid’s
sole objective, beneficiary health and independence
would further coverage by freeing scarce Medicaid
resources to cover the neediest beneficiaries.
First, as to health, health is undoubtedly an
objective—indeed, the ultimate objective—of a health
care program. After all, health is the purpose of health
care. And if Medicaid were only about lightening
beneficiaries’ health care costs, as the district court
suggested, Stewart, 313 F. Supp. 3d at 267, much of
Medicaid would make no sense: from its provision that
Medicaid plans must provide care with “reasonable
promptness,”10 42 U.S.C. 1396a(a)(8), to its many pro10

Indeed, in 2010 Congress amended the definition of “medical
assistance,” the lynchpin of the D.C. Circuit’s analysis, to make
it clearer that this provision required prompt care, not just prompt
payment for it. See H.R. Rep. No. 111-299, pt. 1, at 649-50 (2009).

21
visions ensuring the quality of care, not just its coverage. See, e.g., id. 1396a(a)(22), (a)(33)(A) (requirements
for state plans); id. 1396n(a)(2)(B), (b)(1)-(2), (i)(1)(H)(i)
(conditioning federal payment on quality assurance).
In response, the court of appeals concluded that
although health might be “the ultimate purpose[]” of
Medicaid, the program solely pursues that purpose
through “the means” of “health care coverage.” Pet.
App. 12a. But that’s an odd distinction to rest on here
since Section 1115 expressly authorizes the Secretary,
in approving demonstration projects, to waive any and
all of Medicaid’s substantive “requirements”—its
means—to promote its “objectives.” 42 U.S.C. 1315(a).
Moreover, the court of appeals’ distinction ignores
the fact that, as Medicaid has evolved since 1965,
Congress has increasingly used it to pursue improved
health outcomes directly. For example, in 2006, Congress
required the Secretary to approve up to ten States’
demonstration programs that contained “incentives to
patients to seek preventive health care services”—
including conditioning enhanced coverage on using
those services. Id. 1396u-8(a)(3), (a)(3)(B). After an
initial five-year testing period, the Secretary was authorized to approve such programs in any State. Id.
1396u-8(a)(2)(A)(ii). And in the ACA, Congress again
mandated healthy behavior incentives, there through
the Incentives for Protection of Chronic Disease in
Medicaid program, which required the Secretary to
fund experimental cash incentives for such “healthy
behaviors” as weight loss or smoking cessation. Pub.
L. No. 111-148, sec. 4108, 124 Stat. 119, 561-64 (2010)
(codified at 42 U.S.C. 1396a (note)). If Congress thought
so highly of healthy-behavior-incentive experiments
that it mandated the Secretary try some, surely the
Secretary at least has the discretion to try others.

22
As for independence, the Secretary’s view that one
objective of the Medicaid expansion—a public-assistance program for poor, able-bodied, non-elderly
adults—is helping beneficiaries become independent
from the program is hardly novel.11 Any social welfare
program for those who can work has that objective,
and there is no reason to think the Medicaid expansion
is any different. Indeed, even Section 1901, in which
the court of appeals placed so much stock, said original
Medicaid was intended to provide “services to help
[beneficiaries] attain or retain capability for independence or self-care.” 42 U.S.C. 1396-1. The court of
appeals insisted this language unambiguously referred
to “functional independence,” apparently meaning the
ability to live without nursing or home health care.
Pet. App. 15a. But even original Medicaid wasn’t
limited to the disabled or elderly; it provided assistance to low-income “families with dependent children,”
and “services to help such families [and other beneficiaries] attain or retain capability for independence.”
42 U.S.C. 1396-1 (emphasis added).
Thus, the
reference to independence could not have been limited
in the way the court of appeals thought.
11

The court of appeals’ suggestion that the Secretary did not
rely on this objective at all was mistaken. While placing greater
emphasis on health, the Secretary said “the agency has an obligation to ensure that proposed demonstration projects are likely
to better enable states to serve their low-income populations,
through measures . . . including [ones] to help individuals and
families attain or retain capability for independence or self-care.”
Pet. App. 69a. He also described the purpose of the project as
“test[ing] whether [the community-engagement requirement]
will lead to improved health outcomes and greater independence,”
and ultimately concluded that “it furthers the objectives of the
Medicaid statute to test and evaluate these requirements as a
means to improve beneficiaries’ health and to promote beneficiary
independence.” Pet. App. 68a, 75a (emphasis added).

23
This Court has already recognized that conserving
Medicaid costs by helping people avoid becoming eligible
for Medicaid assistance is a Medicaid objective. In
Pharmaceutical Research & Manufacturers of America
v. Walsh, 538 U.S. 644 (2003), drug manufacturers
claimed that Medicaid preempted a state law that
required prior authorization for Medicaid purchases
from manufacturers who declined to provide discounts
for non-Medicaid purchases. A plurality of this Court
upheld the law on the ground that the discounts served
the “Medicaid-related goal[]” of keeping “borderline”
people from suffering illness and “financial hardship”
and “end[ing] up in the Medicaid program.” Id. at 663.
Justice Breyer concurred on the ground that the law
“may further [that and other] Medicaid-related objectives,” agreeing they were Medicaid objectives. Id. at
671 (Breyer, J., concurring in part and concurring in
the judgment). And even the three Justices in dissent
did not dispute that keeping borderline individuals off
Medicaid assistance was a Medicaid objective; they
only disputed whether the “facts in the record” showed
the rebates had that effect. Id. at 689 (O’Connor, J.,
concurring in part and dissenting in part). If keeping
the ineligible from becoming eligible serves a Medicaid
objective, encouraging the eligible to attain employment that can help them become ineligible logically
serves a Medicaid objective.
B. The Secretary’s approval was not arbitrary
and capricious.
Because health and independence are Medicaid
objectives, the Secretary’s approval was not arbitrary
and capricious. The Secretary predicted that the
Arkansas Works Amendment would likely promote
beneficiary health and independence. Neither the
district court nor court of appeals found that prediction

24
unreasonable. Under the court of appeals’ approach
below, that means the Secretary’s approval was lawful.
For under that approach, where a statute has “several
possible objectives,” it is “enough for the agency to
assess at least one.” Pet. App. 18a (citing Fresno
Mobile Radio, Inc. v. FCC, 165 F.3d 965, 971 (D.C. Cir.
1999) (Ginsburg, J.) (“When an agency must balance a
number of potentially conflicting objectives . . . judicial
review is limited to determining whether the agency’s
decision reasonably advances at least one of those
objectives and its decisionmaking process was regular.”)).
That approach to arbitrary-and-capricious review
under a multi-objective statute is the correct one. As
Judge Wald explained in one of the early decisions
adopting that approach, “only the [agency] may decide
how much precedence particular policies will be granted
when several are implicated in a single decision.”
MobileTel, Inc. v. FCC, 107 F.3d 888, 895 (D.C. Cir.
1997). A court cannot decide how much weight the
Secretary should give coverage relative to health.
That would “substitute [its policy judgment] for that of
the Secretary.” Dep’t of Commerce v. New York, 139 S.
Ct. 2551, 2569 (2019). Indeed, this Court held in
Department of Commerce that where an agency’s
choice “call[s] for value-laden . . . weighing of incommesurables”—there, whether “the value of obtaining
more complete and accurate citizenship data . . . was
worth the risk of a potentially lower response rate”—
that choice is the agency’s to make. Id. at 2571. Here,
similarly, the Secretary concluded that the health
benefits of enhanced community engagement outweighed
the risks of coverage loss. Pet. App. 76a-77a. How
to weigh those incommensurables was likewise his
prerogative.

25
Further, even if the Secretary were required to
consider potential coverage losses beyond choosing to
place greater weight in his decision on health benefits,
the Secretary did consider coverage. As the court of
appeals acknowledged, the Secretary responded to
comments raising coverage, pointed to multiple features
of Arkansas’s project that would mitigate coverage loss,
indicated he believed that the community-engagement
requirement would “adequately incentivize beneficiary
participation” as to avoid substantial coverage loss,
Pet. App. 75a, and ultimately concluded that the likely
health benefits of the project outweighed the risks of
coverage loss.
What the court of appeals really faulted the
Secretary for, then, was failing to estimate the amount
of coverage loss. But while “[i]t is one thing to set aside
agency action under the Administrative Procedure Act
because of failure to adduce empirical data that can
readily be obtained,” “[i]t is something else to insist
upon obtaining the unobtainable.”
FCC v. Fox
Television Stations, 556 U.S. 502, 519 (2009). The
Secretary could not predict the precise outcome of
Arkansas’s experiment, turning on the vagaries of
human behavior as it did, without conducting the
experiment first. As Judge Friendly wrote of Section
1115 approvals, “it is legitimate for an administrator
to set a lower threshold for persuasion when he is
asked to approve a program that is avowedly experimental and has a fixed termination date.” Aguayo v.
Richardson, 473 F.2d 1090, 1103 (2d Cir. 1973).
Again, Department of Commerce is helpful. There,
the Secretary of Commerce, advised by his own Census
Bureau that a citizenship question would depress
response rates, concluded that given the “limited empirical evidence” to that effect, he could not “determine

26
definitively” whether the Bureau was right. 139 S. Ct.
at 2563. He then concluded that the value of citizenship data outweighed the uncertain risks of lower
response. Id. This Court did not require more; it found
his “uncertainty” “justifiabl[e],” and his ultimate
weighing reasonable. Id. at 2571. The Secretary’s
consideration of coverage here was no different. Faced
with comments predicting coverage loss on the basis of
surmise or the history of other programs, the Secretary
found the potential for coverage loss uncertain and
concluded that the benefits of approval outweighed the
uncertain risks. The APA required no more.
II. The question presented warrants review.
In addition to Arkansas and Kentucky, eighteen
other States have approved or pending Section 1115
waiver applications to experiment with communityengagement requirements in Medicaid. Under the
decision below, which would almost certainly govern
any challenges to those requirements, every one of
those States’ requirements would be invalid. Indeed,
two of those eighteen have been struck down by the
courts below already. And those are not the only
States whose Section 1115 waivers are threatened by
the court of appeals’ decision. Rather, under that
decision, any Section 1115 waiver that conditions
coverage on any healthy behavior—not just work or
community-engagement—is suspect. Certiorari is
needed to review and reverse that dramatic curtailment of the Secretary’s waiver powers and the States’
ability to test new approaches to implementing Medicaid.
Under the decision below, no work- or communityengagement requirement approved under Section
1115 can survive, and none can be approved. All workor community-engagement requirements seek to promote
the health or financial independence, or both, of those

27
subject to them. And all such requirements at least
create some theoretical risk of coverage loss. But
under the decision below, the only thing the Secretary
may consider in evaluating Section 1115 demonstration
projects is coverage. Anything else—and in particular
health and financial independence—is “non-statutory.”
Pet. App. 19a. That means that no Section 1115
approval of a work- or community-engagement requirement, no matter how careful its consideration of
coverage, can survive the court of appeals’ decision.
For any such approval will, under that decision’s logic,
promote “non-statutory objectives” to at least the
potential detriment of “the statutory purpose.” Pet.
App. 19a.
The government agrees. Since the court of appeals’
decision, it has conceded that decision forecloses any
defense of three Section 1115 approvals of communityengagement requirements in the courts below. In
Philbrick v. Azar, 397 F. Supp. 3d 11 (D.D.C. 2019),
the district court set aside the Secretary’s approval of
New Hampshire’s community-engagement requirement.
After the government appealed that decision, the court
of appeals rendered the decision from which certiorari
is sought here.
Even though the government’s
approval and discussion of coverage in Philbrick was
far more detailed than even the approval at issue
here,12 the government conceded its appeal was “controlled” by the decision below in this case. Philbrick v.

12

See Letter from Mary C. Mayhew, Deputy Adm’r & Dir.,
Ctrs. for Medicare & Medicaid Servs., to Henry D. Lipman,
Medicaid Dir., N.H. Dep’t of Health & Human Servs. 1 (Nov. 30,
2018), https://www.medicaid.gov/Medicaid-CHIP-Program-Infor
mation/By-Topics/Waivers/1115/downloads/nh/nh-granite-advant
age-health-care-program-ca.pdf.

28
Azar, Nos. 19-5293, 19-5295, 2020 WL 2621222, at *1
(D.C. Cir. May 20, 2020).
In a second case, challenging the Secretary’s
approval of Michigan’s community-engagement requirements, the Secretary conceded that under the decision
below, his “approval of [Michigan’s waiver’s] work and
community engagement component is unlawful.”
Young v. Azar, No. 1:19-cv-3526, D. Ct. Doc. 24, at 3
(D.D.C. Mar. 3, 2020). The district court subsequently
entered judgment as to those requirements. Young,
No. 1:19-cv-3526 (D.D.C. Mar. 4, 2020).
And in a third case, challenging Indiana’s communityengagement requirements, the government conceded
before the court of appeals even rendered judgment
that, were it to rule in favor of Respondents, the
Secretary’s approval of Indiana’s “community engagement requirement would be unlawful under circuit
precedent.” Rose v. Azar, No. 1:19-cv-2848, D. Ct. Doc.
31, at 1 (D.D.C. Jan. 6, 2020). Proceedings in that case
are stayed pending the COVID-19 emergency, but the
district court will inevitably vacate Indiana’s approval
once the stay is lifted.
Those three vacaturs will only be the beginning. The
Secretary has approved community-engagement requirements in five more States: Arizona, Ohio, South
Carolina, Utah, and Wisconsin. Medicaid Waiver
Tracker: Approved and Pending Section 1115 Waivers
by State, Kaiser Fam. Found. (June 26, 2020).13 None
of those approvals could survive a challenge in the
court of appeals, and already some of those States have
suspended implementation in view of the litigation
below. See Letter from Jami Snyder, Dir., Ariz. Health
13

https://www.kff.org/medicaid/issue-brief/medicaid-waiver-tra
cker-approved-and-pending-section-1115-waivers-by-state.

29
Care Cost Containment Sys., to Calder Lynch, Deputy
Adm’r & Acting Dir., Ctrs. for Medicare & Medicaid
Servs. (Oct. 17, 2019).14 Ten more States have pending
applications to institute community-engagement requirements under Section 1115: Alabama, Georgia, Idaho,
Mississippi, Montana, Nebraska, Oklahoma, South
Dakota, Tennessee, and Virginia. Medicaid Waiver
Tracker, supra. Unless this Court grants review of the
decision below, the Secretary will be forced to deny all
of those applications.
And even that does not exhaust the ramifications of
the court of appeals’ decision. Many other States have
obtained Section 1115 waivers to condition coverage,
in whole or part, on healthy behaviors. Michigan, for
example, requires beneficiaries above 100 percent of
poverty level to obtain a health risk assessment or
engage in other healthy behaviors, such as getting
vaccinations. The same plaintiffs who have challenged
Michigan’s community-engagement requirement have
challenged that requirement as well. See Young, No.
1:19-cv-3526, D. Ct. Doc. 1, at 23-24, 47-48 (D.D.C.
Nov. 22, 2019). Perhaps that requirement and others
like it could be defended on the ground that the
preventive care and other healthy behaviors they
incentivize conserve Medicaid costs—an objective the
decision below, at least explicitly, did not reject. But
they are, at the least, extremely vulnerable to attack.
The harms of the decision below can scarcely be
overstated. It is often said that the “States are
laboratories for experimentation,” Hall v. Florida, 572
14

https://www.medicaid.gov/Medicaid-CHIP-Program-Informa
tion/By-Topics/Waivers/1115/downloads/az/Health-Care-Cost-Con
tainment-System/az-hccc-postponement-ltr-ahcccs-works-101720
19.pdf.

30
U.S. 701, 724 (2014), but that is literally true under
Section 1115. Indeed, much of national healthcare
policy as we know it began its life as a State’s Section
1115 Medicaid experiment. Yet under the court of
appeals’ decision, that flexible waiver authority to test
policies that may enhance the health and welfare of a
State’s citizens—and ultimately the Nation’s—would
become a one-way ratchet, serving no purpose but to
“experiment” with means of increasing coverage. The
Court should grant review to restore Section 1115 to
its central place in healthcare policymaking.
Finally, the absence of a circuit split does not
counsel against certiorari. The D.C. Circuit does not
have exclusive jurisdiction over challenges to Section
1115 approvals, and in theory plaintiffs could sue
in their home States. But the conclusive bar the
D.C. Circuit has erected to Section 1115 communityengagement requirements all but ensures that future
plaintiffs will bring their challenges in the D.C.
Circuit, rather than taking the risk that a different
circuit would reject its erroneous interpretation of the
Medicaid statute. And the district court below has
resisted the government’s requests to transfer venue
to plaintiffs’ home States, reasoning that venue in
the District is preferable because “D.C.-based agency
officials” process Section 1115 applications. Stewart v.
Azar, 308 F. Supp. 3d 239, 247 (D.D.C. 2018). A split,
therefore, is extremely unlikely to emerge. Only this
Court’s review of the decision below can reopen the
door to Section 1115 innovation.

31
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney
General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
DYLAN L. JACOBS
Assistant Solicitors
General

Counsel for Petitioner
July 13, 2020

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 19-5094
Consolidated with 19-5096
————
CHARLES GRESHAM, et al.,
Appellees
v.
ALEX MICHAEL AZAR, II, SECRETARY,
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES IN HIS OFFICIAL CAPACITY, et al.,
Appellants
STATE OF ARKANSAS,
Appellee
————
Appeals from the United States District Court
for the District of Columbia
(No. 1:18-cv-01900)
————
Argued October 11, 2019
Decided February 14, 2020
————
Alisa B. Klein, Attorney, U.S. Department of Justice, argued the cause for federal appellants. With her
on the briefs were Mark B. Stern, Attorney, Robert
P. Charrow, General Counsel, U.S. Department of
Health and Human Services, and Brenna E. Jenny,
Deputy General Counsel.

2a
Leslie Rutledge, Attorney General, Office of the
Attorney General for the State of Arkansas, Nicholas
J. Bronni, Solicitor General, Vincent M. Wagner,
Deputy Solicitor General, and Dylan L. Jacobs,
Assistant Solicitor General, were on the brief for
appellant State of Arkansas.
Ian Heath Gershengorn argued the cause for
plaintiff-appellees. With him on the brief were Jane
Perkins, Thomas J. Perrelli, Devi M. Rao, Natacha Y.
Lam, Zachary S. Blau, and Samuel Brooke.
Kyle Druding was on the brief for amici curiae
American College of Physicians, et al. in support of
plaintiffs-appellees.
Edward T. Waters, Phillip A. Escoriaza, and
Christopher J. Frisina were on the brief for amici
curiae Deans, Chairs, and Scholars in support of
plaintiffs-appellees.
Judith R. Nemsick, Jon M. Greenbaum, and Sunu
Chandy were on the brief for amici curiae Lawyers
Committee for Civil Rights Under Law, et al. in
support of appellees and affirmance.
Before: PILLARD, Circuit Judge, and EDWARDS
and SENTELLE, Senior Circuit Judges.
Opinion for the Court filed by Senior Circuit Judge
SENTELLE.
SENTELLE, Senior Circuit Judge: Residents of
Kentucky and Arkansas brought this action against
the Secretary of Health and Human Services. They
contend that the Secretary acted in an arbitrary
and capricious manner when he approved Medicaid
demonstration requests for Kentucky and Arkansas.
The District Court for the District of Columbia held
that the Secretary did act in an arbitrary and capri-

3a
cious manner because he failed to analyze whether the
demonstrations would promote the primary objective
of Medicaid—to furnish medical assistance. After
oral argument, Kentucky terminated the challenged
demonstration project and moved for voluntary
dismissal. We granted the unopposed motion. The only
question remaining before us is whether the Secretary’s authorization of Arkansas’s demonstration is
lawful. Because the Secretary’s approval of the plan
was arbitrary and capricious, we affirm the judgment
of the district court.
I. Background
Originally, Medicaid provided health care coverage
for four categories of people: the disabled, the blind,
the elderly, and needy families with dependent children. 42 U.S.C. § 1396-1. Congress amended the
statute in 2010 to expand medical coverage to lowincome adults who did not previously qualify. Id. at
§ 1396a(a)(10)(A)(i)(VIII); NFIB v. Sebelius, 567 U.S.
519, 583 (2012). States have a choice whether to
expand Medicaid to cover this new population of
individuals. NFIB, 567 U.S. at 587. Arkansas expanded Medicaid coverage to the new population effective
January 1, 2014, through their participation in private
health plans, known as qualified health plans, with
the state paying premiums on behalf of enrollees.
Appellees’ Br. 14; Gresham v. Azar, 363 F. Supp. 3d
165, 171 (D.D.C. 2019).
Medicaid establishes certain minimum coverage
requirements that states must include in their plans.
42 U.S.C. § 1396a. States can deviate from those
requirements if the Secretary waives them so that the
state can engage in “experimental, pilot, or demonstration project[s].” 42 U.S.C. § 1315(a). The section
authorizes the Secretary to approve “any experi-

4a
mental, pilot, or demonstration project which, in the
judgment of the Secretary, is likely to assist in promoting the objectives” of Medicaid. Id.
Arkansas applied to amend its existing waiver
under § 1315 on June 30, 2017. Arkansas Administrative Record 2057 (“Ark. AR”). Arkansas gained
approval for its initial Medicaid demonstration waiver
in September 2013. In 2016, the state introduced its
first version of the Arkansas Works program, encouraging enrollees to seek employment by offering voluntary referrals to the Arkansas Department of Workforce Services. Dissatisfied with the level of participation in that program, Arkansas’s new version of
Arkansas Works introduced several new requirements
and limitations. The one that received the most
attention required beneficiaries aged 19 to 49 to “work
or engage in specified educational, job training, or
job search activities for at least 80 hours per month”
and to document such activities. Id. at 2063. Certain
categories of beneficiaries were exempted from completing the hours, including beneficiaries who show
they are medically frail or pregnant, caring for a
dependent child under age six, participating in a substance treatment program, or are full-time students.
Id. at 2080–81. Nonexempt “beneficiaries who fail to
meet the work requirements for any three months
during a plan year will be disenrolled . . . and will not
be permitted to re-enroll until the following plan year.”
Id. at 2063.
Arkansas Works included some other new requirements in addition to the much-discussed work requirements. Typically, when someone enrolls in Medicaid,
the “medical assistance under the plan . . . will be
made available to him for care and services included
under the plan and furnished in or after the third

5a
month before the month in which he made application.” 42 U.S.C. § 1396a(a)(34). Arkansas Works proposed to eliminate retroactive coverage entirely. Ark.
AR 2057, 2061. It also proposed to lower the income
eligibility threshold from 133% to 100% of the federal
poverty line, meaning that beneficiaries with incomes
from 101% to 133% of the federal poverty line would
lose health coverage. Id. at 2057, 2060–61, 2063.
Finally, Arkansas Works eliminated a program in
which it used Medicaid funds to assist beneficiaries in
paying the premiums for employer-provided health
care coverage. Id. at 2057, 2063, 2073. Arkansas instead used Medicaid premium assistance funds only to
help beneficiaries purchase a qualified health plan
available on the state Health Insurance Marketplace,
requiring all previous recipients of employer-sponsored coverage premiums to transition to coverage
offered through the state’s Marketplace. Id. at 2057,
2063, 2073.
On March 5, 2018, the Secretary approved most of
the new Arkansas Works program via a waiver effective until December 31, 2021, but with a few changes.
He approved the work requirements but under the
label of “community engagement.” Id. at 2. The Secretary authorized Arkansas to limit retroactive coverage
to thirty days before enrollment rather than a complete elimination of retroactive coverage. Id. at 3, 12.
He also approved Arkansas’s decision to terminate the
employer-sponsored coverage premium assistance program. Id. at 3. The Secretary did not, however, permit
Arkansas to limit eligibility to persons making less
than or equal to 100% of the federal poverty line. Id.
at 3 n.1, 11. Instead, the Secretary kept the income
eligibility threshold at 133% of the federal poverty
line. Id. at 3 n.1, 11.

6a
In the approval letter, the Secretary analyzed
whether Arkansas Works would “assist in promoting
the objectives of Medicaid.” Id. at 3. The Secretary
identified three objectives that he asserted Arkansas
Works would promote: “improving health outcomes; . . .
address[ing] behavioral and social factors that influence health outcomes; and . . . incentiviz[ing] beneficiaries to engage in their own health care and achieve
better health outcomes.” Id. at 4. In particular, the
Secretary stated that Arkansas Works’s community
engagement requirements would “encourage beneficiaries to obtain and maintain employment or undertake other community engagement activities that research has shown to be correlated with improved
health and wellness.” Id. Further, the Secretary
thought the shorter timeframe for retroactive eligibility would “encourage beneficiaries to obtain and maintain health coverage, even when they are healthy,”
which, in turn, promotes “the ultimate objective of
improving beneficiary health.” Id. at 5. The letter also
summarized concerns raised by commenters that the
community engagement requirement would “caus[e]
disruptions in care” or “create barriers to coverage”
for beneficiaries who are not exempt. Id. at 6–7. In
response, the Secretary noted that Arkansas had
several exemptions and would “implement an outreach strategy to inform beneficiaries about how to
report compliance.” Id.
The new work requirements took effect for those
aged 30 to 49 on June 1, 2018, and for those aged 20 to
29 on January 1, 2019. Gresham, 363 F. Supp. 3d at
172. Charles Gresham along with nine other Arkansans filed an action for declaratory and injunctive
relief against the Secretary on August 14, 2018. The
district court on March 27, 2019, entered judgment
vacating the Secretary’s approval, effectively halting

7a
the program. Gresham, 363 F. Supp. 3d at 176–85. In
its opinion supporting the judgment, the district court
relied on Stewart v. Azar, 313 F. Supp. 3d 237 (D.D.C.
2018) (Stewart I), which is the district court’s first
opinion considering Kentucky’s similar demonstration, Gresham, 363 F. Supp. 3d at 176. In Stewart I,
the district court turned to the provision authorizing
the appropriations of funds for Medicaid, 42 U.S.C.
§ 1396-1, and held that, based on the text of that
appropriations provision, the objective of Medicaid
was to “furnish . . . medical assistance” to people who
cannot afford it. Stewart I, 313 F. Supp. 3d at 260–61.
With its previously articulated objective of Medicaid
in mind, the district court then turned to the
Secretary’s approval of Arkansas Works. First, the
district court noted that the Secretary identified
three objectives that Arkansas Works would promote:
“(1) ‘whether the demonstration as amended was
likely to assist in improving health outcomes’; (2)
‘whether it would address behavioral and social factors that influence health outcomes’; and (3) ‘whether
it would incentivize beneficiaries to engage in their
own health care and achieve better health outcomes.’”
Gresham, 363 F. Supp. 3d at 176 (quoting Ark. AR 4).
But “[t]he Secretary’s approval letter did not consider
whether [Arkansas Works] would reduce Medicaid
coverage. Despite acknowledging at several points
that commenters had predicted coverage loss, the
agency did not engage with that possibility.” Id. at 177.
The district court also explained that the Secretary
failed to consider whether Arkansas Works would promote coverage. Id. at 179. Instead, the Secretary
considered his alternative objectives, primarily healthy
outcomes, but the district court observed that “‘focus
on health is no substitute for considering Medicaid’s
central concern: covering health costs’ through the

8a
provision of free or low-cost health coverage.” Id.
(quoting Stewart I, 313 F. Supp. 3d at 266). “In sum,”
the district court held:
the Secretary’s approval of the Arkansas
Works Amendments is arbitrary and capricious because it did not address—despite
receiving substantial comments on the
matter—whether and how the project would
implicate the “core” objective of Medicaid: the
provision of medical coverage to the needy.
Id. at 181. The district court entered final judgment on
April 4, 2019, and the Secretary filed a notice of appeal
on April 10, 2019.
This case was originally a consolidated appeal from
the district court’s judgment in both the Arkansas and
Kentucky cases. The district court twice vacated
the Secretary’s approval of Kentucky’s demonstration
for the same failure to address whether Kentucky’s
program would promote the key objective of Medicaid.
Stewart v. Azar, 366 F. Supp. 3d 125, 156 (D.D.C.
2019) (Stewart II); Stewart I, 313 F. Supp. 3d at 274.
On December 16, 2019, Kentucky moved to dismiss its
appeal as moot because it “terminated the section
[1315] demonstration project.” Intervenor-Def.-Appellant’s Mot. to Voluntarily Dismiss Appeal 1–2 (Dec. 16,
2019), ECF No. 1820334. Neither the government nor
the appellees opposed the motion. Gov’t’s Resp. (Dec.
18, 2019), ECF No. 1820655; Appellees’ Resp. (Dec. 20,
2019), ECF No. 1821219.
Although the Secretary has considerable discretion
to grant a waiver, we reject the government’s contention that such discretion renders his waiver decisions
unreviewable. The Administrative Procedure Act’s
(APA) exception from judicial review for an action

9a
committed to agency discretion is “very narrow,”
Citizens to Preserve Overton Park, Inc. v. Volpe, 401
U.S. 402, 410 (1971); see also Dep’t of Commerce v. New
York, 139 S. Ct. 2551, 2568 (2019), barring judicial
review only in those “rare instances” where “there
is no law to apply,” Overton Park, 401 U.S. at 410
(internal quotation marks and citation omitted). The
Medicaid statute provides the legal standard we apply
here: The Secretary may only approve “experimental,
pilot, or demonstration project[s],” and only insofar as
they are “likely to assist in promoting the objectives”
of Medicaid, 42 U.S.C. § 1315(a). Section 1315 approvals are not among the rare “categories of administrative decisions that courts traditionally have regarded
as committed to agency discretion.” Dep’t of Commerce,
139 S. Ct. at 2568.
Additionally, the government asked that we address
“the reasoning of the district court’s opinion in Stewart
and the underlying November 2018 HHS approval of
the Kentucky demonstration,” and second that we
vacate the district court’s judgment against the federal
defendants in the Kentucky case Stewart II, 66 F.
Supp. 3d 125. Gov’t’s Resp. 1–2. The appellees opposed
both of those additional requests. Appellees’ Resp.
1–4. We granted the motion to voluntarily dismiss but
declined to vacate the district court’s judgment against
the federal defendants in Stewart II. As to the government’s first request, we do not rely on the Secretary’s
reasoning in the November 2018 approval of Kentucky’s demonstration when considering the Secretary’s approval of Arkansas’s demonstration.
“We review de novo the District Court’s grant of
summary judgment, which means that we review the
agency’s decision on our own.” Castlewood Prods.,
L.L.C. v. Norton, 365 F.3d 1076, 1082 (D.C. Cir. 2004).

10a
Therefore, we will review the Secretary’s approval of
Arkansas Works in accordance with the Administrative Procedure Act and will set it aside if it is “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law.” 5 U.S.C. § 706(2)(A); see
also C.K. v. New Jersey Dep’t of Health & Human
Servs., 92 F.3d 171, 181–82 (3d Cir. 1996) (applying
the arbitrary and capricious standard of review to a
waiver under § 1315); Beno v. Shalala, 30 F.3d 1057,
1066–67 (9th Cir. 1994) (same); Aguayo v. Richardson,
473 F.2d 1090, 1103–08 (2d Cir. 1973) (same). An
agency action that “entirely failed to consider an important aspect of the problem, offered an explanation
for its decision that runs counter to the evidence before
the agency, or is so implausible that it could not be
ascribed to a difference in view or the product of
agency expertise” is arbitrary and capricious. Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983).
II. DISCUSSION
A. Objective of Medicaid
The district court is indisputably correct that the
principal objective of Medicaid is providing health care
coverage. The Secretary’s discretion in approving or
denying demonstrations is guided by the statutory
directive that the demonstration must be “likely
to assist in promoting the objectives” of Medicaid. 42
U.S.C. § 1315. While the Medicaid statute does not
have a standalone purpose section like some social
welfare statutes, see, e.g., 42 U.S.C. § 601(a) (articulating the purposes of the Temporary Assistance for
Needy Families program); 42 U.S.C. § 629 (announcing the “objectives” of the Promoting Safe and Stable
Families program), it does have a provision that articulates the reasons underlying the appropriations of

11a
funds, 42 U.S.C. § 1396-1. The provision describes the
purpose of Medicaid as
to furnish (1) medical assistance on behalf of
families with dependent children and of aged,
blind, or disabled individuals, whose income
and resources are insufficient to meet the
costs of necessary medical services, and (2)
rehabilitation and other services to help such
families and individuals attain or retain
capability for independence or self-care.
Id. In addition to the appropriations provision, the
statute defines “medical assistance” as “payment of
part or all of the cost of the following care and services
or the care and services themselves.” 42 U.S.C.
§ 1396d(a). Further, as the district court explained,
the Affordable Care Act’s expansion of health care
coverage to a larger group of Americans is consistent
with Medicaid’s general purpose of furnishing health
care coverage. See Stewart I, 313 F. Supp. 3d at 260
(citing Pub. L. No. 111-148, 124 Stat. 119, 130, 271
(2010)). The text consistently focuses on providing
access to health care coverage.
Both the First and Sixth Circuits relied on Medicaid’s appropriations provision quoted above in
concluding that “[t]he primary purpose of Medicaid is
to enable states to provide medical services to those
whose ‘income and resources are insufficient to
meet the costs of necessary medical services.’” Pharm.
Research & Mfrs. of Am. v. Concannon, 249 F.3d 66,
75 (1st Cir. 2001) (quoting 42 U.S.C. § 1396 (2000)),
aff’d, 538 U.S. 644 (2003); Price v. Medicaid Dir., 838
F.3d 739, 742 (6th Cir. 2016). Similarly, the Ninth
Circuit relied on both the appropriations provision and
the definition of “medical assistance” when describing
Medicaid as “a federal grant program that encourages

12a
states to provide certain medical services” and identifying a key element of “medical assistance” as
the spending of federally provided funds for medical
coverage. Univ. of Wash. Med. Ctr. v. Sebelius, 634
F.3d 1029, 1031, 1034–35 (9th Cir. 2011).
Beyond relying on the text of the statute, other
courts have consistently described Medicaid’s objective as primarily providing health care coverage. For
example, the Third Circuit succinctly stated, “We
recognize, of course, that the primary purpose of
medicaid is to achieve the praiseworthy social objective of granting health care coverage to those who
cannot afford it.” W. Va. Univ. Hosps., Inc. v. Casey,
885 F.2d 11, 20 (3d Cir. 1989), aff’d, 499 U.S. 83 (1991).
Likewise, the Supreme Court characterized Medicaid
as a “program . . . [that] provides joint federal and
state funding of medical care for individuals who
cannot afford to pay their own medical costs.” Ark.
Dep’t of Health & Human Servs. v. Ahlborn, 547 U.S.
268, 275 (2006); see also Virginia ex rel. Hunter Labs.,
L.L.C. v. Virginia, 828 F.3d 281, 283 (4th Cir. 2016)
(quoting Ahlborn in the section of the decision
explaining the important aspects of Medicaid).
The statute and the case law demonstrate that the
primary objective of Medicaid is to provide access to
medical care. There might be secondary benefits that
the government was hoping to incentivize, such as
healthier outcomes for beneficiaries or more engagement in their health care, but the “means [Congress]
has deemed appropriate” is providing health care
coverage. MCI Telecomms. Corp. v. Am. Tel. & Tel. Co.,
512 U.S. 218, 231 n.4 (1994). In sum, “the intent
of Congress is clear” that Medicaid’s objective is to
provide health care coverage, and, as a result, the
Secretary “must give effect to [that] unambiguously

13a
expressed intent of Congress.” Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 842–43
(1984).
Instead of analyzing whether the demonstration
would promote the objective of providing coverage,
the Secretary identified three alternative objectives:
“whether the demonstration as amended was likely to
assist in improving health outcomes; whether it would
address behavioral and social factors that influence
health outcomes; and whether it would incentivize
beneficiaries to engage in their own health care and
achieve better health outcomes.” Ark. AR 4. These
three alternative objectives all point to better health
outcomes as the objective of Medicaid, but that
alternative objective lacks textual support. Indeed, the
statute makes no mention of that objective.
While furnishing health care coverage and better
health outcomes may be connected goals, the text
specifically addresses only coverage. 42 U.S.C. § 13961. The Supreme Court and this court have consistently
reminded agencies that they are “bound, not only by
the ultimate purposes Congress has selected, but by
the means it has deemed appropriate, and prescribed,
for the pursuit of those purposes.” MCI Telecomms.,
512 U.S. at 231 n. 4; see also Waterkeeper All. v. EPA,
853 F.3d 527, 535 (D.C. Cir. 2017); Colo. River Indian
Tribes v. Nat’l Indian Gaming Comm’n, 466 F.3d 134,
139–40 (D.C. Cir. 2006). The means that Congress
selected to achieve the objectives of Medicaid was to
provide health care coverage to populations that
otherwise could not afford it.
To an extent, Arkansas and the government characterize the Secretary’s approval letter as also identifying transitioning beneficiaries away from governmental benefits through financial independence or

14a
commercial coverage as an objective promoted by
Arkansas Works. Ark. Br. 14, 37–42; Gov’t Br. 24–25,
32. This argument misrepresents the Secretary’s letter. The approval letter has a specific section for the
Secretary’s determination that the project will assist
in promoting the objectives of Medicaid. Ark. AR 3–5.
The objectives articulated in that section are the
health-outcome goals quoted above. That section does
not mention transitioning beneficiaries away from
benefits. The district court’s discussion of the Secretary’s objectives confirms our interpretation of this
letter. It identifies the Secretary’s alternative objective as “improv[ing] health outcomes.” Gresham, 363
F. Supp. 3d at 179. There is no reference to commercial
coverage in the Secretary’s approval letter, and the
only reference to beneficiary financial independence
is in the section summarizing public comments. In
response to concerns about the community engagement requirements creating barriers to coverage, the
Secretary stated, “Given that employment is positively
correlated with health outcomes, it furthers the purposes of the Medicaid statute to test and evaluate
these requirements as a means to improve beneficiaries’ health and to promote beneficiary independence.”
Ark. AR 6. But “[n]owhere in the Secretary’s approval
letter does he justify his decision based . . . on a belief
that the project will help Medicaid-eligible persons to
gain sufficient financial resources to be able to purchase private insurance.” Gresham, 363 F. Supp. 3d at
180–81. We will not accept post hoc rationalizations
for the Secretary’s decision. See State Farm, 463 U.S.
at 50.
Nor could the Secretary have rested his decision on
the objective of transitioning beneficiaries away from
government benefits through either financial independence or commercial coverage. When Congress

15a
wants to pursue additional objectives within a social
welfare program, it says so in the text. For example,
the purpose section of TANF explicitly includes
“end[ing] the dependence of needy parents on government benefits by promoting job preparation, work, and
marriage” among the objectives of the statute. 42
U.S.C. § 601(a)(2). Also, both TANF and the Supplemental Nutrition Assistance Program (SNAP) condition eligibility for benefits upon completing a certain
number of hours of work per week to support the
objective of “end[ing] dependence of needy parents on
government benefits.” 42 U.S.C. §§ 601(a)(2), 607(c)
(TANF); 7 U.S.C. § 2015(d)(1) (SNAP). In contrast,
Congress has not conditioned the receipt of Medicaid
benefits on fulfilling work requirements or taking
steps to end receipt of governmental benefits.
The reference to independence in the appropriations
provision and the cross reference to TANF cannot
support the Secretary’s alternative objective either.
The reference to “independence” in the appropriations
provision is in the context of assisting beneficiaries in
achieving functional independence through rehabilitative and other services, not financial independence
from government welfare programs. 42 U.S.C. § 13961. Medicaid also grants states the “[o]ption” to terminate Medicaid benefits when a beneficiary who receives both Medicaid and TANF fails to comply with
TANF’s work requirements. See 42 U.S.C. § 1396u1(b)(3)(A). The provision gives states, therefore, the
ability to coordinate benefits for recipients receiving
both TANF and Medicaid. It does not go so far as to
incorporate TANF work requirements and additional
objectives into Medicaid.
Further, the history of Congress’s amendments to
social welfare programs supports the conclusion that

16a
Congress did not intend 42 U.S.C. § 1396u-1(b)(3)(A)
to incorporate TANF’s objectives and work requirements into Medicaid. In 1996, SNAP already included
work requirements to maintain eligibility. 7 U.S.C.
§ 2015(d)(1) (1994). Also in 1996, Congress passed the
Personal Responsibility and Work Opportunity Reconciliation Act, which replaced Aid to Families with
Dependent Children with TANF and added work requirements. Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Pub. L. No. 104-193,
sec. 103, § 407, 110 Stat. 2105, 2129–34. At the same
time, it added 42 U.S.C. § 1396u-1(b)(3)(A) to Medicaid.
Id. at sec. 114, § 1931, 110 Stat. at 2177–80. The fact
that Congress did not similarly amend Medicaid to
add a work requirement for all recipients—at a time
when the other two major welfare programs had those
requirements and Congress was in the process of
amending welfare statutes—demonstrates that Congress did not intend to incorporate work requirements
into Medicaid through § 1396u-1(b)(3)(A).
In short, we agree with the district court that the
alternative objectives of better health outcomes and
beneficiary independence are not consistent with
Medicaid. The text of the statute includes one primary
purpose, which is providing health care coverage
without any restriction geared to healthy outcomes,
financial independence or transition to commercial
coverage.
B. The Approvals Were Arbitrary and Capricious
With the objective of Medicaid defined, we turn to
the Secretary’s analysis and approval of Arkansas’s
demonstration, and we find it wanting. In order to
survive arbitrary and capricious review, agencies need
to address “important aspect[s] of the problem.” State

17a
Farm, 463 U.S. at 43. In this situation, the loss of
coverage for beneficiaries is an important aspect of the
demonstration approval because coverage is a principal objective of Medicaid and because commenters
raised concerns about the loss of coverage. See, e.g.,
Ark. AR 1269–70, 1277–78, 1285, 1294–95.
A critical issue in this case is the Secretary’s failure
to account for loss of coverage, which is a matter of
importance under the statute. The record shows that
the Arkansas Works amendments resulted in significant coverage loss. In Arkansas, more than 18,000
people (about 25% of those subject to the work requirement) lost coverage as a result of the project in just
five months. Ark. Dep’t of Human Servs., Arkansas
Works Program 8 (Dec. 2018), https://humanservices.
arkansas.gov/images/uploads/011519AWReport.pdf.
Additionally, commenters on the Arkansas Works
amendments detailed the potential for substantial
coverage loss supported by research evidence. Ark. AR
1269–70, 1277–78, 1285, 1294–95, 1297, 1307–08,
1320, 1326, 1337–38, 1341, 1364–65, 1402, 1421.
The Secretary’s analysis considered only whether the
demonstrations would increase healthy outcomes and
promote engagement with the beneficiary’s health
care. Id. at 3–5. The Secretary noted that some
commenters were concerned that “these requirements
would be burdensome on families or create barriers to
coverage.” Id. at 6. But he explained that Arkansas
would have “outreach and education on how to comply
with the new community engagement requirements”
and that Centers for Medicare and Medicaid Services
could discontinue the program if data showed that it
was no longer in the public interest. Id. The Secretary
also concluded that the “overall health benefits to the
[a]ffected population . . . outweigh the health-risks
with respect to those who fail to” comply with the new

18a
requirements. Id. at 7. While Arkansas did not have
its own estimate of potential coverage loss, the estimates and concerns raised in the comments were
enough to alert the Secretary that coverage loss was
an important aspect of the problem. Failure to consider whether the project will result in coverage loss is
arbitrary and capricious.
In total, the Secretary’s analysis of the substantial
and important problem is to note the concerns of
others and dismiss those concerns in a handful of
conclusory sentences. Nodding to concerns raised by
commenters only to dismiss them in a conclusory
manner is not a hallmark of reasoned decisionmaking.
See, e.g., Am. Wild Horse Pres. Campaign v. Perdue,
873 F.3d 914, 932 (D.C. Cir. 2017) (critiquing an
agency for “brush[ing] aside critical facts” and not
“adequately analyz[ing]” the consequences of a decision); Getty v. Fed. Savs. & Loan Ins. Corp., 805 F.2d
1050, 1055 (D.C. Cir. 1986) (analyzing whether an
agency actually considered a concern rather than
merely stating that it considered the concern).
True, the Secretary’s approval letter is not devoid of
analysis. It does contain the Secretary’s articulation of
how he thought the demonstrations would assist in
promoting an entirely different set of objectives than
the one we hold is the principal objective of Medicaid.
In some circumstances it may be enough for the agency
to assess at least one of several possible objectives. See
Fresno Mobile Radio, Inc. v. FCC, 165 F.3d 965, 971
(D.C. Cir. 1999). But in such cases, the statute lists
several objectives, some of which might lead to conflicting decisions. Id.; see also Melcher v. FCC, 134
F.3d 1143, 1154 (D.C. Cir. 1998). For example, in both
Fresno Mobile Radio and Melcher, the statute at issue
included five separate objectives for FCC to consider

19a
when creating auctions for licenses, including “the
development and rapid deployment of new technologies,” “promoting economic opportunity and competition,” and the “efficient and intensive use of the
electromagnetic spectrum.” 47 U.S.C. § 309(j)(3). In
Fresno Mobile Radio, we recognized that these objectives could point to conflicting courses of action, so
the agency could give precedence to one or several
objectives over others without acting in an arbitrary or
capricious manner. Fresno Mobile Radio, 165 F.3d at
971; see also Melcher, 134 F.3d at 1154; Rural Cellular
Ass’n v. FCC, 588 F.3d 1095, 1101–03 (D.C. Cir. 2009)
(explaining that an agency may not “depart from”
statutory principles “altogether to achieve some other
goal”). The crucial difference in this case is that the
Medicaid statute identifies its primary purpose rather
than a laundry list. The primary purpose is
to furnish (1) medical assistance on behalf of
families with dependent children and of aged,
blind, or disabled individuals, whose income
and resources are insufficient to meet the
costs of necessary medical services, and (2)
rehabilitation and other services to help such
families and individuals attain or retain
capability for independence or self-care.
42 U.S.C. § 1396-1. Importantly, the Secretary disregarded this statutory purpose in his analysis. While
we have held that it is not arbitrary or capricious
to prioritize one statutorily identified objective over
another, it is an entirely different matter to prioritize
non-statutory objectives to the exclusion of the
statutory purpose.

20a
III. CONCLUSION
Because the Secretary’s approval of Arkansas
Works was arbitrary and capricious, we affirm the
district court’s judgment vacating the Secretary’s
approval.

21a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
————
Civil Action No. 18-1900 (JEB)
————
CHARLES GRESHAM, et al.,
Plaintiffs,
v.
ALEX M. AZAR II, et al.,
Defendants.
————
MEMORANDUM OPINION
Adrian McGonigal is 40 years old and lives with
his brother in Pea Ridge, Arkansas. He used to
have a job working in the shipping department of
Southwest Poultry, a food-service company located
nearby, although he received no medical insurance
through his employer. Like many Americans, he
has several serious medical conditions. Beginning in
2014, McGonigal was able to receive medical care —
including regular doctor visits and numerous prescription drugs — through the state’s expanded Medicaid
program. In mid-2018, however, McGonigal learned
that he would be subject to new work requirements,
which he would have to report online, as a condition of
receiving health benefits. These were imposed by
the Arkansas Works Amendments (AWA), approved
by the U.S. Secretary of Health and Human Services
in March 2018. Despite his lack of access to, and
difficulty working with, computers, he was able to
report his employment in June 2018, but he did not

22a
know he needed to continue to do so each month. As a
result, when he went to pick up his prescriptions
in October, the pharmacist told him that he was
no longer covered, and his medicines would cost him
$800. In the absence of Medicaid, he could not afford
the cost of the prescriptions and so did not pick them
up. His health conditions then flared up, causing him
to miss several days of work, and Southwest Poultry
fired him for his absences. He thus lost his Medicaid
coverage and his job.
Anna Book is 38 years old and lives in Little Rock.
She currently rents a room in an apartment but was
homeless for most of the last eight years. In July 2018,
she got a job as a dishwasher in a restaurant, for which
she works about 24 hours each week. Before that,
she was unemployed for two years. She nevertheless
also had health care provided through Arkansas’s
Medicaid program, which a local pastor helped her
sign up for in 2014. Book learned last August that,
pursuant to AWA, she would have to report 80 hours
each month of employment or other activities to keep
that coverage. While she reported her compliance in
August and September with the pastor’s help — she
does not have reliable internet access — Book has
several health conditions and worries that she will not
maintain sufficient hours at her job to keep her
coverage.
Russell Cook is 26 and also lives in Little Rock.
He is currently homeless. While he has spent time
working as a landscaper, he is not presently employed
and has minimal job prospects. The state’s Medicaid
program has previously given him access to health
care for various health conditions, including a torn
Achilles tendon and serious dental problems. Cook,
however, does not believe he will be able to comply

23a
with the new AWA work requirements, which began
applying to him in January 2019. Lacking access to the
internet or a phone, he also worries that he will be
unable to report compliance with those requirements.
He thus expects to lose his Medicaid coverage.
These are three of the ten Arkansans who come to
this Court seeking to undo the work requirements the
state added in 2018 to its Medicaid program. They
sued the Secretary of Health and Human Services in
August 2018, arguing that the federal government’s
approval of the state’s new requirements violated the
Administrative Procedure Act and the Constitution.
Plaintiffs’ suit does not offer an issue of first impression. Indeed, this Court just last summer considered a
challenge to the Secretary’s approval of very similar
changes to Kentucky’s Medicaid program — including
work or “community engagement” requirements — in
Stewart v. Azar, 313 F. Supp. 3d 237 (D.D.C. 2018)
(Stewart I). There, it vacated the agency’s decision
because it had not adequately considered whether
the program “would in fact help the state furnish
medical assistance to its citizens, a central objective of
Medicaid.” Id. at 243. Plaintiffs point to the identical
deficiency in the record in this case. Despite the protestations in its (and intervenor Arkansas’s) briefing,
HHS conceded at oral argument that the administrative decision in this case shares the same problem as
the one in Stewart I. See Oral Argument Transcript at
6–7. The Court’s job is thus easy in one respect: the
Secretary’s approval cannot stand.
Yet a separate question remains: what is the proper
remedy? In Stewart I, the Court vacated the approval
and remanded to the Secretary. Here, however, the
Government argues that vacatur is improper both
because, unlike Kentucky, AWA is already active and

24a
halting it would be quite disruptive, and because any
error is easily fixed, just as it has been for Kentucky.
The challengers disagree, positing that the deficiency
in the approval is substantial and that any resulting
disruption is outweighed by the ongoing harms
suffered by the more than 16,000 Arkansans who have
lost their Medicaid coverage. Given the seriousness
of the deficiencies — which, as this Court explains in
a separate Opinion issued today, the remand in
Kentucky did not cure — and the absence of lasting
harms to the Government relative to the significant
ones suffered by Arkansans like Plaintiffs, the Court
will vacate the Secretary’s approval and remand for
further proceedings.
I. BACKGROUND
As it did in Stewart I, the Court begins with an
overview of the relevant history and provisions of the
Medicaid Act. See 313 F. Supp 3d. at 243–44. It then
turns to Arkansas’s challenged plan before concluding
with the procedural history of this case.
A. Legal Background
1. The Medicaid Act
Since 1965, the federal government and the states
have worked together to provide medical assistance to
certain vulnerable populations under Title XIX of
the Social Security Act, commonly known as Medicaid.
See 42 U.S.C. § 1396-1. The Centers for Medicare and
Medicaid Services (CMS), a federal agency within the
Department of Health and Human Services, has
primary responsibility for overseeing Medicaid programs. Under the cooperative federal-state arrangement, participating states submit their “plans for
medical assistance” to the Secretary of HHS. Id. To

25a
receive federal funding, those plans — along with any
material changes to them — must be “approved by
the Secretary.” Id.; see also 42 C.F.R. § 430.12(c).
Currently, all states have chosen to participate in the
program.
To be approved, state plans must comply with
certain minimum parameters set out in the Medicaid
Act. See 42 U.S.C. § 1396a (listing 83 separate requirements). One such provision requires state plans to
“mak[e] medical assistance available” to certain lowincome individuals. Id. § 1396a(a)(10)(A). Until recently, that group included pregnant women, children,
and their families; some foster children; the elderly;
and people with certain disabilities. Id. In 2010,
however, Congress enacted the Patient Protection and
Affordable Care Act (ACA), colloquially known as
Obamacare, “to increase the number of Americans
covered by health insurance.” Nat’l Fed. of Indep.
Business v. Sebelius, 567 U.S. 519, 538 (2012). Under
that statute, states can expand their Medicaid coverage to include additional low-income adults under
65 who would not otherwise qualify. See 42 U.S.C.
§ 1396a(a)(10)(A)(i)(VIII).
Generally, a state must cover all qualified individuals or forfeit its federal Medicaid funding. Id.
§ 1396a(a)(10)(B). That was originally so for the ACA
expansion population as well. See 42 U.S.C. § 1396c.
In NFIB, however, the Supreme Court held that
Congress could not, consistent with the Spending
Clause of the Constitution, condition previously appropriated Medicaid funds on the state’s agreeing to the
expansion. See 567 U.S. at 584–85. The result was that
states could choose not to cover the new population
and lose no more than the funds that would have been
appropriated for that group. Id. at 587. If, however, the

26a
state decided to provide coverage, those individuals
would become part of its mandatory population. Id. at
585–87 (explaining that Congress may “offer[] funds
under the Affordable Care Act to expand the availability of health care, and requir[e] that States accepting
such funds comply with the conditions on their use”).
In that instance, the state must afford the expansion
group “full benefits” — i.e., it must provide “medical
assistance for all services covered under the State
plan” that are substantially equivalent “in amount,
duration, or scope . . . to the medical assistance available for [other] individual[s]” covered under the Act.
See 42 U.S.C. § 1396d(y)(2)(B); 42 C.F.R. § 433.204(a)(2).
The Medicaid Act, in addition to defining who is
entitled to coverage, also ensures what coverage those
enrolled individuals receive. Under § 1396a, states
must cover certain basic medical services, see 42
U.S.C. §§ 1396a(a)(10)(A), 1396d(a), and the statute
limits the amount and type of premiums, deductions,
or other cost-sharing charges that a state can impose
on such care. Id. § 1396a(a)(14); see also id. § 1396o.
Other provisions require states to provide three
months of retroactive coverage once a beneficiary
enrolls, see id. § 1396a(a)(34), and to ensure that
recipients receive all “necessary transportation . . . to
and from providers.” 42 C.F.R. § 431.53. Finally, states
must “provide such safeguards as may be necessary to
assure” that eligibility and services “will be provided,
in a manner consistent with simplicity of administration and the best interests of the recipients.” 42 U.S.C.
§ 1396a(a)(19).
2. Section 1115 of Social Security Act
Both before and after the passage of the ACA, a state
is not entirely locked in; instead, if it wishes to deviate
from the Medicaid Act’s requirements, it can seek a

27a
waiver from the Secretary of HHS. See 42 U.S.C.
§ 1315. In enacting the Social Security Act (and, later,
the Medicaid program within the same title), Congress
recognized that statutory requirements “often stand in
the way of experimental projects designed to test out
new ideas and ways of dealing with the problems
of public welfare recipients.” S. Rep. No. 1589, 87th
Cong., 2d Sess. 19, reprinted in 1962 U.S.C.C.A.N.
1943, 1961–62. To that end, § 1115 of the Social
Security Act allows the Secretary to approve “experimental, pilot, or demonstration project[s]” in state
medical plans that would otherwise fall outside
Medicaid’s parameters. The Secretary can approve
only those projects that “in [his] judgment . . . [are]
likely to assist in promoting the [Act’s] objectives.” 42
U.S.C. § 1315(a). As conceived, demonstration projects
were “expected to be selectively approved by the
Department and to be those which are designed to
improve the techniques of administering assistance.”
Supra S. Rep. No. 1589 at 1962. Once the Secretary
has greenlighted such a project, he can then waive
compliance with the requirements of § 1396a “to the
extent and for the period . . . necessary to enable [the]
State . . . to carry out such project.” Id. § 1315(a)(1).
While the ultimate decision whether to grant § 1115
approval rests with the Secretary, his discretion is not
boundless. Before HHS can act on a waiver application, the state “must provide at least a 30-day public
notice[-]and[-]comment period” regarding the proposed program and hold at least two hearings at least
20 days before submitting the application. See 42
C.F.R. §§ 431.408(a)(1), (3). Once a state completes
those prerequisites, it then sends an application to
CMS. Id. § 431.412 (listing application requirements).
After the agency notifies the state that it has received
the waiver application, a federal 30-day public-notice

28a
period commences, and the agency must wait at least
45 days before rendering a final decision. Id.
§§ 431.416(b), (e)(1).
B. Factual Background
1. Arkansas Works Amendments
Arkansas’s Medicaid program dates back to 1970.
For most of the program’s history, the state maintained among the most stringent eligibility thresholds
in the nation for adults, covering only the aged, disabled, and parents with very low incomes. See ECF 536, Exh. 54 (Ark. Health Care Independence Program
Interim Report) at 16. That changed with the passage
of the ACA. While states had a choice after NFIB not
to expand Medicaid, Arkansas was one of those that
opted to do so. Under its expansion program, which
began January 1, 2014, Medicaid-eligible persons
were given the opportunity to enroll in private insurance plans financed by the state. See AR 71. In its first
two years, the program provided health coverage to
more than 278,000 newly eligible individuals, helping
to lower the uninsured rate from 19% to 11%. See AR
1274. The program became known as Arkansas Works
in January 2017.
That month featured another significant change in
the political landscape, as the Trump administration
took over from President Obama. In March 2017, thenSecretary Thomas Price and CMS Director Seema
Verma sent a letter to all 50 governors announcing
the administration’s view that the ACA’s expansion of
Medicaid was “a clear departure from the core, historical mission of the program.” See AR 85. They thus
alerted states of the agency’s “intent to use existing
Section 1115 demonstration authority” to help revamp
Medicaid. See AR 86. Together they promised to find

29a
“a solution that best uses taxpayer dollars to serve”
those individuals they deemed “truly vulnerable.”
Id. Heeding HHS’s call, Governor Asa Hutchinson
proposed three substantial amendments to Arkansas
Works under Section 1115. See AR 2057. First, he
proposed to shift income eligibility for the expansion
population from 133% to 100% of the Federal Poverty
Line. Id. Second, he proposed to “institute work
requirements as a condition” of continued Medicaid
coverage. Id. Third, he proposed to eliminate retroactive health coverage. Id. The state did not estimate the
effects these amendments would have on Medicaid
coverage. CMS held a public-comment period from
July 11 to August 10, 2017, and numerous organizations offered their views and analysis of the changes.
On March 5, 2018, the Secretary approved the work
requirements and limits to retroactive coverage, concluding that they were “likely to assist in improving
health outcomes” and “incentivize beneficiaries to
engage in their own health care.” AR 2–4. Under the
new work requirements, most able-bodied adults in
the Medicaid expansion population ages 19 to 49 must
complete each month 80 hours of employment or other
qualifying activities — or earn income equivalent to 80
hours of work. Id. Compliance was required to be
reported monthly through an online portal. See AR 29.
Various groups of persons are exempt, including the
medically frail, pregnant women, full-time students,
and persons in drug- or alcohol-treatment programs.
See AR 28. Nonexempt individuals who do not report
sufficient qualifying hours for any three months in a
plan year are disenrolled from Medicaid for the
remainder of that year and not permitted to re-enroll
until the following plan year. See AR 14, 30–31. The
work requirements took effect for persons age 30 to 49
on June 1, 2018, and for persons age 20 to 29 on

30a
January 1, 2019. See ECF No. 26-3 (Arkansas Works
Eligibility and Enrollment Monitoring Plan) at 7–8. As
to retroactive coverage, the Secretary approved a
reduction from the three months required by the Act
to one month; the more drastic proposal of eliminating
such coverage entirely was abandoned, as was the
Governor’s request to reduce eligibility down to 100%
of the FPL. See AR 12, 22.
According to Arkansas’s Department of Human
Services, only a small percentage of the persons
required to report compliance with the work requirements actually did so during the first six months of the
program. In October, for example, only 12.3% (1687
out of 13653) of persons not exempt from the requirements reported any kind of qualifying activity.
See ECF No. 42-1 (Arkansas Works Reports June–
November 2018) at 47, 52. Since the program began,
more than 16,900 individuals have lost Medicaid
coverage for some period of time for not reporting their
compliance. Id. at 18, 27, 36, 45. It is not known what
percentage of these individuals completed the work
requirements but did not report versus those who did
not engage in the work itself.
2. Kentucky HEALTH
Arkansas was not the only state interested in
the new administration’s proposal to rethink the
Medicaid Expansion. The Commonwealth of Kentucky
proposed a demonstration project — called Kentucky
HEALTH — with similar community-engagement requirements and cutbacks to retroactive coverage.
(It also contained other elements not relevant here.)
Kentucky, unlike Arkansas, did estimate the coverage
effects of its project, explaining that thousands of
persons would lose their Medicaid benefits over the
course of the project; indeed, their estimate corre-

31a
sponded to about 95,000 persons losing Medicaid for
one full year. As it did in Arkansas, the Secretary
approved that project on the ground that it was likely
to “improv[e] health outcomes” and “increas[e] individual engagement in health care decisions.” Stewart I,
313 F. Supp. 3d at 258 (quoting AR 7).
Before the project took effect, several Medicaid
recipients challenged the Secretary’s approval in this
Court. They argued, among other things, that the
agency had failed to adequately explain why Kentucky
HEALTH promoted the objectives of Medicaid and
that approval of the project exceeded HHS’s statutory
authority. The Court concluded that the plaintiffs
were right in one central and dispositive respect:
“[T]he Secretary never adequately considered whether
Kentucky HEALTH would in fact help the state furnish medical assistance to its citizens, a central objective of Medicaid.” Id. at 243. It therefore vacated the
Secretary’s approval and remanded the matter to the
agency for further consideration. Id. at 273.
HHS has since reopened the comment period and
subsequently reapproved Kentucky’s project, offering
additional explanation for why the project advances
the objectives of the Medicaid Act. The parties have
now come back to the Court and filed cross-motions for
summary judgment in that case. The Court issues a
separate Opinion today resolving those motions, which
it will refer to as Stewart II.
C. Procedural History
Several Arkansas residents filed this lawsuit in
August 2018. They assert that the Secretary’s approval of the Arkansas Works Amendments was
arbitrary and capricious, in excess of his statutory
authority, and in violation of the Take Care Clause of

32a
the Constitution. Because it was designated as related
to Stewart I, see ECF No. 2, the case was directed to
this Court. While Defendants objected to the relatedcase designation, see ECF No. 17, the Court determined that the cases’ common legal and factual issues
militated in favor of its retaining the matter. See
Minute Order of Sept. 12, 2018. The State of Arkansas
has since intervened as a Defendant, and numerous
amici have also joined the fray. Dueling Cross-Motions
for Summary Judgment are now ripe.
II. LEGAL STANDARD
The parties have cross-moved for summary judgment on the administrative record. The summaryjudgment standard set forth in Federal Rule of Civil
Procedure 56(c), therefore, “does not apply because of
the limited role of a court in reviewing the administrative record.” Sierra Club v. Mainella, 459 F. Supp. 2d
76, 89 (D.D.C. 2006); see also Bloch v. Powell, 227 F.
Supp. 2d 25, 30 (D.D.C. 2002), aff’d, 348 F.3d 1060
(D.C. Cir. 2003). “[T]he function of the district court is
to determine whether or not as a matter of law the
evidence in the administrative record permitted the
agency to make the decision it did.” Sierra Club, 459
F. Supp. 2d. at 90 (quotation marks and citation
omitted). “Summary judgment is the proper mechanism for deciding, as a matter of law, whether an
agency action is supported by the administrative
record and consistent with the [Administrative Procedure Act] standard of review.” Loma Linda Univ. Med.
Ctr. v. Sebelius, 684 F. Supp. 2d 42, 52 (D.D.C. 2010)
(citation omitted).
The Administrative Procedure Act “sets forth the
full extent of judicial authority to review executive
agency action for procedural correctness.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 513 (2009). It

33a
requires courts to “hold unlawful and set aside agency
action, findings, and conclusions” that are “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2). Agency action
is arbitrary and capricious if, for example, the agency
“entirely failed to consider an important aspect of the
problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference
in view or the product of agency expertise.” Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983).
In other words, an agency is required to “examine
the relevant data and articulate a satisfactory explanation for its action including a rational connection
between the facts found and the choice made.” Id. at
43 (quoting Burlington Truck Lines v. United States,
371 U.S. 156, 168 (1962)) (internal quotation marks
omitted). Courts, accordingly, “do not defer to the
agency’s conclusory or unsupported suppositions,”
United Techs. Corp. v. Dep’t of Def., 601 F.3d 557, 562
(D.C. Cir. 2010) (quoting McDonnell Douglas Corp. v.
Dep’t of the Air Force, 375 F.3d 1182, 1187 (D.C. Cir.
2004)), and “agency ‘litigating positions’ are not
entitled to deference when they are merely [agency]
counsel’s ‘post hoc rationalizations’ for agency action,
advanced for the first time in the reviewing court.”
Martin v. Occupational Safety & Health Review
Comm’n, 499 U.S. 144, 156 (1991) (citation omitted).
Although a reviewing court “may not supply a reasoned basis for the agency’s action that the agency
itself has not given,” a decision that is not fully
explained may, nevertheless, be upheld “if the agency’s path may reasonably be discerned.” Bowman
Transp., Inc. v. Arkansas-Best Freight System, Inc.,
419 U.S. 281, 285-86 (1974) (citation omitted).

34a
III. ANALYSIS
The Court, as it must, first addresses whether there
is subject-matter jurisdiction before proceeding to the
merits of Plaintiffs’ challenges.
A. Jurisdiction
Unlike in Stewart I, Defendants do not contest
Plaintiffs’ standing to challenge the Secretary’s
approval of the Arkansas Works Amendments as a
whole. The Court, nevertheless, has an independent
duty to assure that it has subject-matter jurisdiction
in this case. See Kaplan v. Cent. Bank of Islamic
Repub. of Iran, 896 F.3d 501, 509 (D.C. Cir. 2018). To
establish standing under Article III, Plaintiffs must
show that they have suffered a concrete injury that is
fairly traceable to the challenged conduct and that is
likely to be redressed by a favorable judicial decision.
See Lujan v. Defs. of Wildlife, 504 U.S. 555, 590 (1992).
On review, the Court easily concludes that at least one
Plaintiff has established all three elements. Consider,
for example, Adrian McGonigal, whom we encountered in this Opinion’s opening paragraph. He attests
that he has lost his Medicaid coverage as a result of
the community-engagement requirement and has thus
been unable to pay for certain medical bills and
prescription drugs. See ECF No. 27-3 (McGonigal
Declaration). Or look to Russell Cook, also mentioned
in the introduction, who avers that he will be unable
to meet the community-engagement requirement once
it applies to him and thus believes that loss of his
health-care coverage is imminent. See ECF No. 27-7
(Cook Declaration). From these declarations and
others submitted with Plaintiffs’ Motion, there is little
doubt that at least one Plaintiff has suffered an injury
(or will suffer an injury in the future) — the loss of
Medicaid coverage — that is attributable to the

35a
Secretary’s approval of AWA, and that a favorable
decision from the Court would redress it. See NB ex rel.
Peacock v. District of Columbia, 682 F.3d 77, 82–83
(D.C. Cir. 2012).
While standing is thus easily established for their
claim challenging the project as a whole, the state of
Arkansas attacks Plaintiffs’ standing to make one of
their arguments. It specifically says that no Plaintiff
may challenge Arkansas Works’ online-only reporting
requirements because the state changed its policy
before this suit so as to allow reporting by phone or in
person. See ECF No. 39 (Arkansas MSJ) at 34. There
is no need for the Court to weigh in here. Because it
resolves this case based on the challenge to the
Arkansas Works Amendments writ large, the Court
declines to decide whether certain Plaintiffs have
standing to challenge this particular part of the
project.
B. Merits
With that threshold issue easily dispatched, the
Court turns to the merits. Plaintiffs’ central position is
identical to that of the challengers in Stewart I: the
Arkansas Works Amendments “fundamentally alter
the design and purpose of Medicaid.” ECF No. 27
(MSJ) at 13. They thus assail the Secretary’s approval
of the Amendments on similar fronts. First, with
regard to the project as a whole, Plaintiffs assert that
HHS did not sufficiently consider whether it would
promote the objectives of Medicaid, including how it
would affect the provision of medical assistance to
the needy. Second, they maintain that the Secretary
lacked statutory authority to approve numerous
aspects of AWA. Finally, Plaintiffs posit that a letter
CMS issued in January 2018 violates the APA because
it did not go through notice and comment. As in

36a
Stewart I, the Court only needs to consider the
first of these contentions: “whether the Secretary
acted arbitrarily or capriciously in concluding that
[Arkansas Works] was ‘likely to assist in promoting
the objectives’ of the Medicaid Act.” Stewart I, 313 F.
Supp. 3d at 259 (quoting 42 U.S.C. § 1315(a)).
Under that deferential standard, the Court “is not
empowered to substitute its judgment for that of the
agency.” Citizens to Preserve Overton Park, Inc. v.
Volpe, 401 U.S. 402, 416 (1971). Nor can it “presume
even to comment upon the wisdom of [Arkansas’s]
effort at [Medicaid] reform.” C.K. v. N.J. Dep’t of
Health & Human Servs., 92 F.3d 171, 181 (3d Cir.
1996). Still, it is a fundamental principle of administrative law that “agencies are required to engage in
reasoned decisionmaking.” Michigan v. EPA, 135 S.
Ct. 2699, 2706 (2015) (internal quotation marks
omitted). This means that an agency must “examine
all relevant factors and record evidence.” Am. Wild
Horse Pres. Campaign v. Perdue, 873 F.3d 914, 923
(D.C. Cir. 2017). At minimum, the Secretary cannot
“entirely fail[] to consider an important aspect of the
problem.” Motor Vehicle Mfrs. Ass’n v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983). Rather, he
must “adequately analyze . . . the consequences” of his
actions. See Am. Wild Horse, 873 F.3d at 932. In doing
so, “[s]tating that a factor was considered . . . is not a
substitute for considering it.” Getty v. Fed. Savs. &
Loan Ins. Corp., 805 F.2d 1050, 1055 (D.C. Cir. 1986).
The agency must instead provide more than “conclusory statements” to prove it “consider[ed] [the relevant] priorities.” Id. at 1057.
With that framework in mind, Plaintiffs’ position is
simple: “The purpose of [] Medicaid” is to enable states
“to furnish health care coverage to people who cannot

37a
otherwise afford it.” MSJ at 1, 15. Yet the Secretary,
just as in Stewart I, “failed to consider adequately” the
impact of the proposed project on Medicaid coverage.
See Am. Wild Horse, 873 F.3d at 923. Indeed, he
neither offered his own estimates of coverage loss nor
grappled with comments in the administrative record
projecting that the Amendments would lead a substantial number of Arkansas residents to be disenrolled from Medicaid. Those omissions, they urge,
make his decision arbitrary and capricious.
Plaintiffs are correct. As Opening Day arrives, the
Court finds its guiding principle in Yogi Berra’s
aphorism, “It’s déjà vu all over again.” In other words,
as the Secretary’s failures here are nearly identical to
those in Stewart I, the Court’s analysis proceeds in
the same fashion. It begins with the basic deficiencies
in the Secretary’s approval in this case and then
examines Defendants’ counterarguments.
1. The Secretary’s Consideration of Medicaid’s
Objectives
Before approving a demonstration or pilot project,
the Secretary must identify the objectives of Medicaid
and explain why the project is likely to promote them.
As it did in Stewart I, the Court assumes that the
Secretary’s identification of those objectives is entitled
to Chevron deference. That is, in reviewing his
interpretation, the Court must first ask whether
“Congress has directly spoken to the precise question
at issue,” and, if not, whether “the agency’s answer is
based on a permissible construction of the statute.”
Chevron U.S.A., Inc. v. Nat’l Res. Def. Council, Inc.,
467 U.S. 837, 842–43 (1984). According such deference
is not of much practical significance here, however,
because the Secretary agrees with the Court’s under-

38a
standing of a “core objective” of the Medicaid Act. See
ECF No. 52 (HHS Reply) at 5.
In Stewart I, the Court explained that “one of
Medicaid’s central objectives” is to “furnish medical
assistance” to persons who cannot afford it. See 313 F.
Supp. 3d at 243, 261, 266, 273. That conclusion
followed ineluctably from § 1396-1 of the Act, which
provides that Congress appropriated Medicaid funds
“[f]or the purpose of enabling each State, as far
as practicable under the conditions in such State, to
furnish (1) medical assistance . . . [to] individuals[]
whose income and resources are insufficient to meet
the costs of necessary medical services, and (2) rehabilitation and other services to help such families and
individuals attain or retain capability for independence or self-care.” Case law discussing the program’s
objectives confirms as much. See, e.g., Schweiker
v. Hogan, 453 U.S. 569, 571 (1982) (explaining that
Congress established Medicaid “for the purpose of
providing federal financial assistance to States that
choose to reimburse certain costs of medical treatment
for needy persons”); W. Va. Univ. Hosps. Inc. v. Casey,
885 F.2d 11, 20 (3d Cir. 1989) (“[T]he primary purpose
of [M]edicaid is to achieve the praiseworthy social
objective of granting health care coverage to those who
cannot afford it.”).
Defendants, as mentioned, agree that providing
health coverage to the needy is a purpose of the Act.
See ECF No. 37 (HHS MSJ) at 12; Ark. MSJ at 13.
In Arkansas’s words, “[T]hat Medicaid coverage is a
Medicaid objective is readily apparent from the substantive provisions of the statute.” Ark. MSJ at 13.
The Secretary, in fact, refers to the provision of
medical care to eligible persons as “Medicaid’s core
objective.” HHS Reply at 5 (emphasis added). HHS

39a
nevertheless did not consider whether AWA would
advance or impede that objective.
In his approval letter, the Secretary explained that
he considered the following objectives of the Medicaid
Act: (1) “whether the demonstration as amended
was likely to assist in improving health outcomes”;
(2) “whether it would address behavioral and social
factors that influence health outcomes”; and (3)
“whether it would incentivize beneficiaries to engage
in their own health care and achieve better health
outcomes.” AR 4. Those are substantially the same
objectives HHS considered when it first approved the
Kentucky program. See Stewart I, 313 F. Supp. 3d at
261–62. What the Court said in that case thus holds
true here: “While those may be worthy goals, there
[i]s a notable omission from the list” — namely,
whether the project would “help or hurt [Arkansas]
in ‘funding . . . medical services for the needy.’” Id.
(quoting Alexander v. Choate, 469 U.S. 287, 289 n.1
(1985)). By his own description, the Secretary “entirely
failed to consider” this question. See State Farm, 463
U.S. at 43.
The Government conceded as much at oral argument, stating that HHS’s Arkansas approval letter no
more addresses the program’s effects on Medicaid
coverage than the Kentucky approval letter before the
Court in Stewart I. See Tr. at 6–7. Because this is
a separate administrative decision on review in a
separate case, however, a brief assessment of the
deficiency is instructive. To “adequately analyze” the
issue of coverage, Am. Wild Horse, 873 F.3d at 932, the
Secretary needed to consider whether the demonstration project would be likely to cause recipients to lose
coverage and whether it would cause others to gain
coverage. He did neither.

40a
a. Risk to Coverage
The Secretary’s approval letter did not consider
whether AWA would reduce Medicaid coverage. Despite acknowledging at several points that commenters had predicted coverage loss, the agency did
not engage with that possibility. For example, after
mentioning that commenters had “expressed concerns
that these requirements would . . . create barriers to
coverage,” the Secretary responded that “[t]he state
has pledged to do beneficiary outreach and education
on how to comply” and has created an “easy” online
reporting system. See AR 6. He also pointed to exemptions built into the project and to Arkansas’s assurances that it will allow for “reasonable modifications”
for beneficiaries unable to meet the requirements.
Id. But those statements did not grapple with the
coverage issue. Not only did they fail to address
whether coverage loss would occur as predicted, but
they also ignored that commenters had projected that
such loss would happen regardless of the exemptions
and the education and reporting processes; indeed,
some comments pinpointed online-only reporting as a
source of coverage loss. See, e.g., AR 1272, 1287.
Later, HHS noted again many commenters’ view
that community-engagement requirements would
“create barriers to coverage for non-exempt people who
might have trouble accessing care.” AR 6. Instead of
addressing that issue, however, it merely said: “We
believe that the community engagement requirements
create appropriate incentives for beneficiaries to gain
employment.” Id. That position says nothing about
the risk of coverage loss those requirements create.
The bottom line: the Secretary did no more than
acknowledge — in a conclusory manner, no less — that
commenters forecast a loss in Medicaid coverage. But

41a
“[s]tating that a factor was considered . . . is not a
substitute for considering it.” Getty, 805 F.2d at 1055.
His decision thus falls short of the kind of “reasoned
decisionmaking” the APA requires. See Michigan, 135
S. Ct. at 2706.
Defendants argue that the Secretary did not need
to — and perhaps was not even able to — provide a
numeric estimate of coverage loss. See HHS MSJ at
21; Ark. MSJ at 24. While producing an empirical
prediction of coverage loss does not seem like too much
to ask of the expert agency tasked with supervising
Medicaid programs in all 50 states, the Court does not
need to decide whether such an estimate is required.
Here, numerous commenters predicted that substantial coverage loss would occur; a table cataloguing the
relevant comments is included at the end of this
Opinion in an Appendix. See, e.g., AR 1269 (Arkansas
Advocates noting that requirement “will increase the
rate of uninsured Arkansans”); AR 1277 (American
Congress Obstetricians and Gynecologists explaining
that “[t]he experience of the TANF program . . . demonstrates that imposing work requirements on Medicaid
beneficiaries would . . . lead to the loss of health care
coverage for substantial numbers of people who are
unable to work or face major barriers to finding and
retaining employment.”); see also ECF No. 33 (Amicus
Brief of Deans, Chairs, and Scholars) at 14. Under
these circumstances, the agency must grapple with
the risk of coverage loss. See Nat’l Lifeline Assoc. v.
FCC, 915 F.3d 19, 30-31 (D.C. Cir. 2019).
The Secretary should explain, for example, whether
it agrees with the commenters’ coverage predictions. If
so, it might elucidate whether it expects the loss to be
minor or substantial, and how that weighs against the
advancement of other Medicaid objectives. Nothing

42a
close to this appears in the Secretary’s approval letter.
That does not mean that the Government must
“recit[e] and refut[e] every objection submitted in
opposition to the proposed demonstration.” HHS MSJ
at 22. It just means that, at a minimum, the agency
cannot “entirely fail[] to consider an important aspect
of the problem,” repeatedly raised in the comment
period. See State Farm, 463 U.S. at 43.
Arkansas maintains that the Secretary did not need
to consider any reduction in coverage because it —
unlike Kentucky — did not predict that the project
would even cause coverage loss. See Ark. MSJ at 24.
But the state’s failure in that respect does not alter
HHS’s inquiry. Under the Medicaid Act, the Secretary
may approve only those demonstration projects that
are “likely to assist in promoting the objectives of
[Medicaid],” and the parties agree that the provision
of health coverage is a “central” objective of the Act.
See 42 U.S.C. § 1315(a); HHS MSJ at 12–13; Ark. MSJ
at 13. Whether a state gives the Secretary excellent
data or no data at all about coverage, his duty remains
the same: to determine whether the proposed project
will promote the objectives of the Act, including
whether it advances or hinders the provision of health
coverage to the needy. If it were otherwise, HHS could
approve a project that would decimate Medicaid
coverage without so much as addressing the issue
where the state did not submit its own estimate of
coverage loss. Even putting to one side the agency’s
affirmative obligation to address coverage loss, however, the Secretary unquestionably has a duty to
consider that issue where multiple commenters provide credible forecasts that it will occur. See, e.g., AR
1269, 1277, 1285, 1294–95. Here, as has been said, the
agency had and neglected that duty.

43a
In a last attempt to resist this conclusion, the Secretary says that he did not need to consider coverage
because he had no obligation to offer any explanation
of his decision to approve a demonstration project. See
HHS MSJ at 22–23; see also Tr. at 9. For support, HHS
points to the regulations governing its approval of
demonstration projects, which do not explicitly require
the Secretary to respond to comments or articulate the
basis for his decision. See HHS MSJ at 22 (discussing
42 C.F.R. § 431.416). The APA, however, requires
more. Where an agency decision is judicially reviewable, as the Court has already held this one is, see
Stewart I, 313 F. Supp. 3d at 254–56, the Government
“must give a reason that a court can measure . . .
against the ‘arbitrary or capricious’ standard of the
APA.” Kreis v. Sec’y of Air Force, 866 F.2d 1508, 1514–
15 (D.C. Cir. 1989); see also Coburn v. McHugh, 679
F.3d 924, 934 (D.C. Cir. 2012) (“At the very least, the
Board must ‘provide an explanation that will enable
the court to evaluate the agency’s rationale at the time
of decision.’”) (quoting Pension Benefit Guar. Corp. v.
LTV Corp., 496 U.S. 633, 654 (1990)). HHS’s regulations — which require CMS to maintain and publish
an administrative record of public comments, any
CMS responses, and a written approval or disapproval
letter — are fully consonant with this axiomatic
administrative-law requirement. See 42 C.F.R.
§ 431.416(f). The argument that no explanation for the
Secretary’s decision is required thus does not save it.
b. Promote Coverage
At the same time that he failed to consider the risk
to coverage, the Secretary identified only one element
of the Amendments that might promote health coverage. In a single sentence, he noted that “a more limited
period of retroactive eligibility will encourage bene-

44a
ficiaries to obtain and maintain health coverage, even
when they are healthy.” AR 8. Little needs to be said
on this score. It is well established that “conclusory or
unsupported suppositions” do not satisfy the agency’s
obligation to engage in reasoned decisionmaking. See
McDonnell Douglas Corp. v. U.S. Dep’t of Air Force,
375 F.3d 1182, 1187 (D.C. Cir. 2004). That is particularly so in the face of numerous comments taking
the opposite position. As the American Congress
of Obstetricians and Gynecologists, among others,
explained, limiting retroactive coverage may lead
“Medicaid-eligible persons [to] wait even longer to
have their conditions treated to avoid incurring
medical bills they cannot pay.” AR 1279. And when
they do eventually arrive for treatment, they will be
covered for less time than they would have been before
AWA took effect, by definition reducing their Medicaid
coverage. See AR 1338 (National Health Law Program
describing this risk). HHS’s brief reference to the
potential coverage-promoting effects of the changes to
retroactive eligibility thus does not get it across the
line.
2. Counterarguments
Defendants offer two separate reasons for the Court
to overlook the Secretary’s failure to consider coverage, neither of which is persuasive. They say first that
the Arkansas Works Amendments promote several
other important objectives of Medicaid, including the
health of Medicaid-eligible persons. Second, Defendants maintain that any deficiency in the administrative record in this case is cured by the agency’s
subsequent approval of Kentucky’s similar project on
remand from the Court’s decision in Stewart I.

45a
a. Other Objectives
Defendants justify the proposed demonstration
project on the ground that, regardless of its effect on
Medicaid coverage, it advances other objectives of the
Act. HHS specifically insists, as it did in Stewart I,
that the Secretary was on solid ground in finding that
the project would improve health outcomes, thereby
advancing the goals of Medicaid. See HHS MSJ at 17–
18. Faced with this argument previously, this Court
expressed skepticism that health, generally construed,
was properly considered an objective of the Act. See
Stewart I, 313 F. Supp. 3d at 266. It ultimately held
that the agency’s “focus on health is no substitute for
considering Medicaid’s central concern: covering
health costs” through the provision of free or low-cost
health coverage. Id. The Court reached the same
conclusion in response to assertions that Kentucky
HEALTH promoted independence and self-sufficiency.
Id. at 271–72. HHS has offered no argument here that
calls those conclusions into question.
Arkansas presses the point in a somewhat different
way, asserting that the provision of Medicaid coverage
is (1) the purpose only of Medicaid appropriations, not
Medicaid, (2) in “irreconcilable tension” with other
purposes of the Act, and (3) not applicable to the
Medicaid expansion population. See Ark. MSJ at 10–
22. At the same time, it concedes, seemingly in conflict
with its other contentions, that it is “readily apparent”
that providing “Medicaid coverage for Medicaideligible people” is “an objective of Medicaid.” Id. at 13.
The Court has said this before and will say it again: if,
as Arkansas and HHS admit (and this Court has
found), ensuring Medicaid coverage for the needy is a
key objective of the Act, the Secretary’s failure to
consider the effects of the project on coverage alone

46a
renders his decision arbitrary and capricious; it does
not matter that HHS deemed the project to advance
other objectives of the Act.
While the Court might stop there, a brief foray into
Arkansas’s arguments is nevertheless worthwhile. As
to the first, Medicaid is an appropriations statute
enacted pursuant to “Congress’s power under the
Spending Clause.” NFIB, 567 U.S. at 542. What better
place could the purpose of a spending program be
found than in the provision that sets up the “purpose”
of its appropriations? Arkansas’s second objection is
even more puzzling. The Court does not understand
how the objectives of a statute all agree was designed
to provide free or low-cost medical care to the needy
could nevertheless stand in “irreconcilable tension”
with the goal of providing free or low-cost medical care
to that population. The third sits on more comprehensible ground, though it yields Arkansas no more
success. Addressing the purpose of the Medicaid expansion in Stewart I, the Court explained that “the
Medicaid statute — taken as a whole — confirms that
Congress intended to provide medical assistance to the
expansion population.” 313 F. Supp. 3d at 269. HHS
conceded as much in that case. Id. Neither party has
offered any reason to retreat from that determination.
Defendants’ attempts to find refuge in other purposes of the Act and the propriety of Chevron deference
as to those purposes are thus all hat, no cattle.
Because they agree that the provision of low-cost
medical care to Medicaid-eligible persons is a “core”
purpose of the Act, see HHS Reply at 5, there is no
legally significant dispute over the meaning of the
Medicaid Act. What matters, instead, is the question
addressed above: whether the Secretary adequately
considered this issue. As has been made abundantly

47a
clear, he did not. Perhaps understanding as much,
HHS largely attempts to justify its approval of the
project in this case not on the Arkansas record but on
another record entirely.
b. Kentucky Remand
This brings the Court to the argument that leads off
the Secretary’s Reply Brief: that his approval of AWA
“is amply justified by the reasoning in his November
20, 2018, approval of Kentucky’s materially similar
project.” HHS Reply at 1. In particular, HHS argues
that the project on review here will, like the one
approved on remand in Kentucky, help adults “transition from Medicaid to financial independence,” thereby enhancing “the fiscal sustainability of Arkansas’s
Medicaid program” — an objective of the Act. Id. at 6.
The Government clarified at oral argument that this
is not merely a contention against vacatur — although
it was principally offered as such — but also an argument in favor of sustaining the Secretary’s approval
entirely. See Tr. at 8–10. The Court addresses the
latter position here, leaving the remedy question for
the end. In short, three weighty and independent
rationales require rejecting HHS’s assertion that the
Amendments should be approved based on the record
in the Kentucky remand proceeding.
First, it runs headlong into the “fundamental rule of
administrative law” that a reviewing court “must
judge the propriety of such action solely by the
grounds invoked by the agency.” SEC v. Chenery
Corp., 332 U.S. 194, 196 (1947). Nowhere in the
Secretary’s approval letter does he justify his
decision based on concerns about the sustainability of
Arkansas’s Medicaid program, or on a belief that the
project will help Medicaid-eligible persons to gain
sufficient financial resources to be able to purchase

48a
private insurance. And the Court “may not accept []
counsel’s post hoc rationalizations for agency action.”
State Farm, 463 U.S. at 50; see also Burlington Truck
Lines, 371 U.S. at 168–69 (“Chenery requires that an
agency’s discretionary order be upheld, if at all, on the
same basis articulated in the order by the agency
itself.”). The Government responded at oral argument
that the Secretary did not need to provide any basis
for his decision approving Arkansas’s proposed project, so it does not matter on what justification his
decision is judicially upheld. See Tr. at 9–10. The
Court has already explained why that assertion is
inconsistent with the APA, see supra at 20–21, and it
will not spill more ink on the matter here.
HHS’s argument suffers from a second and equally
significant flaw. The demonstration project under
consideration in Kentucky involves different considerations from the Arkansas project, and the rationales
in favor of approving one may well not apply to
approving the other. The Secretary said as much in
opposing this case’s designation as related to the
Kentucky one. See ECF No. 17 (“The two cases involve
two separate approvals of two distinct projects in two
different States.”). Consider the principal arguments
the Secretary relies upon on remand in Kentucky.
First, he says that the project promotes coverage
because in its absence, the expansion population
would have no Medicaid coverage. See Stewart v. Azar,
No. 18-152, ECF No. 108 (HHS MSJ) at 18–20. A
necessary ingredient of this argument appears to be
that the Kentucky Governor has conditioned the
Commonwealth’s continued expansion of Medicaid on
the Secretary’s approval of the proposed project. Id. at
19. There is no suggestion that Arkansas’s Governor
has made any similar kind of threat with regard to the
Arkansas Works Amendments. Second, the Secretary

49a
justifies the Kentucky program on the ground that
it advances the fiscal sustainability of the state’s
Medicaid program, which is at risk due to Kentucky’s
dire budgetary situation. Id. at 15–18. Yet there is
no assertion that Arkansas is suffering from similar
fiscal problems. The Government’s argument that the
Kentucky approval justifies the decision on review
in this case is particularly unpersuasive considering
these significant differences.
The final reason to reject this argument is the
simplest: the justification the Secretary has given for
sustaining Kentucky’s program on remand is insufficient and the Court today rejects it in its latest
Opinion in Stewart. See Stewart v. Azar, No. 18-152,
Slip Opinion at 3 (Mar. 27, 2019) (Stewart II). If
the explanation does not even justify affirmance of
Kentucky’s project, it cannot support upholding a
different administrative decision approving a different
state’s project.
* * *
In sum, the Secretary’s approval of the Arkansas
Works Amendments is arbitrary and capricious because it did not address — despite receiving substantial comments on the matter — whether and how the
project would implicate the “core” objective of
Medicaid: the provision of medical coverage to the
needy. Neither his consideration of other Medicaid Act
objectives nor his subsequent approval of Kentucky’s
separate demonstration project cure that deficiency.
This failure infected the Secretary’s approval of AWA
as a whole, such that those Amendments are invalid.
The Court will thus grant Plaintiffs full relief on their
arbitrary-and-capricious claim, removing any need
to address their separate statutory-authority, APA
notice-and-comment, and constitutional arguments.

50a
C. Remedy
That leaves only the question of the proper remedy,
which in these circumstances is not small beer. When
a court concludes that agency action is unlawful, “the
practice of the court is ordinarily to vacate the rule.”
Ill. Pub. Telecomms. Ass’n v. FCC, 123 F.3d 693, 693
(D.C. Cir. 1997); Reed v. Salazar, 744 F. Supp. 2d 98,
119 (D.D.C. 2010) (“[T]he default remedy is to set aside
Defendants’ action.”); Sierra Club v. Van Antwerp, 719
F. Supp. 2d 77, 78 (D.D.C. 2010) (“[B]oth the Supreme
Court and the D.C. Circuit Court have held that
remand, along with vacatur, is the presumptively
appropriate remedy for a violation of the APA.”).
“[A]lthough vacatur is the normal remedy, [courts]
sometimes decline to vacate an agency’s action.” Allina
Health Servs. v. Sebelius, 746 F.3d 1102, 1110 (D.C.
Cir. 2014). That decision depends on the “seriousness
of the order’s deficiencies (and thus the extent of doubt
whether the agency chose correctly) and the disruptive
consequences of an interim change.” Allied-Signal,
Inc. v. U.S. Nuclear Reg. Comm’n, 988 F.2d 146, 15051 (D.C. Cir. 1993) (citation omitted); see also Standing Rock Sioux Tribe v. U.S. Army Corps of Engineers,
282 F. Supp. 3d 91, 103 (D.D.C. 2017) (declining to
vacate when agency “largely complied” with statute
and could likely substantiate prior conclusions on
remand).
In Stewart I, the Court concluded that both factors
supported vacatur. The Government’s failure to consider an objective of Medicaid was a “major shortcoming” going “to the heart” of his decision. See 313 F.
Supp. 3d at 273. And vacatur was not overly disruptive
because the project had “yet to take effect” and
the plaintiffs could suffer “serious harm[s]” were
Kentucky HEALTH allowed to be implemented pend-

51a
ing further proceedings. Id. While the journey is
somewhat different in this case, the Court arrives at
the same destination.
1. Seriousness of Deficiencies
The first factor does not favor the Government. For
starters, in Stewart I, the Court concluded that the
same legal error was a “major shortcoming” going
“to the heart of the Secretary’s decision.” 313 F. Supp.
3d at 273. It explained that the D.C. Circuit has
“repeatedly vacated agency actions with that flaw.” Id.
Defendants respond that the Secretary has cured the
error identified in Stewart I on remand, so it will
assuredly be able to cure this one upon remand, too.
See HHS MSJ at 28-29; see also Ark. MSJ at 37-38.
Not so. As explained at length in Stewart II, the Court
finds that the remand has not cured this “major
shortcoming.” See Slip Op. at 3, 14–45. Because the
agency failed to provide a legally sufficient rationale
upon remand from Stewart I, the Court is even less
sanguine that it will be able to do so in this case than
when it vacated the Secretary’s Kentucky approval the
first time.
This does not mean it will be impossible for the
agency to justify its approval of a demonstration
project like this one. The Court’s decision does not go
that far. But after at least two attempts for Kentucky,
it has yet to do that analysis. Indeed, HHS may find
it more difficult to offer a sufficient rationale in
its second attempt in this case than in Kentucky.
Arkansas does not appear to face the kind of fiscal
issues asserted in Kentucky; instead, the state’s data
suggest that the Medicaid expansion has reduced the
amount Arkansas will spend on health care for this
population between 2017 and 2021. See ECF No. 53-6,
Exh. 55 (Final Report of Arkansas Health Reform

52a
Legislative Task Force) (explaining that if Arkansas
rejects Medicaid expansion, “the negative impact to
the state budget is approximately $438 [million]”
during this time frame). It stands to reason that the
state will have an uphill climb making the case that
the expansion has pressed its annual budget, such
that eligible persons should be pushed off the rolls.
Such fiscal considerations would, in any event, need to
be balanced against the more than 16,000 persons who
have already lost their coverage because of the new
requirements. See Arkansas Works Reports at 18, 27,
36, 45. The upshot is that the road to cure the
deficiency in this case is, at best, a rocky one, strongly
weighing in favor of vacatur.
2. Seriousness of Disruption
The second factor is a closer call. Arkansas began
implementing its demonstration project in June 2018,
imposing work requirements on adults ages 30–49 and
implementing the changes to retroactive coverage; it
began enforcing work requirements as to adults ages
19–29 in January 2019. HHS and Arkansas assert
that any interruption in the project would be enormously disruptive because it would interfere with the
“State’s data collection efforts,” HHS Reply at 22, and
“undermine” its “extensive efforts to educate Arkansas
Works beneficiaries” on the work requirements. See
Ark. MSJ at 38–39. They emphasize that, because the
Kentucky program had not yet taken effect at the time
of its vacatur, these concerns were not present in
Stewart I. Id. The Court is not insensitive to the
practical concerns Defendants raise about pausing
enforcement of the Amendments, nor does it take
lightly the effect of its ruling upon the state today. For
the reasons that follow, however, it finds that the

53a
probable disruptions are not so significant as to
require deviation from the ordinary rule of vacatur.
Consider first the nature and extent of the disruptions. If the Court vacates the Secretary’s approval of
AWA, the state would no longer condition certain
Medicaid recipients’ coverage on reporting 80 hours of
qualifying activities each month and would restore the
number of months of retroactive coverage to three. In
other words, vacatur would return matters to the
way they were before the project was approved. Both
changes, HHS asserts, will disrupt the state’s datacollection efforts. See HHS MSJ at 29. If Arkansas —
as the party responsible for collecting and analyzing
data from the project — has concerns about data
collection in the event of vacatur, it does not say as
much. See Ark. MSJ at 38–40 (mentioning only disruptive effects on education and outreach); ECF No. 45
(Ark. Reply) (same). Indeed, one amicus points out
that the Secretary approved this project without “a
proposed evaluation design.” See Amicus Brief of
Deans, Chairs, and Scholars at 19–20.
The Court assumes, however, that vacatur would
interrupt the state’s efforts to collect data on the
effects of the work requirements and changes to
retroactive coverage. While such concerns are not
insignificant, they are tempered in the context of this
case. Experimental projects are intended to help states
like Arkansas “test out new ideas” for providing medical coverage to the needy, thereby influencing the
trajectory of the federal-state Medicaid partnership
down the line. See supra S. Rep. No. 1589 at 1961. If,
after further consideration or after prevailing on
appeal, the Secretary and Arkansas wish to move
ahead with work requirements, they will remain able
to do so in the future. And if they are dissatisfied with

54a
the data gathered from the initial months of the
project because of the interruption caused by vacatur,
Defendants could extend the project for an additional
period of time to collect more information. This is not
to minimize the importance of data collection in the
context of an experimental project; it is just to say that
vacatur will have little lasting impact on HHS’s or
Arkansas’s interests. That distinguishes this case
from others in which the D.C. Circuit has declined to
vacate on account of irreversible harms that such a
remedy would inflict on the status quo. See AlliedSignal, 988 F.2d at 151.
Defendants also maintain that vacatur will harm
“Arkansas’s education and outreach efforts.” Ark. MSJ
at 39. In that regard, they explain that a decision
invalidating the work requirements will be confusing
to Medicaid recipients who have just recently been
informed that they have to meet those requirements.
Id. at 38–39. The Court grants that vacatur of work
requirements that have already been implemented
may send mixed messages. But any disruption in this
respect is not sufficiently significant to avoid vacatur.
For one thing, Defendants have expressed confidence
throughout this case that they can communicate with
Medicaid recipients regarding the terms of the work
requirements. See HHS MSJ at 8; Ark MSJ at 27, 34–
35. If that is so, they should be able to inform them
that the requirements are paused for now and, if later
reapproved, that they are put back into effect. It bears
mentioning here, however, that the State’s outreach
efforts may well be falling severely short. Notably,
only 12.3% of persons not exempt from the requirements reported any kind of qualifying activity. See
Arkansas Works Reports June–November 2018 at 47,
52. The numbers are even lower for several other
months. Id. Arkansas might use the time while the

55a
program is paused to consider whether and how to
better educate persons about the requirements and
how to satisfy them. Admittedly, vacatur could make
such outreach complicated. Ultimately, however, the
Court finds that the harms to prior and ongoing
education do not tip the scales against vacatur.
In fact, the structure of the Amendments, considered with the timing of this Opinion, renders vacatur
less disruptive that might be expected. As mentioned
before, Arkansas Works recipients only lose coverage
after three months of non-compliance with the work
requirements. See AR 31. And the three-month clock
starts over at the beginning of the calendar year. Id.
Because fewer than three months have elapsed in
2019, the work requirements have not yet resulted
in anyone’s being disenrolled, as such actions cannot
take place until April 1. As a consequence, vacatur of
the Amendments will not require Arkansas to reenroll persons who have lost their coverage, with the
administrative and communication-related headaches
that might entail. Instead, it just requires them
to communicate to providers that they should not
disenroll persons moving forward on account of the
requirements. The bottom line: “This is not a case in
which the ‘egg has been scrambled,’ and it is too late
to reverse course.” Allina Health, 746 F.3d at 1110–11
(quoting Sugar Cane Growers Co-op of Fla. v.
Veneman, 289 F.3d 89, 97 (D.C. Cir. 2002)).
Finally, the Court emphasizes that the disruptions
to Arkansas’s administration of its Medicaid program
must be balanced against the harms that Plaintiffs
and persons like them will experience if the program
remains in effect. Cf. A.L. Pharma, Inc. v. Shalala, 62
F.3d 1484, 1492 (D.C. Cir. 1995) (explaining that
vacatur inappropriate because “nothing in the record

56a
suggests that significant harm would result from
allowing the approval to remain in effect pending the
agency’s further explanation”); see also Tr. at 13 (conceding that court should consider harms to Plaintiffs
as part of equitable inquiry into vacatur). Arkansas’s
own numbers confirm that in 2018, more than 16,000
persons have lost their Medicaid. Defendants offer no
reason to think the numbers will be different in 2019;
indeed, once the requirements apply to persons aged
19–29, they seem likely to rise. See Arkansas Works
Reports at 18, 27, 36, 45. Weighing the harms these
persons will suffer from leaving in place a legally
deficient order against the disruptions to the State’s
data-collection and education efforts due to vacatur
renders a clear answer: the Arkansas Works Amendments cannot stand.
IV. CONCLUSION
For the foregoing reasons, the Court will grant
Plaintiffs’ Motion for Summary Judgment and deny
Defendants’ Cross-Motions. A separate Order consistent with this Opinion will issue this day, remanding the matter to HHS.
/s/ James E. Boasberg
JAMES E. BOASBERG
United States District Judge
Date: March 27, 2019

57a
Appendix A
Arkansas Health
Plan Component
CommunityEngagement
Requirement

Comments
AR 1269 (Arkansas Advocates for
Children & Families) (noting that
the requirement “will increase the
rate of uninsured Arkansans” based
on comparable effect in TANF
program) AR 1277 (American Congress of Obstetricians and Gynecologists, et al.) (“The experience of
the TANF program . . . demonstrates that imposing work requirements on Medicaid beneficiaries
would . . . lead to the loss of health
care coverage for substantial numbers of people who are unable to
work or face major barriers to
finding and retaining employment.”); AR 1285 (Families USA)
(“The presence of the requirement
itself will be a barrier to enrollment, causing some eligible working individuals to forego applying
for coverage, and will make it
more difficult for some statutorily
eligible individuals to maintain
coverage.”); AR 1291 (AARP) (expressing concern that requirements would “present an unnecessary barrier to health coverage for
a sector of Arkansas’s population
for whom coverage is critical”); AR

58a
1294 (Cystic Fibrosis Foundation)
(“We are concerned that this
definition [of medically unfit] does
not specify what will qualify an
individual for exemption, and that
people with cystic fibrosis may lose
coverage because they are unable
to satisfy the requirement due
to health status.”); AR 1308
(Arkansas Hospital Association)
(“These proposed changes . . . will
likely lead to increases in churn,
gaps in coverage, uninsurance and
uncompensated care for hospitals
and other providers.”); AR 1326
(Legal Aid of Arkansas) (noting
that the requirement “would
exclude individuals . . . who are
partially employable but suffer due
to chronic health conditions”); AR
1337 (National Health Law Program) (“The end result of this
policy will likely be fewer people
with Medicaid coverage and more
uninsured people delaying treatment.”); AR 1341 (Nat’l Alliance on
Mental Illness) (“NAMI Arkansas
is concerned that the implementation of mandatory work requirements could cause substantial
numbers of people with mental
illness to lose health coverage,
making it difficult to access mental
health care.”); AR 1364–65 (Urban
Institute Study) (detailing “cover-

59a
age losses” as consideration
for pending Medicaid work-related
requirements
nationwide
and
noting “potential adverse impacts
on enrollees who have high health
care needs but who do not qualify
for disability benefits”); AR 1402
(Medicaid and CHIP Payment and
Access Commission) (listing an
impact on coverage as implication
of Medicaid work requirement and
noting almost every state proposing requirement had estimated a
coverage loss). AR 1421 (Kaiser
Family Foundation Issue Brief)
(arguing that based on the TANF
experience, “a work requirement
might result in eligible people
losing coverage”).
Retroactive
Eligibility

AR 1292 (AARP) (warning lack of
retroactive coverage would increase debt obligations on previous
beneficiaries and would “increase
the burden of uncompensated care
on providers”); AR 1297 (Human
ARC) (“Gaps of time without
medical coverage for the lowincome population that are eligible
and applying for Medicaid will be
significant.”); AR 1307 (Arkansas
Hospital Association) (“AHA is
concerned that the waiver of retroactive eligibility will result in
unanticipated and avoidable gaps

60a
in coverage and healthcare debt.”);
AR 1320 (Cancer Action Network)
(stating waiver of retroactive eligibility “could place a substantial
financial burden on enrollees and
cause significant disruptions in
care”); AR 1338 (National Health
Law Program) (“The entirely predictable result will be . . . more
individuals experiencing gaps in
coverage when some providers
refuse to treat them.”).

61a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
————
Civil Action No. 1:18-cv-1900 (JEB)
————
CHARLES GRESHAM, et al.,
v.

Plaintiffs,

ALEX M. AZAR II, et al.,
Defendants.
————
I, Timothy Hill, Acting Director for Medicaid and
CHIP Services, Centers for Medicare & Medicaid
Services, United States Department of Health and
Human Services, under authority delegated to me by
the Secretary of Health and Human Services, certify
that, to the best of my knowledge, the attached documents constitute a true and complete copy of nonprivileged material that CMS considered in approving
Arkansas’s amendment to Medicaid Section 1115
Demonstration Number 11-W-00287/6.
Dated: October 15, 2018
/s/ Timothy Hill
Timothy Hill

62a
Approval Documents

0001-0070

Fact Sheet

0071-0073

Guidance Documents Considered

0074-0219

Relevant Correspondence

0220-1264

Public Comments submitted during
the federal comment period

1265-1343

Research Materials Considered:
Hahn, et al., Work Requirements in
Social Safety Net Programs (2017)

1344-1396

Ramsey, Study finds most Medicaid
beneficiaries already work or can’t
work; many of those out of work are
in poor health (2017)

1397-1399

MACPAC, Work as a Condition of
Medicaid Eligibility: Key TakeAways from TANF (2017)

1400-1415

Masumeci & Zur, Medicaid Enrollees 1416-1424
and Work Requirements: Lessons
From the TANF Experience (2017)
Government Accountability Office,
Medicaid Demonstrations: Federal
Action Needed to Improve Oversight
of Spending (2017)

1425-1462

Ghent University, Volunteers are in
better health than non-volunteers
(2017)

1463-1465

Masumeci, Medicaid and Work
Requirements (2017)

1466-1471

Rector, Work Requirements in
Medicaid Won’t Work. Here’s a
Serious Alternative (2017)

1472-1475

63a
1476-1478
Medicaid.gov, New Hampshire
Protection Program Premium
Assistance (Approved March 4, 2016)
Chetty, et al., The Association
1479-1482
Between Income and Life Expectancy
in the United States 2001-2014
(2016)
Leach, Volunteering Linked to Better 1483-1488
Health (2016)
The Lewin Group, Indiana Healthy
1489-1600
Indiana Plan 2.0: Interim Evaluation
Report (July 6, 2016)
Medicaid.gov, Healthy Indiana Plan
(Approved Jan. 27, 2015)

1601-1608

Deloitte, Commonwealth of
Kentucky: Medicaid Expansion
Report: 2014 (2015)

1609-1682

Young, Why Volunteering Is So Good 1683-1685
For Your Health (2014)
Van der Noordt, et al., Health effects
of employment: a systematic review
of prospective studies (2014)

1686-1692

Crabtree, In U.S., Depression Rates
Higher for Long-Term Unemployed
(June 9, 2014)

1693-1699

United Health Group, Doing Good is
Good for You: 2013 Health and
Volunteering Study

1700-1710

Robert Wood Johnson Foundation,
How Does Employment—or
Unemployment—Affect Health?
(2013)

1711-1712

64a
Jenkinson, et al., Is volunteering a
public health intervention? A
systematic review and meta-analysis
of the health and survival of
volunteers (2013)
Bloom, et al., TANF Recipients with
Barriers to Employment (2011)

1713-1722

1723-1730

Grimm, Jr., et al., The Health
1731-1750
Benefits of Volunteering: A Review of
Recent Research (2007)
Waddell, Burton, Is Work Good for
Your Health and Well-Being? (2006)

1751-2007

Wilkinson & Pickett, Income
inequality and population health: A
review and explanation of the
evidence (2005)

2008-2024

Bartley & Plewis, Accumulated
2025-2030
labour market disadvantage and
limiting long-term illness: data from
the 1971-1991 Office for National
Statistics’ Longitudinal Study (2002)
Thoits & Hewitt, Volunteer Work
and Well-Being (2001)

2031-2048

Clarkson, Jason, et al., Medicaid
Work Requirements: Overview of
Policy and Fiscal Considerations

2049-2055

CMS Completeness Letter
Demonstration Application

2056
2057-2120

65a
[LOGO] DEPARTMENT
OF HEALTH & HUMAN
SERVICES

Centers for Medicare
and Medicaid Services
Administrator
Washington, DC 20201

March 5, 2018
The Honorable Asa Hutchinson
Governor
State of Arkansas
500 Woodlane Street
Little Rock, Arkansas 72201
Dear Governor Hutchinson:
I am pleased to inform you that the Centers for
Medicare & Medicaid Services (CMS) is approving
Arkansas’s request for an amendment to its section
1115 demonstration project, entitled “Arkansas Works.”
The details of this approval will be transmitted to
Cindy Gillespie, Director of the Arkansas Department
of Human Services.
I want to express my appreciation for the hard work
and commitment to innovation that your team has
displayed during this process. At CMS, we are dedicated to empowering states to better serve their residents through state-led reforms that improve health
and help lift individuals out of poverty. Your efforts
through this demonstration help us to fulfill that
promise.
Congratulations to the entire Arkansas team on
reaching approval. We look forward to our continued
work together through the implementation of these
important reforms.
Sincerely,
[Redacted]
Seema Verma

66a
[LOGO] DEPARTMENT
Centers for Medicare and
OF HEALTH & HUMAN
Medicaid Services
SERVICES
Administrator
Washington, DC 20201
March 5, 2018
Cindy Gillespie
Director
Arkansas Department of Human Services
700 Main Street
Little Rock, Arkansas 72201
Dear Ms. Gillespie:
The Centers for Medicare & Medicaid Services
(CMS) is approving Arkansas’s request for an amendment to its section 1115 demonstration project.
entitled “Arkansas Works” (Project Number 11-W00287/6) in accordance with section 1115(a) of the
Social Security Act (the Act).
This approval is effective March 5, 2018, through
December 31, 2021, upon which date unless extended
or otherwise amended, all authorities granted to operate this demonstration will expire. CMS’s approval is
subject to the limitations specified in the attached
expenditure authorities, waivers, and special terms
and conditions (STCs). The state will begin implementation of the community engagement requirement
no sooner than June 1, 2018. The state may deviate
from Medicaid state plan requirements only to the
extent those requirements have been listed as waived
or as not applicable to expenditures.
Extent and Scope of Demonstration
The current Arkansas Works section 1115 demonstration project was implemented by the State of
Arkansas (“state”) in December 2016. The Arkansas

67a
Works program provides certain adult Medicaid
beneficiaries with premium assistance to purchase
qualified health plan (QHP) coverage through the
Health Insurance Marketplace. As originally approved.
Arkansas Works was designed to leverage the efficiencies and experience of the commercial market to test
whether this premium assistance mode improves
continuity, access, and quality for Arkansas Works
beneficiaries and results in lowering the growth rate
of premiums across population groups. The demonstration project also attempts to facilitate transitions
between and among Arkansas Works, ESI, and the
Marketplace for Arkansas Works enrollees. Approval
of this demonstration amendment allows Arkansas, no
sooner than June 1, 2018, to require all Arkansas
Works beneficiaries ages 19 through 49, with certain
exceptions, to participate in and timely document and
report 80 hours per month of community engagement
activities, such as employment, education, job skills
training, or community service, as a condition of
continued Medicaid eligibility. Community engagement requirements will not apply to Arkansas Works
beneficiaries ages 50 and older so as to ensure alignment and consistency with the state’s Supplemental
Nutrition Assistance Program (SNAP) requirements.
The alignment is appropriate and consistent with the
ultimate objective of improving health and well-being
for Medicaid beneficiaries.
CMS also is authorizing authorities for additional
features, including:


Removing the requirement to have an
approved-hospital presumptive-eligibility
state plan amendment (SPA) as a condition of enacting the state’s waiver of
retroactive eligibility;





68a
Clarifying the waiver of the requirement
to provide new adult group beneficiaries1
with retroactive eligibility to reflect the
state’s intent to not provide retroactive
eligibility but for the 30 days prior to the
date of application coverage; and
Removing the waiver and expenditure
authorities related to the state’s mandatory employer-sponsored insurance (ESI)
premium assistance program, as the state
no longer intends to continue this program.

Under the new community engagement program,
the state will test whether coupling the requirement
for certain beneficiaries to engage in and report work
or other community engagement activities with meaningful incentives to encourage compliance will lead to
improved health outcomes and greater independence.
CMS is approving the community engagement program based on our determination that it is likely to
assist in promoting the objectives of the Medicaid
program. The terms and conditions of Arkansas’s
community engagement requirement that accompany
this approval are consistent with the guidance
provided to states through State Medicaid Director’s
Letter (SMD 18-0002), Opportunities to Promote Work
and Community Engagement Among Medicaid Beneficiaries, issued on January 11, 2018. CMS is not at
this time approving Arkansas’s request to reduce
income eligibility for Arkansas Works beneficiaries to
100 percent of the federal poverty level (FPL).

1

This group includes adults up to and including 133 percent
of the FPL who meet the other criteria specified in Section
1902(a)(10)(A)(i)(VIII) of the Social Security Act.

69a
Determination that the demonstration project is likely
to assist in promoting Medicaid’s Objectives
Demonstration projects under section 1115 of the
Act offer a way to give states more freedom to test and
evaluate innovative solutions to improve quality,
accessibility and health outcomes in a budget-neutral
manner, provided that, in the judgment of the
Secretary, the demonstrations are likely to assist in
promoting the objectives of Medicaid.
While CMS believes that states are in the best
position to design solutions that address the unique
needs of their Medicaid-eligible populations, the agency has an obligation to ensure that proposed demonstration programs are likely to better enable states to
serve their low-income populations, through measures
designed to improve health and wellness, including
measures to help individuals and families attain
or retain capability for independence or self-care.
Medicaid programs are complex and shaped by a
diverse set of interconnected policies and components,
including eligibility standards, benefit designs, reimbursement and payment policies, information technology (IT) systems, and more. Therefore, in making this
determination, CMS considers the proposed demonstration as a whole.
In its consideration of the proposed changes to
Arkansas Works, CMS examined whether the demonstration as amended was likely to assist in improving
health outcomes; whether it would address behavioral
and social factors that influence health outcomes; and
whether it would incentivize beneficiaries to engage
in their own health care and achieve better health
outcomes. CMS has determined that the Arkansas
Works demonstration as amended is likely to promote
Medicaid objectives, and that the waivers sought are

70a
necessary and appropriate to carry out the demonstration.
1. The demonstration is likely to assist in improving
health outcomes through strategies that promote
community engagement and address certain
health determinants.
Arkansas Works supports coordinated strategies to
address certain health determinants, as well as promote health and wellness through increased upward
mobility, greater independence, and improved quality
of life. Specifically, Arkansas Works’ community engagement requirement is designed to encourage
beneficiaries to obtain and maintain employment or
undertake other community engagement activities
that research has shown to be correlated with improved health and wellness.2,3 As noted in CMS’
SMDL: 18-0002, these activities have been positively
correlated with improvements in individuals’ health.
CMS has long supported policies that recognize
meaningful work as essential to the economic selfsufficiency, self-esteem, well-being, and improved
health of people with disabilities.
Given the potential benefits of work and community
engagement, we believe that state Medicaid programs
should be able to design and test incentives for
beneficiary compliance. Under Arkansas’s demonstration, the state will encourage compliance by making it
a condition of continued coverage. Beneficiaries that
2

Waddell, G. and Burton, AK. Is Work Good For Your Health
And Well-Being? (2006) EurErg Centre for Health and Social
Care Research, University of Huddersfield, UK
3

Van der Noordt, M, Jzelenberg, H, Droomers, M, and Proper,
K. Health effects of employment: a systemic review of prospective
studies. BMJournals. Occupational and Environmental Medicine. 2014: 71 (10).

71a
successfully report compliance on a monthly basis will
have no disruption in coverage. It is only when a
beneficiary fails to report compliance for 3 months that
the state will dis-enroll the beneficiary for the
remainder of the calendar year. Beneficiaries that are
disenrolled from their plan will be able to re-enroll
through Arkansas Works upon the earlier of turning
age 50, qualifying for another category of Medicaid
eligibility, or the beginning of a new calendar year.
Arkansas’ approach is informed by the state’s
experience with the voluntary work-referral program
in its current demonstration, which the state has not
found to be an effective incentive. Since January 2017,
certain individuals enrolled in Arkansas Medicaid
have been referred to the Arkansas Department of
Workforce Services (DWS), which provides a variety of
services to assist individuals in gaining employment.
Through October 2017, only 4.7 percent of beneficiaries followed through with the referral and accessed
DWS services. Of those who accessed DWS services,
23 percent have become employed. This result suggests that referrals alone, without any further
incentive, may not be be sufficient to encourage the
Arkansas Works population to participate in community engagement activities. CMS will therefore allow
Arkansas to test whether the stronger incentive model
is more effective in encouraging participation.
Arkansas has tailored the incentive structure to
include beneficiary protections, such as an opportunity
to maintain coverage for beneficiaries who report that
they failed to meet the community engagement hours
due to circumstances that give rise to a good cause
exemption, as well as the opportunity to apply and
reenroll in Arkansas Works in the beginning of the
next plan year. Additionally, if Arkansas determines
that a beneficiary’s failure to comply or report

72a
compliance was the result of a catastrophic event or
circumstances beyond the beneficiary’s control, the
beneficiary will receive retroactive coverage to the
date coverage ended without need for a new application. The impact of this incentive, as well as other
aspects of the demonstration, will be assessed through
an evaluation designed to measure how the demonstration affects eligibility, and health outcomes over
time for persons subject to the demonstration’s
policies.
2. The demonstration is expected to strengthen
beneficiary engagement in their personal health
care.
CMS believes that it is important for beneficiaries to
engage in their personal health care, particularly
while they are healthy to prevent illness. Accordingly,
CMS supports state testing of policies designed to
incentivize beneficiaries to obtain and maintain
health coverage before they become sick so they can
take an active role in engaging in their personal health
care while healthy. Consistent with CMS’s commitment to support states in their efforts to align
Medicaid and private insurance policies for nondisabled adults to help them prepare for private
coverage (stated in the letter to governors on March
14, 2017), this amendment removes the requirement
that Arkansas provide hospitals with an opportunity
to conduct presumptive eligibility (consistent with
Section 1902(a)(47)(B)) as a condition of its waiver of
retroactive eligibility. It further clarifies the waiver
of the requirement to provide new adult group
beneficiaries with retroactive eligibility but for the 30
days prior to the date of application coverage. With
respect to the waiver of retroactive eligibility, through
this approval, we are testing whether eliminating 2 of
the 3 months of retroactive coverage will encourage

73a
beneficiaries to obtain and maintain health coverage,
even when they are healthy. This feature of the
amendment is intended to increase continuity of care
by reducing gaps in coverage when beneficiaries churn
on and off of Medicaid or sign up for Medicaid only
when sick with the ultimate objective of improving
beneficiary health.
Consideration of Public Comments
Both Arkansas and CMS received comments during
the state and federal public comment periods. Consistent with federal transparency requirements, CMS
reviewed all of the materials submitted by the state,
as well as all the public comments it received, when
evaluating whether the demonstration project as a
whole was likely to assist in promoting the objectives
of the Medicaid program, and whether the waiver
authorities sought were necessary and appropriate to
implement the demonstration. In addition, CMS took
public comments submitted during the federal comment period into account as it worked with Arkansas
to develop the STCs that accompany this approval that
will bolster beneficiary protections, including specific
state assurances around these protections to further
support beneficiaries.
Opposing commenters expressed general disagreement with efforts to modify Arkansas Works. Some
offered more specific feedback regarding individual
elements of the demonstration or the impact of certain
provisions on distinct populations. Some commenters
expressed the desire to see greater detail regarding
how the program would be operationalized, particularly with respect to provisions like the community
engagement requirements. Other comments expressed
concerns that these requirements would be burdensome on families or create barriers to coverage. The

74a
state has pledged to do beneficiary outreach and
education on how to comply with the new community
engagement requirements, and intends to use an
online reporting system to make reporting easy for
enrollees. Further, CMS intends to monitor statereported data on how the new requirements are
impacting enrollment.
Many commenters indicated that many beneficiaries not qualifying for Medicaid on the basis of disability may still have issues gaining and maintaining
employment due to their medical or behavioral health
conditions. To mitigate these concerns, Arkansas assures that it will provide these beneficiaries reasonable modifications, which could include the reduction
of or exemption from community engagement hours.
This is a condition of approval, as provided in the
STCs.
Some commenters expressed concern that Arkansas’s proposal “lacked sufficient detail to permit informed public comments.” To ensure meaningful
public input at the Federal level, and to facilitate the
demonstration application process for States, CMS
utilizes standardized demonstration application requirements so that the public, including those with
disabilities, and CMS can meaningfully assess states’
applications. Upon receipt of Arkansas’ proposal, CMS
followed its standard protocols for evaluating the
completeness of the application and determined that
Arkansas application was complete. We continue to
believe that Arkansas submitted sufficient detail to
permit meaningful public input.
Many commenters who opposed the community
engagement requirement emphasized that the community engagement requirements would be burdensome for individuals and families or create barriers to

75a
coverage for non-exempt people who might have
trouble accessing care. We believe that the community
engagement requirements create appropriate incentives for beneficiaries to gain employment. Given that
employment is positively correlated with health outcomes, it furthers the purposes of the Medicaid statute
to test and evaluate these requirements as a means to
improve beneficiaries’ health and to promote beneficiary independence. However, CMS has included provisions in these STCs to ensure that CMS may
withdraw waivers or expenditure authorities at any
time if federal monitoring of data indicates that
continuing the waivers or expenditure authorities
would no longer be in the public interest or promote
the objectives of Title XIX and Title XXI, including if
data indicates that the community engagement
features of this demonstration may not adequately
incentivize beneficiary participation or are unlikely to
result in improved health outcomes, or that other
demonstration features are not operating as intended.
In efforts to support beneficiaries, CMS will require
Arkansas to provide written notices to beneficiaries
that include information such as how to ensure that
they are in compliance with the community engagement requirements, how to appeal an eligibility
denial, and how to access primary and preventive care
during the non-eligibility period. The state will also
implement an outreach strategy to inform beneficiaries how to report compliance with the community
engagement requirements.
Additional comments characterized the provisions
to terminate coverage for failure to participate in the
community engagement process as “causing disruptions in care.” CMS and Arkansas acknowledged these
concerns and Arkansas will be exempting from the
requirement those individuals who are medically frail,

76a
as well as those whom a medical professional has
determined are unable to work due to illness or injury.
The state will implement an outreach strategy to
inform beneficiaries about how to report compliance
with the community engagement requirements. In
addition, monthly notices will provide information on
resources available to beneficiaries who may require
assistance reporting community engagement activities.
Several commenters expressed concern about the
potential 9-month length of the non-eligibility period.
This would only occur where (i) an individual fails to
fulfill his or her community engagement obligations in
the first month of a calendar year and then after
receiving a notice from the State in the second month,
fails to respond to that notice by rectifying the situation or seeking an exemption, (ii) the same individual
fails to fulfill his or her community engagement
obligations in the second month of a calendar year and
then after receiving a notice from the State in the third
month, fails to respond to that notice by rectifying the
situation or seeking an exemption, and (iii) the same
individual fails to fulfill his or her community engagement obligations in the third month of a calendar year
and then after receiving a notice from the State in
the fourth month, fails to respond to that notice by
rectifying the situation or seeking an exemption. The
program provides the individual with three opportunities to rectify the situation or seek an exemption. Any
system that requires individuals to fulfill certain
requirements as a condition of receiving benefits
necessarily places some degree of responsibility on
these individuals. We believe that the overall health
benefits to the effected population through community
engagement outweigh the health-risks with respect to

77a
those who fail to respond and who fail to seek
exemption from the programs limited requirements.
Some comments pointed out that the maximum
non-eligibility period is longer than what has been
proposed in other state demonstration applications,
and does not offer any way to regain eligibility during
the non-eligibility period. CMS acknowledges this and
Arkansas will be required to monitor and report to
CMS certain metrics on compliance rates and health
outcomes. CMS will closely monitor this data, and
retains the right to suspend, amend or terminate the
demonstration if the agency determines that it is not
meeting its stated objectives.
Other commenters expressed concern about Arkansas’ current eligibility and application operations and
their impact on beneficiaries who may reapply for
eligibility after serving their disenrollment period for
non-compliance with community engagement. To help
mitigate these concerns, CMS has added additional
assurances to the STCs and Arkansas will submit for
CMS approval an eligibility and enrollment monitoring plan within 90 calendar days after approval of the
community engagement amendment of this demonstration which will allow CMS to track Arkansas’
compliance with the assurances described in the STCs,
including several related to eligibility and application
processing systems. The state may not take adverse
action on a beneficiary for failing to complete community engagement requirements until CMS has reviewed the application processing monitoring plan for
completeness and determined that the state has
addressed all of the required elements in a reasonable
manner. As part of this requirement, CMS will require
that Arkansas provide status updates on the implementation of the eligibility and enrollment monitoring
plan in the state’s quarterly reports.

78a
Finally, many comments expressed concern over the
waiver of retroactive eligibility, citing disruptions in
care for beneficiaries and potential financial burdens
for both providers and beneficiaries. Arkansas had
previously received approval for a conditional waiver
of retroactive coverage conditioned upon the state
coming into compliance with statutory and regulatory
requirements related to eligibility determinations.
CMS has determined the state has met these requirements. CMS believes that a more limited period of
retroactive eligibility will encourage beneficiaries to
obtain and maintain health coverage, even when they
are healthy. As such, with this amendment we are
testing whether this limited retroactive eligibility
period supports increased continuity of care by
reducing gaps in coverage when beneficiaries churn on
and off Medicaid or sign up for Medicaid only when
sick and whether this feature will improve health
outcomes.
Other Information
CMS’s approval of this demonstration is conditioned
upon compliance with the enclosed list of waiver and
expenditure authorities and the STCs defining the
nature, character and extent of anticipated federal
involvement in the project. The award is subject to our
receiving your written acknowledgement of the award
and acceptance of these STCs within 30 days of the
date of this letter.
Your project officer for this demonstration is Ms. Tia
Witherspoon. She is available to answer any questions
concerning your section 1115 demonstration. Ms.
Witherspoon’s contact information is as follows:
Centers for Medicare & Medicaid Services
Center for Medicaid and CHIP Services
Mail Stop: S2-03-17

79a
7500 Security Boulevard
Baltimore, MD 21244-1850
Email: Tia. Witherspoon@cms.hhs.gov
Official communications regarding program matters
should be sent simultaneously to Ms. Witherspoon and
Mr. Bill Brooks, Associate Regional Administrator, in
our Dallas Regional Office. Mr. Brooks’ contact information is as follows:
Mr. Bill Brooks
Associate Regional Administrator
Centers for Medicare & Medicaid Services
Division of Medicaid and Children’s
Health Operations
1301 Young Street, Suite 833
Dallas, TX 75202
If you have questions regarding this approval,
please contact Ms. Judith Cash, Acting Director, State
Demonstrations Group, Center for Medicaid and CHIP
Services, at (410) 786-9686.
Thank you for all your work with us, as well as
stakeholders in Arkansas, over the past months to
reach approval.
Sincerely,
[redacted]
Seema Verma
Enclosures

80a
CENTERS FOR MEDICARE AND MEDICAID
SERVICES EXPENDITURE AUTHORITY
NUMBER: 11-W-00287/6
TITLE:

Arkansas Works Section 1115
Demonstration

AWARDEE: Arkansas Department of Human
Services
Under the authority of section 1115(a)(2) of the
Social Security Act (the Act), expenditures made by
the state for the items identified below, which are not
otherwise included as expenditure under section 1903
shall, for the period of this demonstration be regarded
as expenditures under the state’s Title XIX plan but
are further limited by the special terms and conditions
(STCs) for the Arkansas Works Section 1115 demonstration.
As discussed in the Centers for Medicare &
Medicaid Services’ (CMS) approval letter, the Secretary of Health and Human Services has determined
that the Arkansas Works section 1115 demonstration,
including the granting of the waiver and expenditure
authorities described below, is likely to assist in
promoting the objectives of title XIX of the Social
Security Act.
The following expenditure authorities shall enable
Arkansas to implement the Arkansas Works section
1115 demonstration:
1. Premium Assistance and Cost Sharing Reduction
Payments. Expenditures for part or all of the cost
of private insurance premiums in the individual
market, and for payments to reduce cost sharing
under such coverage for certain beneficiaries as
described in these STCs.

81a
2. Community Engagement Reporting. Expenditures
to the extent necessary to enable Arkansas to allow
a beneficiary to report monthly their community
engagement qualifying activities or exemptions
using only an online portal as described in these
STCs, in a manner inconsistent with requirements
under section 1943 of the Act as implemented in 42
CFR 435.907(a).
Requirements Not Applicable to the Expenditure
Authority:
1. Cost Effectiveness

Section 1902(a)(4) and
42 CFR 435.1015(a)(4)

To the extent necessary to permit the state to offer,
with respect to beneficiaries through qualified health
plans, premium assistance and cost sharing reduction
payments that are determined to be cost effective
using state developed tests of cost effectiveness that
differ from otherwise permissible tests for cost effectiveness as described in these STCs.

82a
CENTERS FOR MEDICARE &
MEDICAID SERVICES
WAIVER LIST
NUMBER: 11-W-00287/6
TITLE:

Arkansas Works Section 1115
Demonstration

AWARDEE: Arkansas Department of Human
Services
All requirements of the Medicaid program expressed
in law, regulation, and policy statement, not expressly
waived or identified as not applicable in accompanying
expenditure authorities, shall apply to the demonstration project effective March 5, 2018 through December
31, 2021. In addition, these waivers may only be implemented consistent with the approved Special Terms
and Conditions (STCs).
Under the authority of section 1115(a)(1) of the
Social Security Act (the Act), the following waivers of
state plan requirements contained in section 1902 of
the Act are granted for the Arkansas Works Section
1115 demonstration, subject to the STCs.
1. Freedom of Choice

Section 1902(a)(23)(A)

To the extent necessary to enable Arkansas to limit
beneficiaries’ freedom of choice among providers to the
providers participating in the network of the beneficiary’s Qualified Health Plan. No waiver of freedom of
choice is authorized for family planning providers.
2. Payment to Providers

Section 1902(a)(13) and
Section 1902(a)(30)

To the extent necessary to permit Arkansas to
provide for payment to providers equal to the marketbased rates determined by the Qualified Health Plan.

3. Prior Authorization

83a
Section 1902(a)(54)
insofar as it incorporates
Section 1927(d)(5)

To permit Arkansas to require that requests for
prior authorization for drugs be addressed within 72
hours, and for expedited review in exigent circumstances within 24 hours, rather than 24 hours for all
circumstances as is currently required in their state
policy. A 72- hour supply of the requested medication
will be provided in the event of an emergency.
4. Premiums

Section 1902(a)(14)
insofar as it incorporates
Sections 1916 and 1916A

To the extent necessary to enable Arkansas to
collect monthly premium payments, for beneficiaries
with incomes above 100 up to and including 133
percent of the federal poverty level (FPL) as described
in these STCs.
5. Comparability

Section 1902(a)(10)(B)

To the extent necessary to enable the state to impose
targeted cost sharing on beneficiaries as described in
these STCs.
6. Retroactive Eligibility

Section 1902(a)(34)

To enable the state to not provide beneficiaries in
table 1 retroactive eligibility but for 30 days prior to
the date of the application for coverage under the
demonstration.
7. Provision of Medical
Assistance

Section 1902(a)(8)
and Sections
1902(a)(10)
To the extent necessary to enable Arkansas to
terminate eligibility for, and not make medical assistance available to, Arkansas Works beneficiaries who

84a
fail to comply with community engagement requirements, as described in these STCs, unless the beneficiary is exempted as described in these STCs.
8. Eligibility

Section 1902(a)(10)

To the extent necessary to enable Arkansas to require
community engagement as a condition of eligibility as
described in these STCs.
To the extent necessary to enable Arkansas to
prohibit re-enrollment and deny eligibility, for up to
nine months for Arkansas Works program beneficiaries who are disenrolled for failure to timely report
community engagement qualifying activities and exemptions for three months, subject to qualifying
catastrophic events described in these STCs.

85a
CENTERS FOR MEDICARE AND MEDICAID
SERVICES SPECIAL TERMS AND CONDITIONS
NUMBER: 11-W-00287/6
TITLE:

Arkansas Works

AWARDEE: Arkansas Department of Human
Services
I. PREFACE
The following are the amended Special Terms and
Conditions (STCs) for the Arkansas Works section
1115(a) Medicaid demonstration (hereinafter demonstration) to enable the Arkansas Department of
Human Services (state) to operate this demonstration.
The Centers for Medicare & Medicaid Services (CMS)
has granted waivers of requirements under section
1902(a) of the Social Security Act (Act), and expenditure authorities authorizing federal matching of
demonstration costs that are not otherwise matchable,
and which are separately enumerated. These STCs set
forth in detail the nature, character, and extent of
federal involvement in the demonstration and the
state’s obligations to CMS during the life of the
demonstration. Enrollment into the demonstration is
statewide and is approved through December 31,
2021. The STCs have been arranged into the following
subject areas:
I.

Preface

II.

Program Description and Objectives

III.

General Program Requirements

IV

Populations Affected

V.

Arkansas Works Program Population Affected

VI.

Premium Assistance Delivery System

86a
VII.

Benefits

VIII. Premiums & Cost Sharing
IX.

Appeals

X.

Community Engagement Requirements

XI.

General Reporting Requirements

XII.

General Financial Requirements

XIII. Monitoring Budget Neutrality
XIV. Evaluation
XV.

Monitoring

Attachments
II. PROGRAM DESCRIPTION AND
OBJECTIVES
Under the Arkansas Works demonstration, the state
has been providing premium assistance to support the
purchase by beneficiaries eligible under the new adult
group under the state plan of coverage from qualified
health plans (QHPs) offered in the individual market
through the Marketplace. Enrollment activities for
the new adult population began on October 1, 2013
for QHPs with eligibility effective January 1, 2014.
Beginning in 2014, individuals eligible for coverage
under the new adult group are described at Section
1902(a)(10)(A)(i)(VIII) of the Social Security Act and
are further specified in the state plan (collectively
Arkansas Works beneficiaries). Arkansas Works beneficiaries receive a state plan Alternative Benefit Plan
(“ABP”).
Effective January 1, 2017, Arkansas Works beneficiaries with incomes above 100 percent of the FPL are
charged monthly premium payments. The state will
test innovative approaches to promoting community

87a
engagement and work, encouraging movement up the
economic ladder, and facilitating transitions between
and among Arkansas Works, employer sponsored
insurance (ESI), and the Marketplace for Arkansas
Works beneficiaries. The state will institute community engagement requirements as a condition of
Arkansas Works eligibility. Once community engagement requirements are fully implemented, including
that beneficiaries have been adequately notified of the
requirements, the state will implement an outreach
strategy to inform beneficiaries about how to report
compliance with the community engagement requirements. In addition, monthly notices will provide information on resources available to beneficiaries who
may require assistance reporting community engagement activities. Arkansas will also provide reasonable
accommodations for beneficiaries who request assistance due to barriers to accessing the online portal for
reporting. Arkansas Works beneficiaries who are ages
19-49 must work or engage in specified educational,
job training, or job search activities for at least 80
hours per month to remain covered through Arkansas
Works, unless they meet exemption criteria established by the state. Arkansas Works beneficiaries who
fail to meet the community engagement requirements
or reporting requirements for any three months
during a plan year will be disenrolled from Arkansas
Works and will not be permitted to re-enroll until the
following plan year. After the beneficiary receives
notification of disenrollment for either noncompliance
with community engagement requirements or for
failure to report, eligible beneficiaries may request a
good cause exemption as described in these STCs. If
Arkansas determines the beneficiary’s failure to
comply or report compliance was the result of a
catastrophic event or circumstances beyond the
beneficiary’s control, the beneficiary will receive

88a
retroactive coverage to the date coverage ended
without need for a new application. Arkansas will act
on the request for good cause exemption and, if
approved, restore the beneficiary’s coverage within 5
business days of receiving the request.
Finally, the state will eliminate its ESI premium
assistance program under the demonstration. All
Arkansas Works beneficiaries who were enrolled in
ESI premium assistance and who remain eligible for
Arkansas Works will transition to QHP coverage.
Over the demonstration period, the state seeks to
demonstrate several demonstration goals. The state’s
goals will inform the state’s evaluation design hypotheses, subject to CMS approval, as described in these
STCs. The state’s goals include, and are not limited to
the following:


Providing continuity
individuals,



Improving access to providers,



Improving continuity of care across the
continuum of coverage,



Requiring beneficiaries to pay a monthly
premium to promote more efficient use of
health care services,



Improving health outcomes and promoting independence through employment
and community engagement, and



Furthering quality improvement and
delivery system reform initiatives that are
successful across population groups.

of

coverage

for

Arkansas proposes that the demonstration will provide integrated coverage for low-income Arkansans,
leveraging the efficiencies and experience of the

89a
private market to improve continuity, access, and
quality for Arkansas Works beneficiaries that should
ultimately result in lowering the rate of growth in
premiums across population groups. The state proposes that the demonstration will also drive structural
health care system reform and more competitive
premium pricing for all individuals purchasing coverage through the Marketplace by at least doubling the
size of the population enrolling in QHPs offered
through the Marketplace. The state proposes to
demonstrate the following key features:
Continuity of coverage and care – The demonstration
will allow qualifying households to stay enrolled in the
same plan regardless of whether their coverage is
subsidized through Medicaid, or Advanced Premium
Tax Credits/Cost Sharing Reductions (APTC/CSRs).
Support equalization of provider reimbursement and
improve provider access – The demonstration will
support equalization of provider reimbursement
across payers, toward the end of expanding provider
access and eliminating the need for providers to crosssubsidize. Arkansas Medicaid provides rates of
reimbursement lower than Medicare or commercial
payers, causing some providers to forego participation
in the program and others to “cross subsidize” their
Medicaid patients by charging more to private
insurers.
Integration, efficiency, quality improvement and
delivery system reform – Arkansas is proposing taking
an integrated and market-based approach to covering
uninsured Arkansans. It is anticipated that QHPs will
bring the experience of successful private sector
models that can improve access to high quality services and lead delivery system reform. One of the
benefits of this demonstration should be to gain a

90a
better understanding of how the private sector uses
incentives to engage individuals in healthy behaviors.
Promoting community engagement
responsibility– By testing innovative
promoting community engagement as
eligibility, the demonstration aims
employment.

and personal
approaches to
a condition of
to incentivize

III. GENERAL PROGRAM REQUIREMENTS
1. Compliance with Federal Non-Discrimination
Statutes. The state must comply with all applicable
federal statutes relating to non-discrimination.
These include, but are not limited to, the Americans with Disabilities Act of 1990, Title VI of the
Civil Rights Act of 1964, section 504 of the
Rehabilitation Act of 1973, and the Age Discrimination Act of 1975.
2. Compliance with Medicaid and Children’s Health
Insurance Program (CHIP) Law, Regulation, and
Policy. All requirements of the Medicaid program
and CHIP, expressed in law, regulation, and policy
statement, not expressly waived or identified as
not applicable in the waiver and expenditure
authority documents (of which these terms and
conditions are part), apply to the demonstration.
3. Changes in Medicaid and CHIP Law, Regulation,
and Policy. The state must, within the timeframes
specified in law, regulation, or policy statement,
come into compliance with any changes in federal
law, regulation, or policy affecting the Medicaid or
CHIP program that occur during this demonstration approval period, unless the provision being
changed is expressly waived or identified as not
applicable. In addition, CMS reserves the right to
amend the STCs to reflect such changes and/or

91a
changes without requiring the state to submit an
amendment to the demonstration under STC 7.
CMS will notify the state 30 days in advance of the
expected approval date of the amended STCs to
provide the state with additional notice of the
changes.
4. Impact on Demonstration of Changes in Federal
Law, Regulation, and Policy.
a. To the extent that a change in federal law,
regulation, or policy requires either a reduction
or an increase in federal financial participation
(FFP) for expenditures made under this demonstration, the state must adopt, subject to CMS
approval, a modified budget neutrality agreement as well as a modified allotment neutrality
worksheet for the demonstration as necessary
to comply with such change. The modified
budget neutrality agreement will be effective
upon the implementation of the change.
b. If mandated changes in the federal law require
state legislation, the changes must take effect
on the day such state legislation becomes
effective, or on the last day such legislation was
required to be in effect under the law.
5. State Plan Amendments. If the eligibility of a
population eligible through the Medicaid or CHIP
state plan is affected by a change to the demonstration, a conforming amendment to the appropriate
state plan may be required, except as otherwise
noted in these STCs. In all such instances the
Medicaid state plan governs.
Should the state amend the state plan to make any
changes to eligibility for this population, upon
submission of the state plan amendment, the state

92a
must notify CMS demonstration staff in writing of
the pending state plan amendment, and request a
corresponding technical correction to the demonstration.
6. Changes Subject to the Amendment Process. If not
otherwise specified in these STCs, changes related
to demonstration features including eligibility,
enrollment, benefits, beneficiary rights, delivery
systems, cost sharing, sources of non-federal share
of funding, budget neutrality, and other comparable program elements must be submitted to CMS
as amendments to the demonstration. All amendment requests are subject to approval at the discretion of the Secretary in accordance with section
1115 of the Act. The state must not implement
changes to these elements without prior approval
by CMS either through an approved amendment to
the Medicaid state plan and/or amendment to the
demonstration. Amendments to the demonstration
are not retroactive and FFP will not be available
for changes to the demonstration that have not
been approved through the amendment process set
forth in STC 7 below.
7. Amendment Process. Requests to amend the
demonstration must be submitted to CMS for
approval no later than 120 days prior to the
planned date of implementation of the change and
may not be implemented until approved. CMS
reserves the right to deny or delay approval
of a demonstration amendment based on noncompliance with these STCs, including but not
limited to failure by the state to submit required
reports and other deliverables in a timely fashion
according to the deadlines specified herein.
Amendment requests must include, but are not
limited to, the following:

93a
a. An explanation of the public process used by
the state, consistent with the requirements of
STC 15, prior to submission of the requested
amendment;
b. A data analysis worksheet which identifies the
specific “with waiver” impact of the proposed
amendment on the current budget neutrality
agreement. Such analysis shall include current
total computable “with waiver” and “without
waiver” status on both a summary and detailed
level through the current approval period using
the most recent actual expenditures, as well as
summary and detailed projections of the change
in the “with waiver” expenditure total as a
result of the proposed amendment, which
isolates (by Eligibility Group) the impact of the
amendment;
c. An up-to-date CHIP allotment neutrality worksheet, if necessary;
d. A detailed description of the amendment,
including impact on beneficiaries, with sufficient supporting documentation; and
e. A description of how the evaluation design will
be modified to incorporate the amendment
provisions.
8. Extension of the Demonstration. States that intend
to request demonstration extensions under sections 1115(e) or 1115(f) are advised to observe the
timelines contained in those statutes. Otherwise,
no later than 12 months prior to the expiration date
of the demonstration, the governor or chief
executive officer of the state must submit to CMS
either a demonstration extension request that
meets federal requirements at 42 CFR 431.412(c)

94a
or a transition and phase-out plan consistent with
the requirements of STC 9.
a. Compliance with Transparency Requirements
at 42 CFR Section 431.412.
b. As part of the demonstration extension requests
the state must provide documentation of compliance with the transparency requirements 42
CFR Section 431.412 and the public notice and
tribal consultation requirements outlined in
STC 15.
9. Demonstration Phase Out. The state may only
suspend or terminate this demonstration in whole,
or in part, consistent with the following requirements.
a. Notification of Suspension or Termination. The
state must promptly notify CMS in writing of
the reason(s) for the suspension or termination,
together with the effective date and a transition
and phase-out plan. The state must submit its
notification letter and a draft plan to CMS no
less than six (6) months before the effective date
of the demonstration’s suspension or termination. Prior to submitting the draft plan to CMS,
the state must publish on its website the draft
transition and phase-out plan for a 30-day
public comment period. In addition, the state
must conduct tribal consultation in accordance
with its approved tribal consultation state
plan Amendment, if applicable. Once the 30-day
public comment period has ended, the state
must provide a summary of each public comment received, the state’s response to the
comment and how the state incorporated the
received comment into the revised plan.

95a
b. Prior CMS Approval. The state must obtain
CMS approval of the transition and phase-out
plan prior to the implementation of the phaseout activities. Implementation of activities must
be no sooner than 14 calendar days after CMS
approval of the plan.
c. Transition and Phase-out Plan Requirements.
The state must include, at a minimum, in its
plan the process by which it will notify affected
beneficiaries, the content of said notices (including information on the beneficiary’s appeal
rights), the process by which the state will
conduct administrative reviews of Medicaid
eligibility prior to the termination of the program for the affected beneficiaries, and ensure
ongoing coverage for those beneficiaries determined eligible, as well as any community
outreach activities including community resources that are available.
d. Phase-out Procedures. The state must comply
with all notice requirements found in 42 CFR
Sections 431.206, 431.210, and 431.213. In
addition, the state must assure all appeal and
hearing rights afforded to demonstration participants as outlined in 42 CFR Sections
431.220 and 431.221. If a demonstration participant is entitled to requests a hearing before the
date of action, the state must maintain benefits
as required in 42 CFR Section 431.230. In
addition, the state must conduct administrative
renewals for all affected beneficiaries in order
to determine if they qualify for Medicaid eligibility under a different eligibility category. 42
CFR Section 435.916.

96a
e. Exemption from Public Notice Procedures 42
CFR Section 431.416(g). CMS may expedite the
federal and state public notice requirements in
the event it determines that the objectives of
title XIX and XXI would be served or under
circumstances described in 42 CFR Section
431.416(g).
f. Federal Financial Participation (FFP). If the
demonstration is terminated or any relevant
waivers suspended by the state, FFP shall be
limited to normal closeout costs associated with
terminating the demonstration including services, continued benefits as a result of participant’s appeals and administrative costs of
disenrolling participants.
10. Pre-Approved Transition and Phase Out Plan. The
state may elect to submit a draft transition and
phase-out plan for review and approval at any
time, including prior to when a date of termination
has been identified. Once the transition and phaseout plan has been approved, implementation of the
plan may be delayed indefinitely at the option of
the state.
11. Federal Financial Participation (FFP). If the project is terminated or any relevant waivers
suspended by the State, FFP shall be limited to
normal closeout costs associated with terminating
the demonstration including services and administrative costs of disenrolling beneficiaries.
12. Expiring Demonstration Authority. For demonstration authority that expires prior to the demonstration’s expiration date, the State must submit a
transition plan to CMS no later than six months
prior to the applicable demonstration authority’s

97a
expiration date, consistent with the following
requirements:
a. Expiration Requirements. The State must
include, at a minimum, in its demonstration
expiration plan the process by which it will
notify affected beneficiaries, the content of said
notices (including information on the beneficiary’s appeal rights), the process by which the
State will conduct administrative reviews of
Medicaid eligibility for the affected beneficiaries, and ensure ongoing coverage for eligible
individuals, as well as any community outreach
activities.
b. Expiration Procedures. The State must comply
with all notice requirements found in 42 CFR
Sections 431.206, 431.210 and 431.213. In
addition, the State must assure all appeal and
hearing rights afforded to demonstration beneficiaries as outlined in 42 CFR Sections 431.220
and 431.221. If a demonstration beneficiary
requests a hearing before the date of action, the
State must maintain benefits as required in 42
CFR Section 431.230. In addition, the State
must conduct administrative renewals for all
affected beneficiaries in order to determine if
they qualify for Medicaid eligibility under a
different eligibility category as discussed in
October 1, 2010, State Health Official Letter
#10-008.
c. Federal Public Notice. CMS will conduct a 30day federal public comment period consistent
with the process outlined in 42 CFR Section
431.416 in order to solicit public input on the
State’s demonstration expiration plan. CMS
will consider comments received during the 30-

98a
day period during its review and approval of the
State’s demonstration expiration plan. The
State must obtain CMS approval of the demonstration expiration plan prior to the implementation of the expiration activities. Implementation of expiration activities must be no sooner
than 14 days after CMS approval of the plan. d.
Federal Financial Participation (FFP): FFP
shall be limited to normal closeout costs
associated with the expiration of the demonstration including services and administrative
costs of disenrolling beneficiaries.
13. Withdrawal of Demonstration Authority. CMS
reserves the right to amend and withdraw waivers
or expenditure authorities at any time it determines that continuing the waivers or expenditure
authorities would no longer be in the public
interest or promote the objectives of Title XIX,
including if federal monitoring of data indicates
that the community engagement features of this
demonstration may not adequately incentivize
beneficiary participation or are unlikely to result in
improved health outcomes, or that other demonstration features are not operating as intended.
CMS will promptly notify the State in writing of
the determination and the reasons for the
amendment and withdrawal, together with the
effective date, and afford the State an opportunity
to request a hearing to challenge CMS’ determination prior to the effective date. If a waiver or
expenditure authority is withdrawn or amended,
FFP is limited to normal closeout costs associated
with terminating the waiver or expenditure
authority, including services and administrative
costs of disenrolling beneficiaries.

99a
14. Adequacy of Infrastructure. The State must ensure
the availability of adequate resources for implementation and monitoring of the demonstration,
including education, outreach, and enrollment;
maintaining eligibility systems; compliance with
cost sharing requirements; and reporting on
financial and other demonstration components.
15. Public Notice, Tribal Consultation, and Consultation with Interested Parties. The State must
comply with the State Notice Procedures set forth
in 59 Fed. Reg. 49249 (September 27, 1994). The
State must also comply with the tribal consultation
requirements in section 1902(a)(73) of the Act as
amended by section 5006(e) of the American
Recovery and Reinvestment Act (ARRA) of 2009,
the implementing regulations for the Review and
Approval Process for Section 1115 demonstrations
at 42 CFR Section 431.408, and the tribal consultation requirements contained in the State’s
approved state plan, when any program changes to
the demonstration are proposed by the State.
a. In States with federally recognized Indian
tribes consultation must be conducted in accordance with the consultation process outlined in
the July 17, 2001 letter or the consultation
process in the State’s approved Medicaid state
plan if that process is specifically applicable to
consulting with tribal governments on waivers
(42 CFR Section 431.408(b)(2)).
b. In States with federally recognized Indian
tribes, Indian health programs, and/or Urban
Indian organizations, the State is required to
submit evidence to CMS regarding the solicitation of advice from these entities prior to
submission of any demonstration proposal,

100a
amendment and/or renewal of this demonstration (42 CFR Section 431.408(b)(3)).
c. The State must also comply with the Public
Notice Procedures set forth in 42 CFR Section
447.205 for changes in statewide methods and
standards for setting payment rates.
16. Federal Financial Participation (FFP). No federal
matching for administrative or service expenditures for this demonstration will take effect until
the effective date identified in the demonstration
approval letter.
17. Common Rule Exemption. The state shall ensure
that the only involvement of human subjects in
research activities that may be authorized and/or
required by this demonstration is for projects
which are conducted by or subject to the approval
of CMS, and that are designed to study, evaluate,
or otherwise examine the Medicaid or CHIP
program – including procedures for obtaining
Medicaid or CHIP benefits or services, possible
changes in or alternatives to Medicaid or CHIP
programs and procedures, or possible changes in
methods or levels of payment for Medicaid benefits
or services. The Secretary has determined that this
demonstration as represented in these approved
STCs meets the requirements for exemption from
the human subject research provisions of the
Common Rule set forth in 45 CFR 46.101(b)(5).
IV. ARKANSAS WORKS PROGRAM POPULATIONS AFFECTED
The State will use this demonstration to ensure
coverage for Arkansas Works eligible beneficiaries
provided primarily through QHPs offered in the individual market instead of the fee-for-service delivery

101a
system that serves the traditional Medicaid population. The State will provide premium assistance to aid
Arkansas Works beneficiaries in enrolling in coverage
through QHPs in the Marketplace.
18. Populations Affected by the Arkansas Works
Demonstration. Except as described in STCs 19
and 20, the Arkansas Works demonstration affects
adults aged 19 through 64 eligible under the state
plan under 1902(a)(10)(A)(i)(VIII) of the Act, 42
CFR Section 435.119. Eligibility and coverage for
Arkansas Works beneficiaries is subject to all
applicable Medicaid laws and regulations in
accordance with the Medicaid state plan, except as
expressly waived in this demonstration and as
described in these STCs. Any Medicaid state plan
amendments to this eligibility group, including the
conversion to a modified adjusted gross income
(MAGI) standard on January 1, 2014, will apply to
this demonstration.
Table 1. Eligibility Groups

19. Beneficiary is medically frail. The process is
described in the Alternative Benefit state plan.
Beneficiaries excluded from enrolling in QHPs

102a
through the Arkansas Works as a result of a determination of medical frailty as that term is defined
above will have the option of receiving direct
coverage through the state of either the same ABP
offered to the beneficiaries or an ABP that includes
all benefits otherwise available under the approved
Medicaid state plan (the standard Medicaid benefit
package). Direct coverage will be provided through
a fee- for- service (FFS) system.
20. American Indian/Alaska Native Individuals. Beneficiaries identified as American Indian or Alaskan
Native (AI/AN) will not be required to enroll in
QHPs in this demonstration, but can choose to opt
into a QHP. New applicants will be subject to
provisions of STC 21 and coverage will begin 30
days prior to the date an application is submitted
for coverage. Beneficiaries who are AI/AN and who
have not opted into a QHP will receive the ABP
through a fee for service (FFS) system. An ALAN
beneficiary will be able to access covered benefits
through Indian Health Service (IHS), Tribal or
Urban Indian Organization (collectively, I/T/U)
facilities funded through the IHS. Under the
Indian Health Care Improvement Act (IHCIA),
I/T/U facilities are entitled to payment notwithstanding network restrictions.
21. Retroactive Eligibility. The state will provide
coverage effective 30 days prior to the date of
submitting an application for coverage for
beneficiaries in table 1.
V. ARKANSAS WORKS PREMIUM
TANCE ENROLLMENT

ASSIS-

22. Arkansas Works. For Arkansas Works beneficiaries, except as noted in STCs 19 and 20, enrollment
in a QHP is a condition of receiving benefits.

103a
23. Notices. Arkansas Works beneficiaries will receive
a notice or notices from Arkansas Medicaid or its
designee advising them of the following:
a. QHP Plan Selection. The notice will include
information regarding how Arkansas Works
beneficiaries can select a QHP and information
on the State’s auto-assignment process in the
event that the beneficiary does not select a plan.
b. State Premiums and Cost-Sharing. The notice
will include information about the beneficiary’s
premium and cost-sharing obligations, if any, as
well as the quarterly cap on premiums and costsharing.
c. Access to Services until QHP Enrollment is
Effective. The notice will include the Medicaid
client identification number (CIN) and information on how beneficiaries can use the CIN
number to access services until their QHP
enrollment is effective.
d. Wrapped Benefits. The notice will also include
information on how beneficiaries can access
wrapped benefits. The notice will include
specific information regarding services that
are covered directly through fee-for-service
Medicaid and what phone numbers to call or
websites to visit to access wrapped services.
e. Appeals. The notice will also include information regarding the grievance and appeals
process.
f. Identification of Medically Frail. The notice will
include information describing how Arkansas
Works beneficiaries who believe they are medically frail can request a determination of
whether they are exempt from the ABP. The

104a
notice will also include alternative benefit plan
options.
g. Timely and adequate notice concerning adverse
actions. The notice must give beneficiaries
timely and adequate notice of proposed action to
terminate, discontinue, or suspend their
eligibility or to reduce or discontinue services
they may receive under Medicaid in accordance
with 42 CFR 435.919.
24. QHP Selection. The QHPs in which Arkansas
Works beneficiaries enroll are certified through the
Arkansas Insurance Department’s QHP certification process. The QHPs available for selection by
the beneficiary are determined by the Medicaid
agency.
25. Auto-assignment. In the event that an beneficiary
is determined eligible for coverage through the
Arkansas Works QHP premium assistance program, but does not select a plan, the State will
auto-assign the beneficiary to one of the available
QHPs in the beneficiary’s rating area. Beneficiaries
who are auto-assigned will be notified of their
assignment, and the effective date of QHP
enrollment, and will be given a thirty-day period
from the date of enrollment to request enrollment
in another plan.
26. Distribution of Members Auto-assigned. Arkansas
Works QHP auto-assignments will be distributed
among QHP issuers in good standing with the
Arkansas Insurance Department offering certified
silver-level QHPs certified by the Arkansas Insurance Department.

105a
27. Changes to Auto-assignment Methodology. The
state will advise CMS prior to implementing a
change to the auto-assignment methodology.
28. Disenrollment. Beneficiaries may be disenrolled
from the demonstration if they are determined to
be medically frail after they were previously
determined eligible.
VI. PREMIUM ASSISTANCE DELIVERY
SYSTEM
29. Memorandum of Understanding for QHP Premium
Assistance. The Arkansas Department of Human
Services and the Arkansas Insurance Department
have entered into a memorandum of understanding (MOU) with each QHP that enrolls beneficiaries. Areas to be addressed in the MOU include, but
are not limited to:
a. Enrollment of beneficiaries in populations
covered by the demonstration;
b. Payment of premiums and cost-sharing
reductions, including the process for collecting
and tracking beneficiary premiums;
c. Reporting and data requirements necessary to
monitor and evaluate the Arkansas Works
including those referenced in STC 79, ensuring
beneficiary access to EPSDT and other covered
benefits through the QHP;
d. Requirement for QHPs to provide, consistent
with federal and state laws, claims and other
data as requested to support state and federal
evaluations, including any corresponding state
arrangements needed to disclose and share
data, as required by 42 CFR 431.420(f)(2), to
CMS or CMS’ evaluation contractors.

106a
e. Noticing requirements; and
f. Audit rights.
30. Qualified Health Plans. The State will use premium assistance to support the purchase of coverage for Arkansas Works beneficiaries through
Marketplace QHPs.
31. Choice of QHPs. Each Arkansas Works beneficiary
required to enroll in a QHP will have the option to
choose between at least two silver plans covering
only Essential Health Benefits that are offered in
the individual market through the Marketplace.
The State will pay the full cost of QHP premiums.
a. Arkansas Works beneficiaries will be able to
choose from at least two silver plans covering
only Essential Health Benefits that are in each
rating area of the State.
b. Arkansas Works beneficiaries will be permitted
to choose among all silver plans covering only
Essential Health Benefits that are offered in
their geographic area and that meet the purchasing guidelines established by the State in
that year, and thus all Arkansas Works beneficiaries will have a choice of at least two
QHPs.
c. The State will comply with Essential Community Provider network requirements, as part of
the QHP certification process.
d. Arkansas Works beneficiaries will have access
to the same networks as other beneficiaries
enrolling in QHPs through the individual
Marketplace.
32. Coverage Prior to Enrollment in a QHP. The State
will provide coverage through fee-for-service

107a
Medicaid from the date a beneficiary is determined
eligible until the beneficiary’s enrollment in the
QHP becomes effective.
a. For beneficiaries who enroll in a QHP (whether
by selecting the QHP or through autoassignment) between the first and fifteenth day
of a month, QHP coverage will become effective
as of the first day of the month following QHP
enrollment.
b. For beneficiaries who enroll in a QHP (whether
by selecting the QHP or through autoassignment) between the sixteenth and last day
of a month, QHP coverage will become effective
as of the first day of the second month following
QHP selection (or auto-assignment).
33. Family Planning. If family planning services are
accessed at a facility that the QHP considers to be
an out-of-network provider, the State’s fee-forservice Medicaid program will cover those services.
34. NEMT. Non-emergency medical transport services
will be provided through the State’s fee-for-service
Medicaid program. See STC 41 for further
discussion of non-emergency medical transport
services.
VII. BENEFITS
35. Arkansas Works Benefits. Beneficiaries affected by
this demonstration will receive benefits as set forth
in section 1905(y)(2)(B) of the Act and codified at
42 CFR Section 433.204(a)(2). These benefits are
described in the Medicaid state plan.
36. Alternative Benefit Plan. The benefits provided
under an alternative benefit plan for the new adult
group are reflected in the State ABP state plan.

108a
37. Medicaid Wrap Benefits. The State will provide
through its fee-for-service system wrap-around
benefits that are required for the ABP but not
covered by QHPs. These benefits include nonemergency transportation and Early Periodic
Screening Diagnosis and Treatment (EPSDT)
services for beneficiaries participating in the
demonstration who are under age 21.
38. Access to Wrap Around Benefits. In addition to
receiving an insurance card from the applicable
QHP issuer, Arkansas Works beneficiaries will
have a Medicaid CIN through which providers may
bill Medicaid for wrap-around benefits. The notice
containing the CIN will include information about
which services Arkansas Works beneficiaries may
receive through fee-for-service Medicaid and how
to access those services. This information is also
posted on Arkansas Department of Human
Service’s Medicaid website and will be provided
through information at the Department of Human
Service’s call centers and through QHP issuers.
39. Early and Periodic Screening, Diagnosis, and
Treatment (EPSDT). The State must fulfill its
responsibilities for coverage, outreach, and
assistance with respect to EPSDT services that are
described in the requirements of sections
1905(a)(4)(b) (services), 1902(a)(43) (administrative requirements), and 1905(r) (definitions).
40. Access to Federally Qualified Health Centers and
Rural Health Centers. Arkansas Works beneficiaries will have access to at least one QHP in each
service area that contracts with at least one FQHC
and RHC.
41. Access to Non-Emergency Medical Transportation.
The state will establish prior authorization for

109a
NEMT in the ABP. Beneficiaries served by IHS or
Tribal facilities and medically frail beneficiaries
will be exempt from such requirements.
42. Incentive Benefits. To the extent an amendment is
approved by CMS, Arkansas will offer an additional benefit not otherwise provided under the
Alternative Benefit Plan for Arkansas Works
beneficiaries who make timely premium payments
(if above 100 percent FPL) and engage with a
primary care provider (PCP). Arkansas Works
beneficiaries with incomes at or below 100 percent
FPL and others who are exempt from premiums
will be eligible for an incentive benefit at the time
the amendment is approved.
VIII. PREMIUMS & COST SHARING
43. Premiums & Cost Sharing. Cost sharing for
Arkansas Works beneficiaries must be in compliance with federal requirements that are set forth
in statute, regulation and policies, including
exemptions from cost-sharing set forth in 42 CFR
Section 447.56(a).
44. Premiums & Cost Sharing Parameters for the
Arkansas Works Program. With the approval of
this demonstration:
a. Beneficiaries up to and including 100 percent of
the FPL will have no cost sharing.
b. Beneficiaries above 100 percent of the FPL will
have cost sharing consistent with Medicaid
requirements.
c. Beneficiaries above 100 percent of the FPL will
be required to pay monthly premiums of up to 2
percent of household income.

110a
d. Premiums and cost-sharing will be subject to an
aggregate cap of no more than 5 percent of
family monthly or quarterly income.
e. Cost sharing limitations described in 42 CFR
447.56(a) will be applied to all program
beneficiaries.
f. Copayment and coinsurance amounts will be
consistent with federal requirements regarding
Medicaid cost sharing and with the state’s
approved state plan; premium, copayment, and
coinsurance amounts are listed in Attachment
B.
45. Payment Process for Payment of Cost Sharing
Reduction to QHPs. Agreements with QHP issuers
may provide for advance monthly cost-sharing
reduction (CSR) payments to cover the costs associated with the reduced cost sharing for Arkansas
Works beneficiaries. Such payments will be subject
to reconciliation at the conclusion of the benefit
year based on actual expenditures by the QHP for
cost sharing reduction. If a QHP issuer’s actuary
determines during the benefit year that the
estimated advance CSR payments are significantly
different than the CSR payments the QHP issuer
will be entitled to during reconciliation, the QHP
issuer may ask Arkansas’ Department of Human
Services to adjust the advance payments.
Arkansas’ reconciliation process will follow 45 CFR
Section 156.430 to the extent applicable.
46. Grace Period/Debt Collection. Arkansas Works
beneficiaries will have two months from the date of
the payment invoice to make the required monthly
premium contribution. Arkansas and/or its vendor
may attempt to collect unpaid premiums and the
related debt from beneficiaries, but may not report

111a
the debt to credit reporting agencies, place a lien on
an individual’s home, refer the case to debt
collectors, file a lawsuit, or seek a court order to
seize a portion of the individual’s earnings for
beneficiaries at any income level. The state and/or
its vendor may not “sell” the debt for collection by
a third party.
IX. APPEALS
47. Beneficiary safeguards of appeal rights will be
provided by the State, including fair hearing
rights. No waiver will be granted related to
appeals. The State must ensure compliance with
all federal and State requirements related to
beneficiary appeal rights. Pursuant to the Intergovernmental Cooperation Act of 1968, the State
has submitted a state plan amendment delegating
certain responsibilities to the Arkansas Insurance
Department.
X.

COMMUNITY
MENTS

ENGAGEMENT

REQUIRE-

48. Overview. Subject to these STCs, the state will
implement a community engagement requirement
as a condition of continued eligibility for Arkansas
Works members below the age of 50 who are not
otherwise subject to an exemption described in
STC 49 or 53(a). To maintain Medicaid eligibility,
non-exempt members will be required to participate in specified activities that may include
employment, education or community services, as
specified in these STCs. The work requirements
will be implemented no sooner than June 1, 2018,
and the state will provide CMS with notice 30 days
prior to its implementation.

112a
49. Exempt Populations. The Arkansas Works beneficiaries below are exempt from the community
engagement requirements. Beneficiaries who report, in accordance with 42 CFR 435.945(a) that
they meet one or more of the following exemptions
will not be required to complete community engagement related activities to maintain eligibility:

1



Beneficiaries identified as medically frail
(under 42 CFR 440.315(f) and as defined
in the alternative benefit plan in the state
plan)



Beneficiaries who are pregnant or 60 days
post-partum



Full time students



Beneficiary is exempt from Supplemental
Nutrition Assistance Program (SNAP)
community engagement requirements



Beneficiary is exempt from Transitional
Employment Assistance (TEA)1 Cash Assistance community engagement requirements



Beneficiary receives TEA Cash Assistance



Beneficiary is incapacitated in the shortterm, is medically certified as physically
or mentally unfit for employment, or has
an acute medical condition validated by a
medical professional that would prevent
him or her from complying with the
requirements

Arkansas’ Temporary Assistance for Needy Families (TANF)
program.



113a
Beneficiary is caring for an incapacitated
person



Beneficiary lives in a home with his or her
minor dependent child age 17 or younger



Beneficiary is receiving unemployment
benefits



Beneficiary is currently participating in a
treatment program for alcoholism or drug
addiction

Beneficiaries who report that they meet one or more
of the above listed exemptions will not be required to
complete community engagement related qualifying
activities to maintain eligibility. Upon initial notice
that a beneficiary must commence community engagement activities, the beneficiary may report an
exemption at any time, via electronic submission.
Consistent with STC 52, Arkansas will also provide
web sites that comply with federal disability rights
laws and reasonable accommodations for beneficiaries
who are unable to report, or have difficulty reporting,
work activities to ensure that they have an equal
opportunity to report their participation
50. Qualifying Activities. Arkansas Works beneficiaries who are not exempt under STC 49 may satisfy
their community engagement requirements
through a variety of activities, including but not
limited to:


2

Employment or self-employment, or having an income that is consistent with being
employed or self-employed at least 80
hours per month2

Arkansas minimum wage is used as a proxy amount to
determine this income standard. As of 2017, minimum wage is



114a
Enrollment in an educational program,
including high school, higher education, or
GED classes



Participation in on-the-job training



Participation in vocational training



Community Service



Participation in independent job search
(up to 40 hours per month)



Participation in job search training (up to
40 hours per month)



Participation in a class on health
insurance, using the health system, or
healthy living (up to 20 hours per year)



Participation in activities or programs
available through the Arkansas Department of Workforce Services



Participation in and compliance with
SNAP/Transitional Employment Assistance (TEA) employment initiative
programs.

51. Hour Requirements. Arkansas Works beneficiaries
must complete at least 80 hours per calendar
month of one, or any combination, of the qualifying
activities listed in STC 50. Beneficiaries will be
required to electronically report into the online
portal by the 5th of each month for the previous
month’s qualifying activities. Arkansas will also
provide reasonable accommodations to ensure that
$8.50 per hour. Multiplied by 80 hours per month, an individual
is considered to be in compliance with the community engagement requirements if they have income or earnings of at least
$736 per month.

115a
beneficiaries with disabilities protected by the
ADA, Section 504 of the Rehabilitation Act and
Section 1557 of the Patient Protection and
Affordable Care Act, who are unable to report, or
have difficulty reporting, work activities to ensure
that they have an equal opportunity to report their
participation and therefore to have an equal
opportunity to participate in, and benefit from, the
program. If the state is unable to provide such a
modification to the reporting requirements as
required by federal law, then the state must follow
the requirements of STC 52, which would require
that the state provide a modification in the form of
an exemption from participation.
52. Reasonable Modifications. Arkansas must provide
reasonable accommodations related to meeting the
community engagement requirements for beneficiaries with disabilities protected by the ADA,
Section 504 of the Rehabilitation Act and Section
1557 of the Patient Protection and Affordable Care
Act, when necessary, to enable them to have an
equal opportunity to participate in, and benefit
from, the program. The state must also provide
reasonable modifications for program protections
and procedures, including but not limited to,
assistance with demonstrating eligibility for good
cause exemptions; appealing disenrollments; documenting community engagement activities and
other documentation requirements; understanding
notices and program rules related to community
engagement requirements; navigating ADA compliant web sites as required by 42 CFR 435.1200(f);
and other types of reasonable modifications. The
reasonable modifications must include exemptions
from participation where an individual is unable to
participate or report for disability-related reasons,

116a
modification in the number of hours of participation required where an individual is unable to
participate for the otherwise-required number of
hours, and provision of support services necessary
to participate, where participation is possible with
supports. In addition, the state should evaluate
individuals’ ability to participate and the types of
reasonable modifications and supports needed.
53. Non-Compliance. Beneficiaries who are subject to
community engagement and reporting requirements and do not comply with the requirements
will lose eligibility for Arkansas Works consistent
with the terms of these STCs. Beneficiaries who
submit an appeal request or report a good cause
exemption prior to disenrollment will maintain
services as provided under 42 CFR 431.230.
Beneficiaries who fail to meet the required community engagement hours or fail to report for any
month within a coverage year before they are
disenrolled for non-compliance will receive timely
and adequate monthly notices in writing to inform
them of noncompliance and how to come into
compliance.
a. Good Cause Exemption. The state will not count
any month of non-compliance with the community engagement requirement or reporting
requirements toward the three months under
this STC for beneficiaries who demonstrate
good cause for failing to meet the community
engagement hours otherwise required for that
month. The circumstances constituting good
cause must have occurred during the month for
which the beneficiary is seeking a good cause
exemption. The recognized good cause exemp-

117a
tions include, but are not limited to, at a
minimum, the following verified circumstances:
i. The beneficiary has a disability as defined by
the ADA, section 504 of the Rehabilitation
Act, or section 1557 of the Patient Protection
and Affordable Care Act and was unable to
meet the requirement for reasons related to
that disability; or has an immediate family
member in the home with a disability under
federal disability rights laws and was unable
to meet the requirement for reasons related
to the disability of that family member; or
the beneficiary or an immediate family
member who was living in the home with the
beneficiary experiences a hospitalization or
serious illness;
ii. The beneficiary experiences the birth, or
death, of a family member living with the
beneficiary;
iii. The beneficiary experiences severe inclement weather (including a natural disaster)
that renders him or her unable to meet the
requirement; or
iv. The beneficiary has a family emergency or
other life-changing event (e.g., divorce or
domestic violence).
b. Disenrollment Effective Date. Disenrollment
for non-compliance with the community engagement requirements is effective the first day of
the month after proper notice is provided during
the third month of non-compliance, unless an
appeal is timely filed as specified in STC 54(i)
or a good cause exemption is requested as
specified in STC 53(a).

118a
c. Re-enrollment Following Non-Compliance. If
the beneficiaries are noncompliant with the
community engagement requirements or reporting requirements for any three months,
eligibility will be terminated until the next plan
year, when they must file a new application to
receive an eligibility determination. At this
time, their previous noncompliance with the
community engagement requirement will not be
factored into the state’s determination of their
eligibility. A beneficiary who is disenrolled
pursuant to this STC can reapply at any time
for coverage and will be eligible to enroll with
an effective date consistent with the regulations
at 42 CFR. 435.915, (1) if she or he is determined eligible for another eligibility group, or
(2) the beneficiary would have qualified for a
good cause exemption at the time of disenrollment and Arkansas determines the beneficiary’s failure to comply or report compliance
was the result of a catastrophic event or circumstances beyond the beneficiary’s control, Such
beneficiaries who experienced catastrophic
events or circumstances beyond their control
will receive retroactive coverage to the date
coverage ended without need for a new
application. Arkansas will act on the request for
good cause exemption and, if approved, restore
the beneficiary’s coverage within 5 business
days of receiving the request.
54. Community engagement requirements: State Assurances. Prior to implementation of community
engagement requirements as a condition of
eligibility, the state will:

119a
a. Maintain mechanisms to stop payments to a
QHP when a beneficiary is terminated for
failure to comply with program requirements.
b. Ensure that there are processes and procedures
in place to seek data from other sources
including SNAP and Temporary Assistance for
Needy Families (TANF), and that the state uses
available systems and data sources to verify
that beneficiaries are meeting community
engagement requirements.
c. To the extent that it is required by SNAP,
beneficiaries who participate in both SNAP and
Arkansas Works will have the option of reporting community engagement activities through
either program. If a beneficiary reports activities through SNAP, Arkansas will transfer the
individual’s file to Arkansas Works to satisfy
reporting for both programs. In accordance with
all applicable federal and state reporting requirements, beneficiaries enrolled in and
compliant with a SNAP work requirement, as
well as individuals exempt from a SNAP work
requirement, will be considered to be complying
with the Arkansas Works community engagement requirements without further need to
report.
d. Ensure that there are timely and adequate
beneficiary notices provided in writing, including but not limited to:
i. When community engagement requirements
will commence for that specific beneficiary;
ii. Whether a beneficiary is exempt, how the
beneficiary must apply for and document
that she or he meets the requirements for an

120a
exemption, and under what conditions the
exemption would end;
iii. Information about resources that help
connect beneficiaries to opportunities for
activities that would meet the community
engagement requirement, and information
about the community supports that are
available to assist beneficiaries in meeting
community engagement requirements;
iv. Information about how community engagement hours will be counted and documented;
v. What gives rise to disenrollment, what
disenrollment would mean for the beneficiary, including how it could affect redetermination, and how to avoid disenrollment,
including how to apply for a good cause
exemption and what kinds of circumstances
might give rise to good cause;
vi. If a beneficiary is not in compliance for a
particular month, that the beneficiary is out
of compliance, and, if applicable, how the
beneficiary can be in compliance in the
month immediately following;
vii. If a beneficiary has eligibility denied, how to
appeal, and how to access primary and
preventive care during the non-eligibility
period.
viii. If a beneficiary has requested a good cause
exemption, that the good cause exemption
has been approved or denied, with an
explanation of the basis for the decision and
how to appeal a denial.
e. Conduct active outreach and education beyond
standard noticing for Arkansas Works bene-

121a
ficiaries for successful compliance with community engagement requirements as clients move
toward self-sufficiency and economic security.
f. Ensure the state will assess areas within the
state that experience high rates of unemployment, areas with limited economies and/or
educational opportunities, and areas with lack
of public transportation to determine whether
there should be further exemptions or alternative compliance standards from the community
engagement requirements and/or additional
mitigation strategies, so that the community
engagement requirements will not be impossible or unreasonably burdensome for beneficiaries to meet in impacted areas.
g. Develop and maintain an ongoing partnership
with the Arkansas Department of Workforce
Services to assist Arkansas Works recipients
with complying with community engagement
requirements and moving toward selfsufficiency.
h. Leverage the ongoing partnership with QHPs
participating in the Arkansas Works premium
assistance model for continued outreach, education and encouragement to comply with community engagement requirements.
i. Provide full appeal rights, consistent with all
federal statute and regulation, prior to disenrollment and observe all requirements for due
process for beneficiaries who will be disenrolled
for failing to comply with the applicable
community engagement requirements, including allowing beneficiaries the opportunity to
raise additional issues in a hearing (in addition
to whether the beneficiary should be subject to

122a
termination) or provide additional documentation through the appeals process.
j. Maintain timely processing of applications to
avoid further delays in accessing benefits once
the disenrollment period is over.
k. If a beneficiary has requested a good cause
exemption, the state must provide timely notice
that the good cause exemption has been
approved or denied, with an explanation of the
basis for the decision and how to appeal a
denial.
l. Comply with the screening and eligibility determination requirements in 42 CFR 435.916(f).
m. Establish beneficiary protections, including assuring that Arkansas Works beneficiaries do
not have to duplicate requirements to maintain
access to all public assistance programs that
require community engagement and employment.
n. With the assistance of other state agencies
including the Arkansas Department of Workforce Services and other public and private
partners, DHS will make good faith efforts to
screen, identify, and connect Arkansas Works
beneficiaries to existing community supports
that are available to assist beneficiaries in
meeting community engagement requirements,
including available non-Medicaid assistance
with transportation, child care, language access
services and other supports; and connect
beneficiaries with disabilities as defined in
the ADA, section 504 of the Rehabilitation Act,
or section 1557 of the Patient Protection and
Affordable Care Act with services and supports

123a
necessary to enable them to meet and report
compliance with community engagement requirements.
o. The State makes the general assurance that it
is in compliance with protections for beneficiaries with disabilities under ADA, section 504 of
the Rehabilitation Act, or section 1557 of the
Patient Protection and Affordable Care Act.
p. Consider the impact of any reporting obligations on persons without access to the Internet.
To the extent practicable, the State shall ensure
that the availability of Medicaid services will
not been diminished under this demonstration
for individuals who lack access to the Internet.
q. The state will provide each beneficiary who has
been disenrolled from Arkansas Works with
information on how to access primary care and
preventative care services at low or no cost to
the individual. This material will include information about free health clinics and community
health centers including clinics that provide
behavioral health and substance use disorder
services. Arkansas shall also maintain such
information on its public-facing website and
employ other broad outreach activities that are
specifically targeted to beneficiaries who have
lost coverage.
r. The state must submit an eligibility and
enrollment monitoring plan within 90 calendar
days after approval of the community engagement amendment of this demonstration. CMS
will work with the state if we determine
changes are necessary to the state’s submission,
or if issues are identified as part of the review.
Once approved, the eligibility and enrollment

124a
monitoring plan will be incorporated into the
STCs as Attachment A. The state will provide
status updates on the implementation of the
eligibility and enrollment monitoring plan in
the quarterly reports. Should the state wish to
make additional changes to the eligibility and
enrollment monitoring plan, the state should
submit a revised plan to CMS for review and
approval. The state may not take adverse action
on a beneficiary for failing to complete community engagement requirements until CMS has
reviewed and approved the revised eligibility
and enrollment monitoring plan for completeness and determined that the state has addressed all of the required elements in a
reasonable manner.
Plan Requirements. At a minimum, the eligibility and enrollment monitoring plan will
describe the strategic approach and detailed
project implementation plan, including metrics,
timetables and programmatic content where
applicable, for defining and addressing how the
state will comply with the assurances described
in these STCs, as well as the assurances listed
within this STC. Where possible, metrics baselines will be informed by state data, and targets
will be benchmarked against performance in
best practice settings.
i. Send timely and accurate notices to beneficiaries, including sufficient ability for
beneficiaries to respond to notices.
ii. Assure application assistance is available to
beneficiaries (in person and by phone).

125a
iii. Assure processes are in place to accurately
identify including but not limited to the
following data points:
a. Number and percentage of individuals
required to report each month
b. Number and percentage of beneficiaries
who are exempt from the community
engagement requirement.
c. Number and percentage of beneficiaries
requesting good cause exemptions from
reporting requirements
d. Number and percentage of beneficiaries
granted good cause exemption from
reporting requirements
e. Number and percentage of beneficiaries
who requested reasonable accommodations
f. Number and percentage and type of
reasonable accommodations provided to
beneficiaries
g. Number and percentage of beneficiaries
disenrolled for failing to comply with
community engagement requirements
h. Number and percentage of beneficiaries
disenrolled for failing to report
i. Number and percentage of beneficiaries
disenrolled for not meeting community
engagement and reporting requirements
j. Number and percentage of community
engagement appeal requests from
beneficiaries

126a
k. Number, percentage and type of community engagement good cause exemptions
requested
l. Number, percentage and type of community engagement good cause exemptions
granted
m. Number, percentage and type of reporting good cause exemptions requested
n. Number, percentage and type of reporting good cause exemptions granted
o. Number and percentage of applications
made in-person, via phone, via mail and
electronically.
iv. Maintain an annual renewal process,
including systems to complete ex parte
renewals and use of notices that contain
prepopulated information known to the
state, consistent with all applicable Medicaid requirements.
v. Maintain ability to report on and process
applications in-person, via phone, via mail
and electronically.
vi. Maintain compliance with coordinated
agency responsibilities under 42 CFR
435.120, including the community engagement online portal under 42 CFR
435.1200(f)(2).
vii. Assure timeliness of transfers between
Medicaid and other insurance programs at
any determination, including application,
renewal, or non-eligibility period.
viii. The state’s plan to implement an outreach
strategy to inform beneficiaries how to

127a
report compliance with the community
engagement requirements including how
monthly notices will provide information on
resources available to beneficiaries who may
require assistance reporting community
engagement activities.
XI. GENERAL REPORTING REQUIREMENTS
55. Deferral for Failure to Submit Timely Demonstration Deliverables. The state agrees that CMS may
issue deferrals in the amount of $5,000,000 (federal
share) per deliverable when items required by
these STCs (e.g., required data elements, analyses,
reports, design documents, presentations, and
other items specified in these STCs (hereafter
singly or collectively referred to as “deliverable(s)”)
are not submitted timely to CMS or are found to
not be consistent with the requirements approved
by CMS.
a. Thirty (30) days after the deliverable was due,
CMS will issue a written notification to the
state providing advance notification of a pending deferral for late or non-compliant submissions of required deliverables.
b. For each deliverable, the state may submit a
written request for an extension in which to
submit the required deliverable. Extension
requests that extend beyond the fiscal quarter
in which the deliverable was due must include
a Corrective Action Plan (CAP).
i. CMS may decline the extension request.
ii. Should CMS agree in writing to the state’s
request, a corresponding extension of the
deferral process described below can be
provided.

128a
iii. If the state’s request for an extension
includes a CAP, CMS may agree to or
further negotiate the CAP as an interim step
before applying the deferral.
c. The deferral would be issued against the next
quarterly expenditure report following the
written deferral notification.
d. When the state submits the overdue deliverable(s) that are accepted by CMS, the deferral(s)
will be released.
e. As the purpose of a section 1115 demonstration
is to test new methods of operation or service
delivery, a state’s failure to submit all required
reports, evaluations and other deliverables may
preclude a state from renewing a demonstration
or obtaining a new demonstration.
f. CMS will consider with the state an alternative
set of operational steps for implementing the
intended deferral to align the process with the
state’s existing deferral process, for example the
structure of the state request for an extension,
what quarter the deferral applies to, and how
the deferral is released.
56. Post Award Forum. Pursuant to 42 CFR 431.420(c),
within six months of the demonstration’s implementation, and annually thereafter, the state shall
afford the public with an opportunity to provide
meaningful comment on the progress of the
demonstration. At least 30 days prior to the date of
the planned public forum, the state must publish
the date, time and location of the forum in a
prominent location on its website. Pursuant to 42
CFR 431.420(c), the state must include a summary
of the comments in the Quarterly Report associated

129a
with the quarter in which the forum was held, as
well as in its compiled Annual Report.
57. Electronic Submission of Reports. The state shall
submit all required plans and reports using the
process stipulated by CMS, if applicable.
58. Compliance with Federal Systems Innovation. As
federal systems continue to evolve and incorporate
1115 demonstration reporting and analytics, the
state will work with CMS to:
a. Revise the reporting templates and submission
processes to accommodate timely compliance
with the requirements of the new systems;
b. Ensure all 1115, T-MSIS, and other data
elements that have been agreed to are provided;
and
c. Submit the monitoring reports and evaluation
reports to the appropriate system as directed by
CMS.
XII. GENERAL FINANCIAL REQUIREMENTS
This project is approved for Title XIX expenditures
applicable to services rendered during the demonstration period. This section describes the general financial requirements for these expenditures.
59. Quarterly Expenditure Reports. The State must
provide quarterly Title XIX expenditure reports
using Form CMS-64, to separately report total
Title XIX expenditures for services provided
through this demonstration under section 1115
authority. CMS shall provide Title XIX FFP for
allowable demonstration expenditures, only as
long as they do not exceed the pre-defined limits on
the costs incurred, as specified in section XIII of the
STCs.

130a
60. Reporting Expenditures under the Demonstration.
The following describes the reporting of expenditures subject to the budget neutrality agreement:
a. Tracking Expenditures. In order to track expenditures under this demonstration, the State
will report demonstration expenditures through
the Medicaid and State Children’s Health
Insurance Program Budget and Expenditure
System (MBES/CBES), following routine CMS64 reporting instructions outlined in section
2500 and Section 2115 of the SMM. All
demonstration expenditures subject to the
budget neutrality limit must be reported each
quarter on separate forms CMS-64.9 Waiver
and/or 64.9P Waiver, identified by the demonstration project number assigned by CMS
(including the project number extension, which
indicates the DY in which services were
rendered or for which capitation payments were
made). For monitoring purposes, and consistent
with annual CSR reconciliation, cost settlements must be recorded on the appropriate
prior period adjustment schedules (forms CMS64.9 Waiver) for the summary line 10B, in lieu
of lines 9 or 10C. For any other cost settlements
(i.e., those not attributable to this demonstration), the adjustments should be reported on
lines 9 or 10C, as instructed in the SMM. The
term, “expenditures subject to the budget neutrality limit,” is defined below in STC 67.
b. Cost Settlements. For monitoring purposes, and
consistent with annual CSR reconciliation, cost
settlements attributable to the demonstration
must be recorded on the appropriate prior
period adjustment schedules (forms CMS-64.9P
Waiver) for the summary sheet sine 10B, in lieu

131a
of lines 9 or 10C. For any cost settlement not
attributable to this demonstration, the adjustments should be reported as otherwise instructed in the SMM.
c. Premium and Cost Sharing Contributions.
Premiums and other applicable cost sharing
contributions from beneficiaries that are collected by the state from beneficiaries under the
demonstration must be reported to CMS each
quarter on Form CMS-64 summary sheet line
9.D, columns A and B. In order to assure that
these collections are properly credited to the
demonstration, premium and cost-sharing
collections (both total computable and federal
share) should also be reported separately by DY
on the form CMS-64 narrative. In the calculation of expenditures subject to the budget
neutrality expenditure limit, premium collections applicable to demonstration populations
will be offset against expenditures. These
section 1115 premium collections will be included as a manual adjustment (decrease) to
the demonstration’s actual expenditures on a
quarterly basis.
d. Pharmacy Rebates. Pharmacy rebates are not
considered here as this program is not eligible.
e. Use of Waiver Forms for Medicaid. For each DY,
separate Forms CMS-64.9 Waiver and/or 64.9P
Waiver shall be submitted reporting expenditures for individuals enrolled in the demonstration, subject to the budget neutrality limit
(Section XII of these STCs). The State must
complete separate waiver forms for the following eligibility groups/waiver names:
i. MEG 1 – “New Adult Group”

132a
f. The first Demonstration Year (DY1) will begin
on January 1, 2014. Subsequent DYs will be
defined as follows:
Table 2 Demonstration Populations
Demonstration
Year 1 (DY1)

January 1, 2014

12 months

Demonstration
Year 2 (DY2)

January 1, 2015

12 months

Demonstration
Year 3 (DY3)

January 1, 2016

12 months

Demonstration
Year 4 (DY4)

January 1, 2017

12 months

Demonstration
Year 5 (DY5)

January 1, 2018

12 months

Demonstration
Year 6 (DY6)

January 1, 2019

12 months

Demonstration
Year 7 (DY7)

January 1, 2020

12 months

Demonstration
Year 8 (DY8)

January 1, 2021

12 months

61. Administrative Costs. Administrative costs will not
be included in the budget neutrality are directly
attributable to the demonstration, using Forms
CMS-64.10 Waiver and/or 64.10P Waiver, with
waiver name Local Administration Costs (“ADM”).
62. Claiming Period. All claims for expenditures
subject to the budget neutrality limit (including
any cost settlements resulting from annual reconciliation) must be made within 2 years after the
calendar quarter in which the State made the

133a
expenditures. Furthermore, all claims for services
during the demonstration period (including any
cost settlements) must be made within 2 years
after the conclusion or termination of the demonstration. During the latter 2-year period, the State
must continue to identify separately net expenditures related to dates of service during the
operation of the section 1115 demonstration on the
Form CMS-64 and Form CMS-21 in order to
properly account for these expenditures in
determining budget neutrality.
63. Reporting Member Months. The following
describes the reporting of member months for
demonstration populations:
a. For the purpose of calculating the budget
neutrality expenditure cap and for other
purposes, the State must provide to CMS, as
part of the quarterly report required under STC
86, the actual number of eligible member
months for the demonstration populations
defined in STC 17. The State must submit a
statement accompanying the quarterly report,
which certifies the accuracy of this information.
To permit full recognition of “in-process”
eligibility, reported counts of member months
may be subject to revisions after the end of each
quarter. Member month counts may be revised
retrospectively as needed.
b. The term “eligible member months” refers to
the number of months in which persons are
eligible to receive services. For example, a
person who is eligible for three months contributes three eligible member months to the total.
Two individuals who are eligible for two months
each contribute two eligible member months to

134a
the total, for a total of four eligible member
months.
64. Standard Medicaid Funding Process. The standard
Medicaid funding process must be used during the
demonstration. The State must estimate matchable demonstration expenditures (total computable
and federal share) subject to the budget neutrality
expenditure cap and separately report these
expenditures by quarter for each federal fiscal year
on the Form CMS-37 for both the Medical
Assistance Payments (MAP) and State and Local
Administration Costs (ADM). CMS will make
federal funds available based upon the State’s
estimate, as approved by CMS. Within 30 days
after the end of each quarter, the State must
submit the Form CMS-64 quarterly Medicaid
expenditure report, showing Medicaid expenditures made in the quarter just ended. The CMS will
reconcile expenditures reported on the Form CMS64 quarterly with federal funding previously made
available to the State, and include the reconciling
adjustment in the finalization of the grant award
to the State.
65. Extent of FFP for the Demonstration. Subject to
CMS approval of the source(s) of the non-federal
share of funding, CMS will provide FFP at the
applicable federal matching rate for the demonstration as a whole as outlined below, subject to the
limits described in STC 66:
a. Administrative costs, including those associated with the administration of the demonstration.
b. Net expenditures and prior period adjustments
of the Medicaid program that are paid in
accordance with the approved State plan.

135a
c. Medical Assistance expenditures made under
section 1115 demonstration authority, including those made in conjunction with the demonstration, net of enrollment fees, cost sharing,
pharmacy rebates, and all other types of third
party liability or CMS payment adjustments.
66. Sources of Non-Federal Share. The State must
certify that the matching non-federal share of
funds for the demonstration is state/local monies.
The State further certifies that such funds shall not
be used as the match for any other federal grant or
contract, except as permitted by law. All sources of
non-federal funding must be compliant with
section 1903(w) of the Act and applicable regulations. In addition, all sources of the non-federal
share of funding are subject to CMS approval.
a. CMS may review the sources of the non-federal
share of funding for the demonstration at any
time. The State agrees that all funding sources
deemed unacceptable by CMS shall be
addressed within the time frames set by CMS.
b. Any amendments that impact the financial
status of the program shall require the State to
provide information to CMS regarding all
sources of the non-federal share of funding.
c. The State assures that all health care-related
taxes comport with section 1903(w) of the Act
and all other applicable federal statutory and
regulatory provisions, as well as the approved
Medicaid State plan.
67. State Certification of Funding Conditions. The
State must certify that the following conditions for
non-federal share of demonstration expenditures
are met:

136a
a. Units of government, including governmentally
operated health care providers, may certify that
State or local tax dollars have been expended as
the non-federal share of funds under the
demonstration.
b. To the extent the State utilizes certified public
expenditures (CPEs) as the funding mechanism
for Title XIX (or under section 1115 authority)
payments, CMS must approve a cost reimbursement methodology. This methodology must
include a detailed explanation of the process by
which the State would identify those costs
eligible under Title XIX (or under section 1115
authority) for purposes of certifying public
expenditures.
c. To the extent the State utilizes CPEs as the
funding mechanism to claim federal match for
payments under the demonstration, governmental entities to which general revenue funds
are appropriated must certify to the State the
amount of such tax revenue (State or local) used
to satisfy demonstration expenditures. The
entities that incurred the cost must also provide
cost documentation to support the State’s claim
for federal match.
d. The State may use intergovernmental transfers
to the extent that such funds are derived from
State or local tax revenues and are transferred
by units of government within the State. Any
transfers from governmentally operated health
care providers must be made in an amount not
to exceed the non-federal share of Title XIX
payments.
e. Under all circumstances, health care providers
must retain 100 percent of the reimbursement

137a
amounts claimed by the State as demonstration
expenditures. Moreover, no pre-arranged agreements (contractual or otherwise) may exist
between the health care providers and the State
and/or local government to return and/or
redirect any portion of the Medicaid payments.
This confirmation of Medicaid payment retention is made with the understanding that
payments that are the normal operating
expenses of conducting business (such as payments related to taxes – including health care
provider-related taxes – fees, and business
relationships with governments that are
unrelated to Medicaid and in which there is no
connection to Medicaid payments) are not
considered returning and/or redirecting a
Medicaid payment.
XIII. MONITORING BUDGET NEUTRALITY FOR
THE DEMONSTRATION
68. Limit on Title XIX Funding. The State shall be
subject to a limit on the amount of federal Title XIX
funding that the State may receive on selected
Medicaid expenditures during the period of
approval of the demonstration. The limit is
determined by using the per capita cost method
described in STC 69, and budget neutrality
expenditure limits are set on a yearly basis with a
cumulative budget neutrality expenditure limit for
the length of the entire demonstration. The data
supplied by the State to CMS to set the annual caps
is subject to review and audit, and if found to be
inaccurate, will result in a modified budget
neutrality expenditure limit. CMS’ assessment of
the State’s compliance with these annual limits

138a
will be done using the Schedule C report from the
CMS-64.
69. Risk. The State will be at risk for the per capita cost
(as determined by the method described below) for
demonstration populations as defined in STC 70,
but not at risk for the number of beneficiaries in
the demonstration population. By providing FFP
without regard to enrollment in the demonstration
populations, CMS will not place the State at risk
for changing economic conditions that impact
enrollment levels. However, by placing the State at
risk for the per capita costs of current eligibles,
CMS assures that the demonstration expenditures
do not exceed the levels that would have been
realized had there been no demonstration.
70. Calculation of the Budget Neutrality Limit. For the
purpose of calculating the overall budget neutrality
limit for the demonstration, separate annual
budget limits will be calculated for each DY on a
total computable basis, as described in STC 70
below. The annual limits will then be added
together to obtain a budget neutrality limit for the
entire demonstration period. The federal share of
this limit will represent the maximum amount of
FFP that the State may receive during the
demonstration period for the types of demonstration expenditures described below. The federal
share will be calculated by multiplying the total
computable budget neutrality limit by the
Composite Federal Share, which is defined in STC
71 below.
71. Demonstration Populations Used to Calculate the
Budget Neutrality Limit. For each DY, separate
annual budget limits of demonstration service
expenditures will be calculated as the product of

139a
the trended monthly per person cost times the
actual number of eligible/member months as
reported to CMS by the State under the guidelines
set forth in STC 73. The trend rates and per capita
cost estimates for each Mandatory Enrollment
Group (MEG) for each year of the demonstration
are listed in the table below.
Table 3 Per Capita Cost Estimate

a. If the State’s experience of the take up rate for
the new adult group and other factors that
affect the costs of this population indicates that
the PMPM limit described above in paragraph
(a) may underestimate the actual costs of
medical assistance for the new adult group. the
State may submit an adjustment to paragraph
(a), along with detailed expenditure data to
justify this, for CMS review without submitting
an amendment pursuant to STC 7. Adjustments
to the PMPM limit for a demonstration year
must be submitted to CMS by no later than
October 1 of the demonstration year for which
the adjustment would take effect.
b. The budget neutrality cap is calculated by
taking the PMPM cost projection for the above
group in each DY, times the number of eligible
member months for that group and DY, and
adding the products together across DYs. The
federal share of the budget neutrality cap is
obtained by multiplying total computable
budget neutrality cap by the federal share.

140a
c. The State will not be allowed to obtain budget
neutrality “savings” from this population.
72. Composite Federal Share Ratio. The Composite
Federal Share is the ratio calculated by dividing
the sum total of federal financial participation
(FFP) received by the State on actual demonstration expenditures during the approval period, as
reported through the MBES/CBES and summarized on Schedule C (with consideration of additional allowable demonstration offsets such as, but
not limited to, premium collections) by total
computable demonstration expenditures for the
same period as reported on the same forms. Should
the demonstration be terminated prior to the end
of the extension approval period (see STC 9), the
Composite Federal Share will be determined based
on actual expenditures for the period in which
the demonstration was active. For the purpose
of interim monitoring of budget neutrality a
reasonable estimate of Composite Federal Share
may be developed and used through the same
process or through an alternative mutually agreed
upon method.
73. Future Adjustments to the Budget Neutrality
Expenditure Limit. CMS reserves the right to
adjust the budget neutrality expenditure limit to
be consistent with enforcement of impermissible
provider payments, health care related taxes, new
federal statutes, or policy interpretations implemented through letters, memoranda, or regulations with respect to the provision of services
covered under the demonstration.
74. Enforcement of Budget Neutrality. CMS shall
enforce budget neutrality over the life of the
demonstration rather than on an annual basis.

141a
However, if the State’s expenditures exceed the
calculated cumulative budget neutrality expenditure cap by the percentage identified below for any
of the demonstration years, the State must submit
a corrective action plan to CMS for approval. The
State will subsequently implement the approved
corrective action plan.
Table 4 Cap Thresholds
Year

Cumulative target definition

Percentage

DY
4

Cumulative budget
neutrality limit plus:

0%

DY
5

Cumulative budget
neutrality limit plus:

0%

DY
6

Cumulative budget
neutrality limit plus:

0%

DY
7

Cumulative budget
neutrality limit plus:

0%

DY
8

Cumulative budget
neutrality limit plus:

0%

75. Exceeding Budget Neutrality. If at the end of the
demonstration period the cumulative budget
neutrality limit has been exceeded, the excess
federal funds will be returned to CMS. If the
demonstration is terminated prior to the end of the
budget neutrality agreement, an evaluation of this
provision will be based on the time elapsed through
the termination date.
76. Impermissible DSH, Taxes or Donations. The CMS
reserves the right to adjust the budget neutrality
expenditure limit in order to be consistent with
enforcement of impermissible provider payments,
health care related taxes, new federal statutes, or
with policy interpretations implemented through

142a
letters, memoranda, or regulations. CMS reserves
the right to make adjustments to the budget
neutrality expenditure limit if CMS determines
that any health care-related tax that was in effect
during the base year, or provider-related donation
that occurred during the base year, is in violation
of the provider donation and health care related
tax provisions of Section 1903(w) of the Act.
Adjustments to the budget neutrality agreement
will reflect the phase-out of impermissible provider
payments by law or regulation, where applicable.
XIV. EVALUATION
77. Evaluation Design and Implementation. The State
shall submit a draft evaluation design for Arkansas
Works to CMS no later than 120 days after the
award of the demonstration amendment. Such
revisions to the evaluation design and the STCs
shall not affect previously established timelines
for report submission for the Health Care
Independence Program. The state must submit a
final evaluation design within 60 days after receipt
of CMS’ comments. Upon CMS approval of the
evaluation design, the state must implement the
evaluation design and submit their evaluation
implementation progress in each of the quarterly
and annual progress reports, including the rapid
cycle assessments as outlined in the Monitoring
Section of these STCs. The final evaluation design
will be included as an attachment to the STCs. Per
42 CFR 431.424(c), the state will publish the
approved evaluation design within 30 days of CMS
approval.
78. Evaluation Budget. A budget for the evaluation
shall be provided with the evaluation design. It will
include the total estimated cost, as well as a

143a
breakdown of estimated staff, administrative and
other costs for all aspects of the evaluation such
as any survey and measurement development,
quantitative and qualitative data collection and
cleaning, analyses, and reports generation. A
justification of the costs may be required by CMS if
the estimates provided do not appear to sufficiently
cover the costs of the design or if CMS finds that
the design is not sufficiently developed.
79. Cost-effectiveness. While not the only purpose of
the evaluation, the core purpose of the evaluation
is to support a determination as to whether the
preponderance of the evidence about the costs and
effectiveness of the Arkansas Works Demonstration using premium assistance when considered in
its totality demonstrates cost effectiveness taking
into account both initial and longer term costs and
other impacts such as improvements in service
delivery and health outcomes.
a. The evaluation will explore and explain through
developed evidence the effectiveness of the
demonstration for each hypothesis, including
total costs in accordance with the evaluation
design as approved by CMS.
b. Included in the evaluation will be examinations
using a robust set of measures of provider
access and clinical quality measures under the
Arkansas Works demonstration compared to
what would have happened for a comparable
population in Medicaid fee-for-service.
c. The State will compare total costs under the
Arkansas Works demonstration to costs of what
would have happened under a traditional
Medicaid expansion. This will include an
evaluation of provider rates, healthcare utiliza-

144a
tion and associated costs, and administrative
expenses over time.
d. The State will compare changes in access and
quality to associated changes in costs within the
Arkansas Works. To the extent possible, component contributions to changes in access and
quality and their associated levels of investment in Arkansas will be determined and
compared to improvement efforts undertaken in
other delivery systems.
80. Evaluation Requirements. The demonstration
evaluation will meet the prevailing standards of
scientific and academic rigor, as appropriate and
feasible for each aspect of the evaluation, including
standards for the evaluation design, conduct,
and interpretation and reporting of findings. The
demonstration evaluation will use the best available data; use controls and adjustments for and
reporting of the limitations of data and their effects
on results; and discuss the generalizability of
results.
The State shall acquire an independent entity to
conduct the evaluation. The evaluation design
shall discuss the State’s process for obtaining an
independent entity to conduct the evaluation,
including a description of the qualifications the
entity must possess, how the State will assure no
conflict of interest, and a budget for evaluation
activities.
81. Evaluation Design. The Evaluation Design shall
include the following core components to be
approved by CMS:
a. Research questions and hypotheses: This includes a statement of the specific research

145a
questions and testable hypotheses that address
the goals of the demonstration. At a minimum,
the research questions shall address the goals
of improving access, reducing churning, improving quality of care thereby leading to enhanced
health outcomes, and lowering costs. The
research questions will have appropriate comparison groups and may be studied in a time
series. The analyses of these research questions
will provide the basis for a robust assessment of
cost effectiveness.
The following are among the hypotheses to be
considered in development of the evaluation
design and will be included in the design
as appropriate. Additional hypotheses relative
to the new and revised components of the
demonstration will also be included in the
state’s evaluation design.
i. Premium Assistance beneficiaries will have
equal or better access to care, including
primary care and specialty physician networks and services.
ii. Premium Assistance beneficiaries will have
equal or better access to preventive care
services.
iii. Premium Assistance beneficiaries will have
lower non-emergent use of emergency room
services.
iv. Premium Assistance beneficiaries will have
fewer gaps in insurance coverage.
v. Premium Assistance beneficiaries will maintain continuous access to the same health
plans, and will maintain continuous access
to providers.

146a
vi. Premium Assistance beneficiaries, including
those who become eligible for Exchange
Marketplace coverage, will have fewer gaps
in plan enrollment, improved continuity of
care, and resultant lower administrative
costs.
vii. Premium Assistance beneficiaries will have
lower rates of potentially preventable emergency department and hospital admissions.
viii. Premium assistance beneficiaries will report
equal or better satisfaction in the care
provided.
ix. Premium Assistance beneficiaries who are
young adults eligible for EPSDT benefits
will have at least as satisfactory and appropriate access to these benefits.
x. Premium Assistance beneficiaries will have
appropriate access to non-emergency transportation.
xi. Premium Assistance will reduce overall
premium costs in the Exchange Marketplace
and will increase quality of care.
xii. The cost for covering Premium Assistance
beneficiaries will be comparable to what the
costs would have been for covering the same
expansion group in Arkansas Medicaid feefor-service in accordance with STC 77 on
determining cost effectiveness and other
requirements in the evaluation design as
approved by CMS.
xiii. Incentive benefits offered to Arkansas
Works beneficiaries will increase primary
care utilization.

147a
These hypotheses should be addressed in the
demonstration reporting described in STC 86 and
87 with regard to progress towards the expected
outcomes.
b. Data: This discussion shall include:
i. A description of the data, including a
definition/description of the sources and the
baseline values for metrics/measures;
ii. Method of data collection;
iii. Frequency and timing of data collection.
The following shall be considered and included as
appropriate:
i. Medicaid encounters and claims data;
ii. Enrollment data; and
iii. Consumer and provider surveys
c. Study Design: The design will include a description of the quantitative and qualitative study
design, including a rationale for the methodologies selected. The discussion will include a
proposed baseline and approach to comparison;
examples to be considered as appropriate include the definition of control and/or comparison groups or within-subjects design, use of
propensity score matching and difference in
differences design to adjust for differences in
comparison populations over time. To the extent
possible, the former will address how the effects
of the demonstration will be isolated from those
other changes occurring in the state at the same
time through the use of comparison or control
groups to identify the impact of significant
aspects of the demonstration. The discussion

148a
will include approach to benchmarking, and
should consider applicability of national and
state standards. The application of sensitivity
analyses as appropriate shall be considered
d. Study Population: This includes a clear description of the populations impacted by each
hypothesis, as well as the comparison population, if applicable. The discussion may include
the sampling methodology for the selected population, as well as support that a statistically
reliable sample size is available.
e. Access, Service Delivery Improvement, Health
Outcome, Satisfaction and Cost Measures: This
includes identification, for each hypothesis, of
quantitative and/or qualitative process and/or
outcome measures that adequately assess the
effectiveness of the demonstration. Nationally
recognized measures may be used where appropriate. Measures will be clearly stated and
described, with the numerator and dominator
clearly defined. To the extent possible, the State
may incorporate comparisons to national data
and/or measure sets. A broad set of performance
metrics may be selected from nationally recognized metrics, for example from sets developed
by the Center for Medicare and Medicaid
Innovation, for meaningful use under HIT, and
from the Medicaid Core Adult sets. Among
considerations in selecting the metrics shall be
opportunities identified by the State for
improving quality of care and health outcomes,
and controlling cost of care.
f. Assurances Needed to Obtain Data: The design
report will discuss the State’s arrangements to

149a
assure needed data to support the evaluation
design are available.
g. Data Analysis: This includes a detailed discussion of the method of data evaluation, including
appropriate statistical methods that will allow
for the effects of the demonstration to be
isolated from other initiatives occurring in the
State. The level of analysis may be at the
beneficiary, provider, and program level, as
appropriate, and shall include population stratifications, for further depth. Sensitivity analyses may be used when appropriate. Qualitative
analysis methods may also be described, if
applicable.
h. Timeline: This includes a timeline for evaluation-related milestones, including those related
to procurement of an outside contractor, and the
deliverables outlined in this section. Pursuant
to 42 CFR 431.424(c)(v), this timeline should
also include the date by which the final
summative evaluation report is due.
i. Evaluator: This includes a discussion of the
State’s process for obtaining an independent
entity to conduct the evaluation, including
a description of the qualifications that the
selected entity must possess; how the state will
assure no conflict of interest, and a budget for
evaluation activities.
j. State additions: The state may provide to CMS
any other information pertinent to the state’s
research on the policy operations of the demonstration operations. The state and CMS may
discuss the scope of information necessary to
clarify what is pertinent to the state’s research.

150a
82. Interim Evaluation Report. The state must submit
a draft Interim Evaluation Report one year prior to
this renewal period ending December 31, 2021. The
Interim Evaluation Report shall include the same
core components as identified in STC 81 for the
Summative Evaluation Report and should be in
accordance with the CMS approved evaluation
design. The State shall submit the final Interim
Evaluation Report within 30 days after receipt of
CMS’ comments. The state will submit an Interim
Evaluation Report for the completed years of the
demonstration, and for each subsequent renewal or
extension of the demonstration, as outlined in 42
CFR 431.412(c)(2)(vi). When submitting an application for renewal, the Interim Evaluation Report
should be posted to the state’s website with the
application for public comment. Also refer to
Attachment C for additional information on the
Interim Evaluation Report.
a. The Interim Evaluation Report will discuss
evaluation progress and present findings to
date as per the approved Evaluation Design.
b. For demonstration authority that expires prior
to the overall demonstration’s expiration date,
the Interim Evaluation Report must include an
evaluation of the authority as approved by
CMS.
c. If the state is seeking to renew or extend the
demonstration, the draft Interim Evaluation
Report is due when the application for renewal
is submitted. If the state made changes to the
demonstration, the research questions, hypotheses and how the design was adapted should be
included. If the state is not requesting a renewal
for a demonstration, an Interim Evaluation

151a
report is due one (1) year prior to the end of the
demonstration. For demonstration phase outs
prior to the expiration of the approval period,
the draft Interim Evaluation Report is due to
CMS on the date that will be specified in the
notice of termination or suspension.
d. The state will submit the final Interim Evaluation Report sixty (60) days after receiving CMS
comments on the draft Interim Evaluation
Report and post the document to the state’s
website.
e. The Interim Evaluation Report must comply
with Attachment B of these STCs.
83. Summative Evaluation Reports.
a. The state shall provide the summative evaluation reports described below to capture the
different demonstration periods.
i. The state shall provide a Summative
Evaluation Report for the Arkansas Private
Option demonstration period September 27,
2013 through December 31, 2016. This
Summative Evaluation Report is due July 1,
2018, i.e., eighteen months following the
date by which the demonstration would have
ended except for this extension.
ii. The state shall submit a draft summative
evaluation report for the Arkansas Works
demonstration period starting January 1,
2017 through December 31, 2021. The draft
summative evaluation report must be submitted within 18 months of the end of the
approved period (December 31, 2021). The
summative evaluation report must include

152a
the information in the approved evaluation
design.
a. Unless otherwise agreed upon in writing
by CMS, the state shall submit the final
summative evaluation report within 60
days of receiving comments from CMS on
the draft.
b. The final summative evaluation report
must be posted to the state’s Medicaid
website within 30 days of approval by
CMS.
b. The Summative Evaluation Report shall include the following core components:
i. Executive Summary. This includes a concise
summary of the goals of the demonstration;
the evaluation questions and hypotheses
tested; and key findings including whether
the evaluators find the demonstration to be
budget neutral and cost effective, and policy
implications.
ii. Demonstration Description. This includes a
description of the demonstration programmatic goals and strategies, particularly how
they relate to budget neutrality and cost
effectiveness.
iii. Study Design. This includes a discussion of
the evaluation design employed including
research questions and hypotheses; type of
study design; impacted populations and
stakeholders; data sources; and data collection; analysis techniques, including controls
or adjustments for differences in comparison
groups, controls for other interventions in

153a
the State and any sensitivity analyses, and
limitations of the study.
iv. Discussion of Findings and Conclusions.
This includes a summary of the key findings
and outcomes, particularly a discussion of
cost effectiveness, as well as implementation
successes, challenges, and lessons learned.
v. Policy Implications. This includes an interpretation of the conclusions; the impact
of the demonstration within the health
delivery system in the State; the implications for State and Federal health policy;
and the potential for successful demonstration strategies to be replicated in other State
Medicaid programs.
vi. Interactions with Other State Initiatives.
This includes a discussion of this demonstration within an overall Medicaid context and
long range planning, and includes interrelations of the demonstration with other
aspects of the State’s Medicaid program, and
interactions with other Medicaid waivers,
the SIM award and other federal awards
affecting service delivery, health outcomes
and the cost of care under Medicaid.
84. State Presentations for CMS. The State will
present to and participate in a discussion with
CMS on the final design plan, post approval, in
conjunction with STC 75. The State will present on
its interim evaluation in conjunction with STC 79.
The State will present on its summative evaluation
in conjunction with STC 80.

154a
85. Public Access. The State shall post the final documents (e.g. Quarterly Reports, Annual Reports,
Final Report, approved Evaluation Design, Interim
Evaluation Report, and Summative Evaluation
Report) on the State Medicaid website within 30
days of approval by CMS.
86. Additional Publications and Presentations. For a
period of 24 months following CMS approval of the
Summative Evaluation Report, CMS will be
notified prior to the public release or presentation
of these reports and related journal articles, by the
State, contractor or any other third party. Prior to
release of these reports, articles and other documents, CMS will be provided a copy including press
materials. CMS will be given 30 days to review and
comment on journal articles before they are
released. CMS may choose to decline to comment
or review some or all of these notifications and
reviews.
87. Cooperation with Federal Evaluators. Should CMS
undertake an evaluation of the demonstration or
any component of the demonstration, the state
shall cooperate timely and fully with CMS and its
contractors. This includes, but is not limited to,
submitting any required data to CMS or the
contractor in a timely manner. Failure to cooperate
with federal evaluators in a timely manner,
including but not limited to entering into data use
agreements covering data that the state is legally
permitted to share, providing a technical point of
contact, providing data dictionaries and record
layouts of any data under control of the state that
the state is legally permitted to share, and/or
disclosing data may result in CMS requiring
the state to cease drawing down federal funds
until satisfactory cooperation, until the amount of

155a
federal funds not drawn down would exceed
$5,000,000.
XV. MONITORING
88. Monitoring Calls. CMS will convene periodic
conference calls with the state. The purpose of
these calls is to discuss any significant actual or
anticipated developments affecting the demonstration. CMS will provide updates on any amendments or concept papers under review, as well as
federal policies and issues that may affect any
aspect of the demonstration. The state and CMS
will jointly develop the agenda for the calls. Areas
to be addressed include, but are not limited to:
a. Transition and implementation activities;
b. Stakeholder concerns;
c. QHP operations and performance;
d. Enrollment;
e. Cost sharing;
f. Quality of care;
g. Beneficiary access,
h. Benefit package and wrap around benefits;
i. Audits;
j. Lawsuits;
k. Financial reporting and budget neutrality
issues;
l. Progress on evaluation activities and contracts;
m. Related legislative developments in the state;
and

156a
n. Any demonstration changes or amendments the
state is considering.
89. Quarterly Reports. The state must submit three
Quarterly Reports and one compiled Annual
Report each DY.
a. The state will submit the reports following the
format established by CMS. All Quarterly
Reports and associated data must be submitted
through the designated electronic system(s).
The Quarterly Reports are due no later than 60
days following the end of each demonstration
quarter, and the compiled Annual Report is due
no later than 90 days following the end of the
DY.
b. The reports shall provide sufficient information
for CMS to understand implementation progress of the demonstration, including the
reports documenting key operational and other
challenges, underlying causes of challenges,
how challenges are being addressed, as well as
key achievements and to what conditions and
efforts successes can be attributed.
c. Monitoring and performance metric reporting
templates are subject to review and approval
by CMS. Where possible, information will be
provided in a structured manner that can
support federal tracking and analysis.
d. The Quarterly Report must include all required
elements and should not direct readers to links
outside the report, except if listed in a
Reference/Bibliography section. The reports
shall provide sufficient information for CMS to
understand implementation progress and operational issues associated with the demonstra-

157a
tion and whether there has been progress
toward the goals of the demonstration.
i. Operational Updates – The reports shall
provide sufficient information to document
key operational and other challenges, underlying causes of challenges, how challenges
are being addressed, as well as key achievements and to what conditions and efforts
successes can be attributed. The discussion
should also include any lawsuits or legal
actions; unusual or unanticipated trends;
legislative updates; and descriptions of any
public forums held.
ii. Performance Metrics – Progress on any
required monitoring and performance metrics
must be included in writing in the Quarterly
and Annual Reports. Information in the
reports will follow the framework provided
by CMS and be provided in a structured
manner that supports federal tracking and
analysis.
iii. Budget Neutrality and Financial Reporting
Requirements – The state must provide an
updated budget neutrality workbook with
every Quarterly and Annual Report that
meets all the reporting requirements for
monitoring budget neutrality set forth in
the General Financial Requirements section
of these STCs, including the submission
of corrected budget neutrality data upon
request. In addition, the state must report
quarterly expenditures associated with the
populations affected by this demonstration
on the Form CMS-64.

158a
iv. Evaluation Activities and Interim Findings.
The state shall include a summary of the
progress of evaluation activities, including
key milestones accomplished, as well as
challenges encountered and how they were
addressed. The state shall specify for CMS
approval a set of performance and outcome
metrics and network adequacy, including
their specifications, reporting cycles, level of
reporting (e.g., the state, health plan and
provider level, and segmentation by population) to support rapid cycle assessment in
trends for monitoring and evaluation of the
demonstration.
e. The Annual Report must include all items
included in the preceding three quarterly
reports, which must be summarized to reflect
the operation/activities throughout the whole
DY. All items included in the quarterly report
pursuant to STC 86 must be summarized to
reflect the operation/activities throughout the
DY. In addition, the annual report must, at
should include the requirements outlined
below.
i. Total annual expenditures for the demonstration population for each DY, with administrative costs reported separately;
ii. Total contributions, withdrawals, balances,
and credits; and,
iii. Yearly unduplicated enrollment reports for
demonstration beneficiaries for each DY
(beneficiaries include all individuals enrolled in the demonstration) that include the
member months, as required to evaluate

159a
compliance with the budget neutrality
agreement.
90. Final Report. Within 120 days after the expiration
of the demonstration, the state must submit a draft
Close Out Report to CMS for comments.
a. The draft report must comply with the most
current guidance from CMS.
b. The state will present to and participate in a
discussion with CMS on the Close-Out report.
c. The state must take into consideration CMS’
comments for incorporation into the final Close
Out Report.
d. The final Close Out Report is due to CMS no
later than thirty (30) days after receipt of CMS’
comments.
e. A delay in submitting the draft or final version
of the Close Out Report may subject the state to
penalties described in STC 6.
Eligibility and Enrollment Monitoring Plan
Arkansas Works – Work and Community
Engagement Amendment
Strategic Approach
Overview
Arkansas plans to test innovative and administratively efficient approaches to promoting personal
responsibility, encouraging improved health and wellbeing and movement up the economic ladder by
requiring work and community engagement as a
condition of continued eligibility in the Arkansas
Works program. Based on enrollment as of March 2,
2018, approximately 69,000 out of 278,734 individuals

160a
currently enrolled in Arkansas Works will be expected
to participate in monthly approved work activities.
Arkansas has designed the work and community
engagement requirement for Arkansas works to
closely align with requirements in the Supplemental
Nutrition Assistance Program (SNAP). SNAP work
requirements can be reviewed in online policy through
the following link: https://ardhs.sharepointsite.net/
DHSPolicy/Pages/dcohome.aspx.
Once work requirements are fully implemented,
Arkansas Works beneficiaries who are ages 19-49
must work or engage in specified educational, job
training, job search or community service activities for
at least 80 hours per month to remain covered through
Arkansas Works, unless they meet exemption criteria
established by the state. Arkansas Works beneficiaries who are subject to work requirements will be
required to demonstrate that they are meeting the
work requirements on a monthly basis. Arkansas
Works beneficiaries who fail to meet the work
requirements for any three months during a plan year
will be dis-enrolled from Arkansas Works and will not
be permitted to re-enroll until the following plan year.
External Partnering for Success
Arkansas plans to build on the innovation of the
premium assistance model by partnering with
insurance carriers who provide qualified health plans
for Arkansas Works beneficiaries. The carriers will
leverage their current care coordination and outreach
activities to encourage work and assist Arkansas
Works beneficiaries to engage in activities that satisfy
the work and community engagement requirement as
one of the steps to promoting overall healthy living.
The relationship between DHS and carriers is outlined
in a Memorandum of Understanding.

161a
The Arkansas Department of Human Services
(DHS) has had a long-standing partnership with the
Arkansas Department of Workforce Services (DWS).
Together, we have jointly administered the Temporary
Assistance for Needy Families (TANF) program in
Arkansas for more than a decade. Act 1705 of the 85th
Arkansas General Assembly transferred the TANF
block grant from DHS to DWS. Responsibilities of each
agency in the operation of the program are documented through a Memorandum of Understanding
that is updated annually. As part of the agreement,
Arkansas DHS provides eligibility and enrollment
services for the Transitional Employment Assistance
(TEA) program while Arkansas DWS provides case
management services to help move beneficiaries
toward self-sufficiency. Arkansas DHS staff conducts
eligibility interviews, explain program requirements,
and authorize TEA coverage in the DHS legacy system
called ANSWER. The ANSWER system automatically
creates an electronic referral to Arkansas DWS staff
that also has access to the ANSWER eligibility system.
Arkansas DWS staff communicates with Arkansas
DHS staff when changes in eligibility are needed. Act
1 of the 90th Arkansas General Assembly Second
Extraordinary Session required Arkansas DHS to
refer all Arkansas Works beneficiaries with income at
or below 50% of the federal poverty level to Arkansas
DWS for free job search and job training assistance.
In compliance with this law, we expanded that
partnership in January 2017 to include a referral
to obtain job search assistance and training
opportunities available at the Arkansas DWS for all
Arkansas Works beneficiaries. Arkansas DWS has
physical locations in thirty-two out of seventy-five
counties and statewide services available online by
accessing the following link: www.arjoblink.ark
ansas.gov or www.dws.arkansas.gov. Arkansas DHS

162a
and DWS exceeded the requirement of the law by
referring all recipients approved or renewed in the
Arkansas Works program each month to DWS. The
referral language was added to the approval and
renewal notices. To track and monitor the effectiveness of the referral process, Arkansas DHS and DWS
began exchanging monthly files to identify those who
were referred that actually accessed services at DWS.
In addition to identifying those who accessed DWS
services, we also identified whether or not they were
reported by employers to DWS as newly hired
individuals. We obtained data through this process
that demonstrates that Arkansas Works beneficiaries
who had accessed services at Arkansas DWS were
more likely to find work. Over the last 12 months,
347,949 Arkansas Works enrollees have received a
referral to DWS. Of that number, 16,900 have
accessed services at DWS. Additionally, 27% of those
who accessed services at DWS have been reported by
employers as new hires compared to 12% of those who
did not access services at DWS. See Attachment 1 for
the most recent rolling 12 month Arkansas Works –
DWS referral report. We will further expand this
partnership to serve Arkansas Works beneficiaries
with a work or community engagement requirement.
Arkansas DHS will continue to provide referrals and
information about services available through the
Arkansas DWS in all of our notices related to the
Arkansas Works program. Attachment 2 is a sample
Arkansas Works notice that contains the DWS referral
language that is included in all Arkansas Works
notices. Arkansas DWS will also send follow-up letters
to Arkansas Works beneficiaries who have a work and
community engagement requirement. A sample copy
of the DWS follow up letter that is sent to Arkansas
Works beneficiaries with work and community
engagement requirements will be provided once

163a
finalized. Arkansas DWS will provide career assessment, job-search assistance, and referrals for training
as appropriate. The Workforce Opportunities and
Innovation Act of 2014 (WIOA) placed heightened
emphasis on coordination and collaboration at the
Federal, State, local, and tribal levels to ensure a
streamlined and coordinated service delivery system
for job seekers, (from low income families including
those with disabilities), and employers.
Job seekers can also explore training programs
offered through the extensive Eligible Training Provider List. They can discuss education, training, and
apprenticeship programs through Arkansas DWSWIOA, their partners, and determine if they would
qualify to participate in any of those opportunities.
Since Arkansas Works participants are considered low
income, they could be eligible for those services (Funding and slots availability, and additional requirements
may apply). Arkansas Works recipients will also have
access to attain Career Readiness Certifications
(CRCs), create professional resumes, and other universal job services to help be effective in their jobsearch activities. The following screenings and assessments available in the Arkansas Workforce Integrated
Network System (ARWINS) for Arkansas Works
recipients:


A basic screener to determine if the client
could be eligible for UI, targeted WIOA
programs, computer literacy



Assessments that will help determine jobseeker Characteristics like Abilities,
Occupational Interests, Work Values,
Skills, Knowledge, and high demand
occupation matches based on current
education and experience levels



164a
Assessments that will help determine if
the job-seeker has any barriers as related
to Transportation, Child Care, Legal,
Domestic Violence, and Homelessness

The assessments are voluntary and there is a
prescribed path. The job-seeker is encouraged to take
the path, but the individual will not be forced to take
those assessments.
Arkansas DHS has also leveraged our current
contract for Medicaid beneficiary relations with the
Arkansas Foundation for Medical Care (AFMC) to
provide outreach and education about the work and
community engagement requirement. AFMC will do
active outreach to educate Arkansas Works beneficiaries who need to complete work and community
engagement activities to make sure they understand
the requirements. AFMC will also provide education
and assistance to beneficiaries on how to properly and
timely report their activities and to direct them to the
Arkansas Department of Workforce Services, Supplemental Nutrition Assistance Program (SNAP) Employment and Training providers, or other resources
as appropriate to help them comply with work
requirements. Contractual requirements for work and
community engagement include an outreach period 30
days prior to the beginning of work and community
engagement requirements for existing Arkansas
Works beneficiaries. Outreach and education methods
will include outbound phone contact as well as an
inbound integrated voice response system where
beneficiaries can receive education about work and
community engagement requirements. All scripts and
materials used by AFMC will be approved by DHS.
AFMC will also spend the first 12 days conducting
outreach and education after an Arkansas Works
beneficiary is approved with work and community

165a
engagement requirements. AFMC must successfully
contact and educate 30% of existing Arkansas Works
beneficiaries and 40% of newly approved Arkansas
Works beneficiaries. To facilitate the successful outreach and education, AFMC staff has received training
and access to our Curam eligibility system and will be
receiving a daily and monthly file containing Arkansas
Works beneficiaries with work and community
engagement requirements and their current status
related to these activities. AFMC is required to make
a minimum of two attempts by a live agent to contact
beneficiaries by phone when a phone number is
available. Additional attempts and methods used by
AFMC to reach their contractual obligations are not
specified. AFMC will be required to provide DHS with
results of outreach efforts through various reports.
Arkansas implemented the requirement to work in
the Supplemental Nutrition Assistance Program
(SNAP) statewide in January 2016. The Arkansas
Department of Human Services has partnered with
the United States Department of Agriculture Food and
Nutrition Services since that time to expand the SNAP
Employment and Training Program in Arkansas.
Participation in SNAP Employment and Training is
one option available to SNAP recipients as a means to
comply with SNAP work requirements. SNAP recipients may also comply on their own through work,
education, training, or community service and volunteerism activities Arkansas has expanded the
availability of SNAP Employment and Training from
thirteen to fifty out of seventy-five counties since
January 2016. In each of these counties DHS has
either a contract or sub grant agreement in place with
at least one SNAP Employment and Training provider
with a physical location to provide employment and
training services. DHS is currently in negotiations

166a
with additional providers to add an additional fifteen
counties by the end of 2018. DHS has commitments
from the providers who will cover these additional
counties and we are awaiting approval from the USDA
Food and Nutrition Services to implement this
additional expansion. Point in time data comparison
in March 2018 between the SNAP program and
Arkansas Works has shown that approximately
twenty-two to twenty-five percent of Arkansas Works
beneficiaries also receive SNAP. We plan to leverage
the expanded SNAP Employment and Training
program to assist individuals who are dually eligible
for SNAP and Arkansas Works to meet work and
community engagement requirements by referring
them to SNAP Employment and Training providers as
appropriate for assistance with job search and
training. SNAP Employment and Training providers
already attempt to reach and engage SNAP recipients.
SNAP recipients who are also enrolled in Arkansas
Works may satisfy work and community engagement
requirements in both programs by participating in
SNAP Employment and Training. A list of our current
SNAP Employment and Training providers is
provided as Attachment 3. A map showing the current
SNAP E & T coverage is provided as Attachment 4.
Proposed expanded SNAP E & T coverage by the end
of 2018 is provided as Attachment 5. Dual SNAP and
Arkansas Works beneficiaries will be allowed to
satisfy the work and community engagement requirement for both programs by participating in and
reporting in either the SNAP or the Arkansas Works
program. They will not be required to comply with or
report separately to both programs to maintain
continued eligibility. The Arkansas Works program,
SNAP, and the Transitional Employment Assistance
programs reside in separate eligibility systems operated by Arkansas DHS. Working with contracted

167a
developers for both systems, Arkansas DHS has
developed a process whereby data files will be exchanged between these systems daily to update
exemption and compliance information in both programs without manual intervention by the beneficiaries or DHS staff. User acceptance testing to validate
this process is underway.
Online Reporting
Arkansas has enhanced the innovation and administrative efficiency of the work and community
engagement requirement by planning and designing
an online portal for beneficiaries to report their work
activities, exemptions, and other household changes.
This portal is actually an enhancement of the Curam
eligibility system that has already passed CMS readiness review standards. DHS required through contract with Curam developers that the portal is
mobile device friendly and ADA compliant. The
access.arkansas.gov online portal complies with 42
CFR 435.1200 f (2). Beneficiaries will use an email
address and password to access the online portal.
Rather than providing verification of exempt or
compliant status with paper documentation, beneficiaries will enter and attest to the information
submitted through the online portal. These attestations will be evaluated through a robust quality
assurance process (See Quality Assurance and Fraud
Process). Use of the portal promotes work and
community engagement goals by reinforcing basic
computer skills, Internet navigation, and communication via email. This approach is administratively
efficient to implement. The eligibility system processes information submitted via the online portal
automatically without worker intervention. This
allows Arkansas to implement the work and commu-

168a
nity engagement requirement without additional
resources. Individuals, who are disabled, including
mental and physical disability, will be exempt from
work and community engagement requirements and
will not be at risk for losing coverage. Arkansas DHS
will provide reasonable accommodations to assist
individuals with the online reporting requirement.
Beneficiaries may receive in-person assistance
through the local DHS county offices. All notices
provide instructions to contact the Access Arkansas
Call Center or a county office for help regarding work
and community engagement requirements.
Arkansas DHS has also developed a “Registered
Reporter” process to assist individuals with their
online reporting requirements. Individuals may
become a registered reporter by reviewing specified
online training material, signing a Registered
Reporter Acknowledgement Form and emailing that
form to Arkansas DHS. The beneficiary must also
authorize the reporter to serve in that role. To promote
this as an additional reporting support for Arkansas
Works beneficiaries, Arkansas DHS will announce
this process through a press release and schedule
meetings and webinars with stakeholder agencies.
Information on the process and training is available on
our public SharePoint site at the following link:
https://ardhs.sharepointsite.net/ARWorks/default.aspx.
Outcome Monitoring
Arkansas DHS will develop reports that track the
following information related to the Arkansas Works
program:


Number and percentage of individuals
required to report each month



169a
Number and percentage of beneficiaries
who are exempt from the community
engagement requirement



Number and percentage of beneficiaries
requesting good cause exemptions from
reporting requirements



Number and percentage of beneficiaries
granted good cause exemption from
reporting requirements



Number and percentage of beneficiaries
who requested reasonable accommodations



Number and percentage and type of
reasonable accommodations provided to
beneficiaries



Number and percentage of beneficiaries
disenrolled for failing to comply with
community engagement requirements



Number and percentage of beneficiaries
disenrolled for failing to report



Number and percentage of beneficiaries
disenrolled for not meeting community
engagement and reporting requirements



Number and percentage of community
engagement appeal requests from beneficiaries



Number, percentage and type of community engagement good cause exemptions
requested



Number, percentage and type of community engagement good cause exemptions
granted



170a
Number, percentage and type of reporting
good cause exemptions requested



Number, percentage and type of reporting
good cause exemptions granted



Number of appeals of dis-enrollments for
non-compliance with community engagement



Number of appeals for dis-enrollments for
failure to comply with the reporting
requirements



Number and percentage of applications
made in-person, via phone, via mail and
electronically.

All of the data required to produce these reports is
owned by Arkansas DHS, with the exception of the
good cause exemption reports and the work and
community engagement appeal requests; these reports will be system-generated from the eligibility
system data warehouse. Requirements, design, and
delivery of these reports are covered by the Arkansas
DHS contractual agreement with the eligibility
system developer. A database outside of the eligibility
system is being developed by DHS to track and report
all good cause exemption metrics. Appeal metrics will
be tracked and provided by the DHS Office of Chief
Counsel Appeals and Hearings section. These reports
will be compiled monthly and will be reported to CMS
quarterly. Documentation on design requirements for
each report will be available at a later date when
report development is complete.
Implementation Plan and Timeline
Planning, policy and system development, partner
and stakeholder engagement, and resource avail-

171a
ability assessment (See Community Resource and
Supports Availability Mapping) began in January
2017 and have been ongoing.
Upon approval of the work and community engagement amendment, Arkansas began finalizing plans
and testing of the process to implement the requirement on June 1, 2018. Based on data as of March 2,
2018, there were 171,449 Arkansas Works beneficiaries ages 19 – 49. Approximately 69,000 have no initial
exemption identified through system data. Due to the
number of beneficiaries impacted, Arkansas will
phase in work requirements by age group. Beginning
June through September 2018, beneficiaries ages
30 – 49 at or below federal poverty level will be phased
in to the work requirement. 19 – 29 year olds at or
below federal poverty level will be phased in during
2019 between January and April.
Based on the same data, there were 125,242
Arkansas Works beneficiaries ages 30 – 49. Of those,
38,321 have no exemption identified through system
data. Arkansas has chosen to phase in this group over
four months based on when their cases are due for
renewal. The chart below depicts the month the work
requirement begins, the renewal months and number
of beneficiaries affected.

Month Work
Requirement
Begins

June 2018
July 2018
August 2018
September
2018
Data date:
3/2/2018

172a
Renewal
Months

Jan, Feb, Mar
April, May,
June
July, August,
September

Approximate
#of
beneficiaries
required to
report work
activities
9,152
9,341
8,682

Oct, Nov, Dec

11,146

TOTAL

38,321

The planning, testing, implementation,
monitoring timeline is provided below:


March 15, 2018 – Mass notice will be
issued to all Arkansas Works beneficiaries
informing them of the change in the
program and upcoming implementation of
work and community engagement requirements. The notice will instruct them that
no additional action is required at that
time and will encourage them to provide
an email address to Arkansas DHS if they
have not already.



March 30, 2018 – The Arkansas Works
online portal will go live. Beneficiaries will
be able to begin linking their secure online
accounts and reporting exemptions.



April 1, 2018 – New Arkansas Works
beneficiaries ages 30 – 49 approved
beginning April 1, 2018, or later will

and

173a
become subject to the work and community engagement and have their begin
dates for completing and reporting work
activities set to begin the second month
after approval.


April 1– 8, 2018 – Work requirement begin
months will be set for beneficiaries 30 – 49
years of age and notices will be mailed to
each individual with specific details about
the work and community engagement
requirement, services available through
Arkansas DWS, and instructions on how
to access and log in to the online portal.



April 13, 2018 – The first data file of
Arkansas Works beneficiaries containing
specific information regarding work and
community engagement details will be
provided to Arkansas DWS, the Medicaid
Beneficiary Relations provider, and QHP
carriers. Outreach and education will
begin. Updated files will be provided
weekly thereafter.



May 8, 2018 – Arkansas Works beneficiaries ages 30 – 49 who are scheduled to
begin the work and community engagement requirement in June 2018 will be
mailed individually tailored notices. The
notice will contain information regarding
any exemption and the type of exemption
that has been identified through data in
systems. Those who are exempt will
be instructed that no additional action
is necessary unless their circumstances
change and that they will be notified when
they are expected to take further action.

174a
Those without an identified exemption
will receive a notice that instructs them
that they will be required to begin
completing and reporting work activities
during the month of June 2018. The notice
will contain full details about the work
requirement, how and where to report a
previously unidentified exemption and/or
completion of work activities. The notice
will inform them of the consequence of
noncompliance.


June 1, 2018 – Implementation of mandatory work requirements begins for
individuals ages 30 – 49.



June 8, 2018 – Arkansas Works beneficiaries ages 30 – 49 who are scheduled to
begin the work and community engagement requirement in July 2018 will be
mailed individually tailored notices.



June 26, 2018 – The Post Award Forum
will be held at 10:00 AM at the Hillary
Rodham Clinton Children’s Library and
Learning Center, 4800 W. 10th Street,
Little Rock, AR 72204.



July 8, 2018 – Arkansas Works beneficiaries ages 30 – 49 who are scheduled to begin
the work and community engagement
requirement in August will be mailed
individually tailored notices.



August 8, 2018 – Arkansas Works beneficiaries ages 30 – 49 who are scheduled to
begin the work and community engagement requirement in September 2018 will
be mailed individually tailored notices.



175a
August 30, 2018 – Monitoring phase
begins and first quarterly report will be
posted to the Arkansas DHS website.



November 1, 2018 – New Arkansas Works
beneficiaries ages 19 – 29 approved
beginning November 1, 2018, or later will
become subject to the work and community engagement and have their begin
dates for completing and reporting work
activities set to begin the second month
after approval.



November 1– 8, 2018 – Work requirement
phase in will be set based on renewal
months for beneficiaries 19 – 29 years of
age and notices will be mailed to each
individual with specific details about the
work and community engagement requirement, services available through Arkansas
DWS, and instructions on how to access
and log in to the online portal.



November 30, 2018 – Second quarterly
monitoring report will be submitted to
CMS.



December 8, 2018 – Arkansas Works beneficiaries ages 19 – 29 who are scheduled to
begin the work and community engagement requirement in January 2019 will be
mailed individually tailored notices. The
notice will contain information regarding
any exemption and the type of exemption
that has been identified through data in
systems. Those who are exempt will be
instructed that no additional action is
necessary unless their circumstances
change and that they will be notified when

176a
they are expected to take further action.
Those without an identified exemption
will receive a notice that instructs them
that they will be required to begin completing and reporting work activities
during the month of January 2019. The
notice will contain full details about the
work requirement, how and where to
report a previously unidentified exemption and / or completion of work activities.
The notice will inform them of the
consequence of non-compliance.


January 1, 2019 – Implementation of
mandatory work requirements begins for
individuals ages 19 – 29.



January 8, 2019 – Arkansas Works
beneficiaries ages 19 – 29 who are
scheduled to begin the work and community engagement requirement in February
2019 will be mailed individually tailored
notices.



January 30, 2019 – Third quarterly
monitoring report will be submitted to
CMS.



February 8, 2019 – Arkansas Works beneficiaries ages 19 – 29 who are scheduled to
begin the work and community engagement requirement in March 2019 will be
mailed individually tailored notices.



March 8, 2019 – Arkansas Works beneficiaries ages 19 – 29 who are scheduled to
begin the work and community engagement requirement in April 2019 will be
mailed individually tailored notices.



177a
April 30, 2019 – Fourth quarterly
monitoring report will be submitted to
CMS.

Arkansas Works Application and Renewal Overview
Applications for healthcare coverage are accepted
through multi-channels including online, by phone, in
person, and by mail. Application assistance is provided
by Arkansas DHS staff both in person and by phone.
No changes are needed to the current process for
applications related to the addition of the work and
community engagement requirement. Assistance is
provided in local offices to those who need assistance
completing applications. Arkansas DHS also maintains a contract with a vendor who provides interpretation and translation services. This service is
accessible statewide and each county office can access
the vendor as needed to assist individuals. Arkansas
DHS also accepts applications from incarcerated
individuals up to forty-five days prior to release. The
Arkansas Department of Corrections has contracted
with a vendor to assist exiting inmates with the
application process for Medicaid prior to release.
Applications received from beneficiaries who lost
eligibility due to noncompliance with work and
community engagement requirements will be denied if
received prior to the yearly open enrollment period.
Applications received during open enrollment will be
processed with coverage beginning on January 1 of the
following year for beneficiaries that are otherwise
eligible. The State’s reasonable accommodation process will be available in a procedural desk guide
developed for Medicaid eligibility caseworkers and
administrative staff and will be posted online once
complete.

178a
Renewals are conducted monthly through an exparte process. Beneficiaries whose renewals cannot be
completed ex-parte are sent specific notices to provide
information that is needed to complete the renewal.
Beneficiaries are not required to complete forms that
require information that has been previously provided
or is available to DHS. Arkansas Works beneficiaries
who are subject to work and community engagement
requirements will have their renewals completed by
the same method as beneficiaries who are not subject
to work and community engagement activities. Work
activity reporting continues through the online portal
with no interruption or change to the reporting process
during renewal. Being non-compliant in the month a
beneficiary’s case is due for renewal does not prevent
the ex-parte renewal process from occurring.
Arkansas monitors Medicaid timeliness with data
and conducts a weekly Medicaid Eligibility Operations
meeting to review progress and develop strategies to
address any issues that arise. Weekly management
reports are reviewed by the team during each meeting.
Timeliness reports can be provided along with other
quarterly reports. Additional information is also reported to CMS monthly through Performance
Indicators.
Arkansas DHS completes daily electronic account
transfers to the federally facilitated marketplace for
individuals determined to be ineligible for Medicaid.
No changes to this process are necessitated by the
addition of the work and community engagement
process.

179a
Work and Community Engagement Overview and
Operational Approach
Population Subject to Work Requirements
Once work requirements are implemented in June
of 2018, on a rolling, phased in basis, Arkansas Works
beneficiaries ages 19 to 49 who do not meet established
exemption criteria will be required to meet work
requirements as a condition of continued Arkansas
Works eligibility. Work requirements will not apply to
Arkansas Works beneficiaries ages 50 and older. Work
and Community Engagement Requirements will be
promulgated according to the State’s Administrative
Procedures Act in Medicaid eligibility rules. Link
to the promulgated Medicaid eligibility manual:
https://ardhs.sharepointsite.net/DHSPolicy/Pages/dco
home.aspx.
Exemption from Work Requirements
Arkansas Works beneficiaries meeting one of the
criteria described in the STCs will be exempt from
work requirements. Exemptions will be identified
through a beneficiary’s initial application for coverage,
an electronic submission demonstrating the exemption, or a change in circumstances submission. When
a beneficiary’s exemption expires, he or she will be
required to demonstrate that the exemption is still
valid and continues. Information provided during the
application process and data obtained systematically
will be used to identify several types of exemptions
including employment and self-employment of at least
80 hours a month, medical frailty, exemption from the
SNAP work requirement, receipt of TEA Cash
Assistance, and receipt of unemployment benefits.
Beneficiaries for whom an exemption is not established during the application process will have an
opportunity to attest to an exemption upon approval.

180a
Detailed information about exemptions from work and
community engagement requirements can be found
online at the following link. Link: https://ardhs.
sharepointsite.net/DHSPolicy/Pages/dcohome.aspx
Allowed Work Activities and Work Activity Hour
Calculations
Arkansas Works beneficiaries ages 19 – 49 who are
not exempt must engage in 80 hours of monthly work
and community engagement activities. Arkansas
Works beneficiaries can meet the work requirements
by either meeting SNAP work requirements or by
completing at least 80 hours per month of some
combination of activities as deemed appropriate by the
state. Arkansas Works beneficiaries must demonstrate electronically on a monthly basis that they are
meeting the work requirement. Detailed information
about allowed work and community engagement
activities can be found online at the following link.
Link: https://ardhs.sharepointsite.net/DHSPolicy/Pages
/dcohome.aspx
Disenrollment for Failure to Meet Work Requirement
Beneficiaries who are subject to work requirements
will lose eligibility for Arkansas Works if they fail to
meet work requirements for any three consecutive or
non-consecutive months during the coverage year.
Effective the end of the third month of noncompliance,
such beneficiaries who fail to meet the work requirements will be terminated from coverage, following
proper notice and due process, and subject to a lockout
of coverage until the beginning of the next coverage
year, at which point they will be permitted to re-enroll
in Arkansas Works. Arkansas Works beneficiaries
whose coverage has been terminated due to noncompliance may apply for and receive coverage in

181a
other Medicaid categories if eligible during the lockout
period. Notices of denial and closure due to noncompliance with work and community engagement
requirements will contain information about how to
access primary and preventive care services at low or
no cost at free health clinics and community health
centers (See Community Resource and Supports
Mapping). Closure of the Arkansas Works case will be
transmitted to the InterChange Medicaid Management Information System. Termination of the QHP
premium payment is automated in the InterChange
system.
Beneficiary Work and Community
Online Reporting Requirements

Engagement

Beneficiaries must use the online portal to report
exemptions and completion of work and community
engagement activities. The work and community
engagement portal is part of the existing eligibility
system. Information entered into the portal is seamlessly processed by the eligibility system with no
additional beneficiary or DHS staff requirement to rekey or transfer the information into the system.
Exemptions must only be re-attested to at the required
intervals specified above. Completion of work activities must be entered and attested to monthly.
Individuals will have until the 5th day of the following
month to attest for the previous month. The online
portal is secure, mobile device friendly, and compliant
with the ADA. The portal requires an email address
and password to access. To assist beneficiaries prepare
for this requirement, Arkansas DHS and our Access
Arkansas Call Center have conducted a campaign over
the last several months where we encourage beneficiaries to provide an email address. We have also
offered information about how to obtain free email

182a
addresses and assistance with setting up email
addresses. We have been able to collect several
thousand email addresses during this effort. The
portal allows beneficiaries to reset passwords through
self-service. Technical assistance will also be available
through our Access Arkansas Call Center for website
and password issues. Beneficiaries who require
assistance using the portal can receive assistance from
several sources, including Arkansas DHS staff, Call
Center Agents, Arkansas DWS staff, or their QHP
carrier. Arkansas DHS worked with the University of
Arkansas for Medical Sciences Health Literacy team
to help develop language for work and community
engagement notices and fliers. Similar verbiage was
used on the portal for consistency and understanding
at lower literacy levels. Arkansas DHS maintains a
contract for language interpretation and translation.
Beneficiaries who need assistance with languages
other than English will be assisted in the local DHS
county offices. Each notice and flier regarding work
and community engagement direct beneficiaries who
need help to contact our toll free call center or local
DHS County office. The portal will be available daily
between 7 AM and 9 PM except for times when it is
necessary to take the portal offline for system
upgrades. Those outages when necessary are scheduled over weekends for minimal disruption. The
website displays a notice each time the portal is offline
for maintenance. The State will make every effort not
to schedule maintenance during the first through the
fifth of each month for beneficiaries who need to report
the previous month’s activities before the reporting
deadline.
Upon logging into the portal, beneficiaries will be
able to see their work and community engagement
status for the current reporting month as well as

183a
history for the year to date. They will be able to update
and confirm their contact information and household
composition. Beneficiaries will know immediately
upon submission if they have entered enough
information to be considered compliant or exempt for
the reporting month. If they have not yet completed 80
hours, the portal will display the number of hours
needed to become compliant. Each portal screen
includes information about the method for calculating
completed hours for that activity.
Good Cause Exemptions / Catastrophic Events
Beneficiaries who have experienced a catastrophic
event during a month they were required to complete
work activities will be exempt from work requirements
or reporting by requesting and being granted a good
cause exemption. Circumstances that may lead to an
approved good cause exemption are outline in the
STCs and include but are not limited to a natural
disaster, hospitalization or serious illness, birth or
death of a family member living in the home and
domestic violence. Beneficiaries who have lost
coverage due to non-compliance with the work and
community engagement requirement will have their
cases reinstated without a new application if they are
granted a good cause exemption and are otherwise
eligible. Information about good cause exemptions and
how to request these is provided in all work and
community engagement notices. Verification of the
catastrophic event which caused the beneficiary not to
complete and/or report required activities will be
required as part of the good cause approval process.
DHS staff may use discretion to waive the verification
in cases such as natural disaster when the event is
known to the general public.

184a
Interim Period Prior to Work and Community
Engagement Requirement – Outreach and Education
Newly approved Arkansas Works beneficiaries who
are subject to the work and community engagement
requirement will have an interim period of up to 59
days prior to beginning work activities. The work
requirement will begin on the first of the second month
after the month of approval. For example, a nonexempt beneficiary approved in the Arkansas Works
program on any day during the month of April will be
required to begin completing work activities on June
1st. Through our implementation plan, existing
beneficiaries will also have an interim period after
notification before they are required to begin completing and reporting work activities. The interim period
will be used to conduct outreach to beneficiaries to
educate them on all aspects of the work requirement
including using the online portal, connecting with the
Arkansas Department of Workforce Services and other
resources to assist them with compliance with work
activities. The outreach will be done through a multimedia and multi-partner approach that includes
Arkansas DHS, Arkansas DWS, our Medicaid Beneficiary Relations provider, and QHP carriers. This
outreach effort also involves social media including
Facebook and Twitter. Over the last several months,
Arkansas DHS has developed several educational
tools regarding work and community engagement
requirements that are intended to assist beneficiaries
and partners alike. These tools include a computerbased training on the Arkansas Works program and
the work and community engagement requirement.
Tutorials on linking their secure account on the portal,
entering work activity and exemption information on
the portal have also been developed. This Arkansas
Works toolkit will be available online to the public so

185a
that partners and beneficiaries can access the information as needed. Link to Arkansas Works education
and Outreach information: https://ardhs.sharepoint
site.net/ARWorks/default.aspx.
Work and Community Engagement Notices
In addition to traditional postal mail, Arkansas
DHS will communicate with Arkansas Works beneficiaries who have provided email addresses through
an electronic message to a secure inbox. Notices
content will meet all requirements in the standards,
terms, and conditions reflected in the approved 1115
waiver amendment. With the exception of good cause
exemption denials, all notices related to the work and
community engagement requirement are automated
and system-generated in real time. This automation
ensures that timely and adequate notice requirements
are met. Specific notices related to work and community engagement requirements have been developed
and contain detailed information for beneficiaries.
Until good cause exemption functionality can be
developed in our eligibility system, notices of either
approval or denial of a good cause exemption will be
manually generated and uploaded to the electronic
case record. A separate tracking website will be
developed and maintained for Arkansas DHS staff to
use to track good cause exemption requests for
noncompliance with work activities or reporting
requirements until this capability is achieved in the
eligibility system to meet CMS monitoring and
reporting requirements included in the approved
waiver amendment.
Community Resource and Supports Availability and
Mapping

186a
Arkansas DHS has been working with a team of
partners and stakeholders for several months to
identify community engagement resources throughout
the state. This team includes Arkansas DHS,
Arkansas DWS, Arkansas Center for Health Improvement, representatives from each Arkansas Works
qualified health plan carrier, the Arkansas Hospital
Association, the University of Arkansas for Medical
Sciences, and the Arkansas Department of Career
Education. Input and participation is open to
interested stakeholder organizations. As a result of
this effort, an Arkansas Works Interactive Resource
Map has been developed for users to click county by
county for specific information on local resource
availability. The resource map contains information
on work and employment services, education and
training opportunities, and volunteerism opportunities. The resource map also contains information on
locations with public access to computers and free WiFi and other supportive resources such as public
transportation, substance abuse treatment, housing,
and more. Public access to computers is being provided
by Arkansas DHS, Arkansas DWS, Arkansas libraries
and other community organizations. We are also
actively engaging other state agencies and non-profit
agencies to assess their willingness and capacity to
provide support to Arkansas Works beneficiaries in
this and other ways. Arkansas DHS has lead on this
project. Locations where beneficiaries and former
beneficiaries can access free and reduced cost health
care have also been collected and made available in
this map. DHS will include information in notices for
individuals who lose coverage due to non-compliance
in addition to sharing this information through social
media. This resource map will be available to the
public online in the Arkansas Works information
SharePoint site and will be updated quarterly and as

187a
new information becomes available. Link to Arkansas
Works Information: https://ardhs.sharepointsite.net/
ARWorks/default.aspx
Quality Assurance and Fraud Process
Arkansas DHS will conduct a monthly quality
assurance process to validate exemptions and work
activities that have been attested to by beneficiaries
as a special effort in addition to normal PERM and
MEQC requirements. The quality assurance process
will include reviewing a statistically valid random
sample to achieve a 95% (+ / - 3% variance) level of
confidence. In addition to these quality assurance
reviews, Arkansas DHS will review data on
attestations monthly and quarterly from the universe
of Arkansas Works beneficiaries who are subject to
work and community engagement requirements to
identify trends and potential anomalies that should
also be reviewed for accuracy. Based on the outcomes
of these reviews, the quality assurance process will be
enhanced with additional reviews in error prone areas.
The quality assurance component will be promulgated
in Medicaid eligibility rules. Specific quality assurance processes will be outlined in a procedural desk
guide for DHS staff. If inaccuracies are discovered
during the quality assurance process, appropriate
action will be taken to remove months of exemption or
compliance. If this results in three months of noncompliance for the calendar year, the Arkansas Works
case will be closed and referred for investigation as
potential fraud and overpayment.
Appeal Process
Beneficiaries will be provided full appeal rights with
regard to work and community engagement requirements just as they have for other Medicaid eligibility
determinations. The process will be the same regard-

188a
less for the reason for appeal. Each notice contains
information about beneficiaries’ rights to appeal and
how to request an appeal. Requests for appeal that are
received in county offices are forwarded to the DHS
Office of Chief Counsel Appeals and Hearings Unit
who schedule and conduct appeal hearings and render
decisions.
Data Exchange between Programs and Partners
To ensure that dual Arkansas Works and SNAP
beneficiaries have no additional compliance or reporting requirements, Arkansas DHS will use data
exchanges between systems to record compliance and
exemption information. This data exchange is currently in the final stages of testing. SNAP and
Arkansas Works beneficiaries may choose to comply
through either program.
To ensure a robust outreach and education process,
a weekly data file will be shared with Arkansas DWS,
our Medicaid Beneficiary Relations provider, and each
QHP carrier. Information provided to carriers will be
limited to Arkansas Works beneficiaries that are
members of their individual plans. The file will
contain information on each beneficiary that includes
contact information, work and community engagement exemption and compliance information, type of
exemption, number of months of cumulative noncompliance, compliance status for the current month,
and renewal month. This level of detail will allow our
partners to conduct specific outreach and education
encouraging beneficiaries to participate and complete
work activities.

189a
Summary
Arkansas appreciates the opportunity to help our
fellow Arkansans begin to move up the economic
ladder through the Arkansas Works program with
work and community engagement requirements. We
have put a great amount of thought and effort into the
policy and operational design of this program to make
it as successful as possible. We have developed a
strong team of partners ready to help these beneficiaries take the steps toward self-sufficiency. We appreciate the continued support and partnership from the
Centers for Medicare and Medicaid Services to help us
implement this program and look forward to reporting
our progress as implementation continues.
ATTACHMENT B
Copayment Amounts3
General Service Description

Behavioral Health – Inpatient
Behavioral Health – Outpatient

Cost Sharing
for
Beneficiaries
with Incomes
>100% FPL
$60

Behavioral Health – Professional

$4
$4

Durable Medical Equipment

$4

Emergency Room Services

-

FQHC

$8

Inpatient

$60

3

Beneficiaries with incomes above 100% FPL will also be
required to pay monthly premiums of up to 2 percent of household
income.

190a
Lab and Radiology
Skilled Nursing Facility

$20

Other

$4

Other Medical Professionals

$4

Outpatient Facility

-

Primary Care Physician

$8

Specialty Physician

$10

Pharmacy – Generics

$4
$4

Pharmacy – Preferred Brand
Drugs
Pharmacy – Non-Preferred Brand
Drugs, including specialty drugs

$8

No copayments for individuals at or below 100% FPL.
ATTACHMENT C
Preparing the Interim and Summative Evaluation
Reports
————

191a
[SEAL]
STATE OF ARKANSAS
ASA HUTCHINSON
GOVERNOR
June 30, 2017
The Honorable Thomas E. Price, M.D.
Secretary
U.S. Department of Health and Human Services
200 Independence Ave. SW
Washington, DC 20201
Dear Mr. Secretary:
On behalf of the citizens of Arkansas, I am pleased
to submit an amendment to the Special Terms and
Conditions for the Arkansas Works Section 1115
Medicaid demonstration. The changes proposed in
this amendment were authorized by the Arkansas
General Assembly during the First Extraordinary
Session of 2017. In December 2016, the Centers for
Medicare & Medicaid Services (CMS) approved the
Arkansas Works demonstration, which implemented a
new approach to health coverage for Arkansans. To
date, the demonstration and its predecessor have been
successful in providing continuity of coverage, smoothing the “seams” across the continuum of coverage,
improving access to providers, and furthering quality
improvement and delivery system reform initiatives.
The changes we are seeking will build on these successes and increase the sustainability of the Arkansas
Works program.
This amendment proposes four substantive changes
to the Arkansas Works demonstration: (1) modify
income eligibility for expansion adults to less than or
equal to 100 percent of the federal poverty level (FPL)
as of January 1, 2018; (2) institute work requirements

192a
as a condition of Arkansas Works eligibility as of
January 1, 2018; (3) eliminate the Arkansas Works
employer-sponsored insurance (ESI) premium assistance program on December 31, 2017; and (4) implement the state’s waiver of retroactive eligibility on or
after July 1, 2017. Together, these amendments to the
demonstration seek to test innovative approaches to
promoting personal responsibility and work, encouraging movement up the economic ladder, and facilitating transitions from Arkansas Works to employersponsored insurance and Marketplace coverage. The
state is not requesting any changes related to budget
neutrality.
I appreciate your ongoing partnership with our state
and look forward to your continued support of
Arkansas Works. Please do not hesitate to contact me
if you have questions or need additional information.
Sincerely,
[REDACTED]
Asa Hutchinson
500 WOODLANE STREET, SUITE 250
LITTLE ROCK, AR 72201
TELEPHONE (501) 682-2345
www.governor.arkansas.gov

193a
APPENDIX D
TITLE 42—THE PUBLIC HEALTH
AND WELFARE
§ 1315. Demonstration projects
(a) Waiver of State plan requirements; costs regarded
as State plan expenditures; availability of appropriations
In the case of any experimental, pilot, or demonstration project which, in the judgment of the Secretary, is
likely to assist in promoting the objectives of subchapter I, X, XIV, XVI, or XIX, or part A or D of subchapter
IV, in a State or States—
(1) the Secretary may waive compliance with
any of the requirements of section 302, 602, 654,
1202, 1352, 1382, or 1396a of this title, as the case
may be, to the extent and for the period he finds
necessary to enable such State or States to carry
out such project, and
(2)(A) costs of such project which would not
otherwise be included as expenditures under
section 303, 655, 1203, 1353, 1383, or 1396b of this
title, as the case may be, and which are not
included as part of the costs of projects under
section 1310 of this title, shall, to the extent and
for the period prescribed by the Secretary, be
regarded as expenditures under the State plan or
plans approved under such subchapter, or for
administration of such State plan or plans, as may
be appropriate, and
(B) costs of such project which would not
otherwise be a permissible use of funds under part
A of subchapter IV and which are not included as
part of the costs of projects under section 1310 of

194a
this title, shall to the extent and for the period
prescribed by the Secretary, be regarded as a
permissible use of funds under such part.
In addition, not to exceed $4,000,000 of the aggregate
amount appropriated for payments to States under
such subchapters for any fiscal year beginning after
June 30, 1967, shall be available, under such terms
and conditions as the Secretary may establish, for
payments to States to cover so much of the cost of such
projects as is not covered by payments under such
subchapters and is not included as part of the cost of
projects for purposes of section 1310 of this title.
(b) Child support enforcement programs
(1) In the case of any experimental, pilot, or
demonstration project undertaken under subsection
(a) to assist in promoting the objectives of part D of
subchapter IV, the project—
(A) must be designed to improve the financial
well-being of children or otherwise improve the
operation of the child support program;
(B) may not permit modifications in the child
support program which would have the effect of
disadvantaging children in need of support; and
(C) must not result in increased cost to the
Federal Government under part A of such
subchapter.
(2) An Indian tribe or tribal organization operating
a program under section 655(f) of this title shall be
considered a State for purposes of authority to conduct
an experimental, pilot, or demonstration project under
subsection (a) to assist in promoting the objectives of
part D of subchapter IV and receiving payments under
the second sentence of that subsection. The Secretary

195a
may waive compliance with any requirements of
section 655(f) of this title or regulations promulgated
under that section to the extent and for the period the
Secretary finds necessary for an Indian tribe or tribal
organization to carry out such project. Costs of the
project which would not otherwise be included as
expenditures of a program operating under section
655(f) of this title and which are not included as part
of the costs of projects under section 1310 of this title,
shall, to the extent and for the period prescribed by the
Secretary, be regarded as expenditures under a tribal
plan or plans approved under such section, or for the
administration of such tribal plan or plans, as may be
appropriate. An Indian tribe or tribal organization
applying for or receiving start-up program development funding pursuant to section 309.16 of title 45,
Code of Federal Regulations, shall not be considered
to be an Indian tribe or tribal organization operating
a program under section 655(f) of this title for
purposes of this paragraph.
(c) Demonstration projects to test alternative definitions of unemployment
(1)(A) The Secretary shall enter into agreements
with up to 8 States submitting applications under this
subsection for the purpose of conducting demonstration projects in such States to test and evaluate the
use, with respect to individuals who received aid under
part A of subchapter IV in the preceding month (on the
basis of the unemployment of the parent who is the
principal earner), of a number greater than 100 for the
number of hours per month that such individuals may
work and still be considered to be unemployed for
purposes of section 607 of this title. If any State
submits an application under this subsection for the
purpose of conducting a demonstration project to test

196a
and evaluate the total elimination of the 100-hour
rule, the Secretary shall approve at least one such
application.
(B) If any State with an agreement under this
subsection so requests, the demonstration project
conducted pursuant to such agreement may test and
evaluate the complete elimination of the 100-hour rule
and of any other durational standard that might be
applied in defining unemployment for purposes of
determining eligibility under section 607 of this title.
(2) Notwithstanding section 602(a)(1) of this title, a
demonstration project conducted under this subsection may be conducted in one or more political
subdivisions of the State.
(3) An agreement under this subsection shall be
entered into between the Secretary and the State
agency designated under section 602(a)(3) of this title.
Such agreement shall provide for the payment of aid
under the applicable State plan under part A of
subchapter IV as though section 607 of this title had
been modified to reflect the definition of unemployment used in the demonstration project but shall also
provide that such project shall otherwise be carried
out in accordance with all of the requirements and
conditions of section 607 of this title (and, except as
provided in paragraph (2), any related requirements
and conditions under part A of subchapter IV).
(4) A demonstration project under this subsection
may be commenced any time after September 30,
1990, and shall be conducted for such period of time as
the agreement with the Secretary may provide; except
that, in no event may a demonstration project under
this section be conducted after September 30, 1995.

197a
(5)(A) Any State with an agreement under this
subsection shall evaluate the comparative cost and
employment effects of the use of the definition of
unemployment in its demonstration project under this
section by use of experimental and control groups
comprised of a random sample of individuals receiving
aid under section 607 of this title and shall furnish the
Secretary with such information as the Secretary
determines to be necessary to evaluate the results of
the project conducted by the State.
(B) The Secretary shall report the results of the
demonstration projects conducted under this subsection to the Congress not later than 6 months after all
such projects are completed.
(d) Regulations relating to applications for or renewals
of demonstration projects
(1) An application or renewal of any experimental,
pilot, or demonstration project undertaken under
subsection (a) to promote the objectives of subchapter
XIX or XXI in a State that would result in an impact
on eligibility, enrollment, benefits, cost-sharing, or
financing with respect to a State program under
subchapter XIX or XXI (in this subsection referred to
as a “demonstration project”) shall be considered by
the Secretary in accordance with the regulations
required to be promulgated under paragraph (2).
(2) Not later than 180 days after March 23, 2010, the
Secretary shall promulgate regulations relating to
applications for, and renewals of, a demonstration
project that provide for—
(A) a process for public notice and comment at
the State level, including public hearings, sufficient to ensure a meaningful level of public input;

198a
(B) requirements relating to—
(i) the goals of the program to be implemented
or renewed under the demonstration project;
(ii) the expected State and Federal costs and
coverage projections of the demonstration project; and
(iii) the specific plans of the State to ensure
that the demonstration project will be in
compliance with subchapter XIX or XXI;
(C) a process for providing public notice and
comment after the application is received by the
Secretary, that is sufficient to ensure a meaningful
level of public input;
(D) a process for the submission to the Secretary
of periodic reports by the State concerning the
implementation of the demonstration project; and
(E) a process for the periodic evaluation by the
Secretary of the demonstration project.
(3) The Secretary shall annually report to Congress
concerning actions taken by the Secretary with respect
to applications for demonstration projects under this
section.
(e) Extensions of State-wide comprehensive demonstration projects for which waivers granted
(1) The provisions of this subsection shall apply to
the extension of any State-wide comprehensive
demonstration project (in this subsection referred to as
“waiver project”) for which a waiver of compliance with
requirements of subchapter XIX is granted under
subsection (a).
(2) During the 6-month period ending 1 year before
the date the waiver under subsection (a) with respect

199a
to a waiver project would otherwise expire, the chief
executive officer of the State which is operating the
project may submit to the Secretary a written request
for an extension, of up to 3 years (5 years, in the case
of a waiver described in section 1396n(h)(2) of this
title), of the project.
(3) If the Secretary fails to respond to the request
within 6 months after the date it is submitted, the
request is deemed to have been granted.
(4) If such a request is granted, the deadline for
submittal of a final report under the waiver project is
deemed to have been extended until the date that is 1
year after the date the waiver project would otherwise
have expired.
(5) The Secretary shall release an evaluation of
each such project not later than 1 year after the date
of receipt of the final report.
(6) Subject to paragraphs (4) and (7), the extension
of a waiver project under this subsection shall be on
the same terms and conditions (including applicable
terms and conditions relating to quality and access of
services, budget neutrality, data and reporting
requirements, and special population protections) that
applied to the project before its extension under this
subsection.
(7) If an original condition of approval of a waiver
project was that Federal expenditures under the
project not exceed the Federal expenditures that
would otherwise have been made, the Secretary shall
take such steps as may be necessary to ensure that, in
the extension of the project under this subsection, such
condition continues to be met. In applying the previous
sentence, the Secretary shall take into account the

200a
Secretary’s best estimate of rates of change in expenditures at the time of the extension.
(f) Application for extension of waiver project; submission; approval
An application by the chief executive officer of a
State for an extension of a waiver project the State is
operating under an extension under subsection (e) (in
this subsection referred to as the “waiver project”)
shall be submitted and approved or disapproved in
accordance with the following:
(1) The application for an extension of the waiver
project shall be submitted to the Secretary at least 120
days prior to the expiration of the current period of the
waiver project.
(2) Not later than 45 days after the date such
application is received by the Secretary, the Secretary
shall notify the State if the Secretary intends to review
the terms and conditions of the waiver project. A
failure to provide such notification shall be deemed to
be an approval of the application.
(3) Not later than 45 days after the date a notification is made in accordance with paragraph (2), the
Secretary shall inform the State of proposed changes
in the terms and conditions of the waiver project. A
failure to provide such information shall be deemed to
be an approval of the application.
(4) During the 30-day period that begins on the date
information described in paragraph (3) is provided to
a State, the Secretary shall negotiate revised terms
and conditions of the waiver project with the State.
(5)(A) Not later than 120 days after the date an
application for an extension of the waiver project is
submitted to the Secretary (or such later date agreed

201a
to by the chief executive officer of the State), the
Secretary shall—
(i) approve the application subject to such
modifications in the terms and conditions—
(I) as have been agreed to by the Secretary and the State; or
(II) in the absence of such agreement, as
are determined by the Secretary to be
reasonable, consistent with the overall
objectives of the waiver project, and not in
violation of applicable law; or
(ii) disapprove the application.
(B) A failure by the Secretary to approve or disapprove an application submitted under this
subsection in accordance with the requirements of
subparagraph (A) shall be deemed to be an
approval of the application subject to such modifications in the terms and conditions as have been
agreed to (if any) by the Secretary and the State.
(6) An approval of an application for an extension of
a waiver project under this subsection shall be for a
period not to exceed 3 years (5 years, in the case of a
waiver described in section 1396n(h)(2) of this title).
(7) An extension of a waiver project under this
subsection shall be subject to the final reporting and
evaluation requirements of paragraphs (4) and (5) of
subsection (e) (taking into account the extension under
this subsection with respect to any timing requirements imposed under those paragraphs).

202a
§ 1396–1. Appropriations
For the purpose of enabling each State, as far as
practicable under the conditions in such State, to
furnish (1) medical assistance on behalf of families
with dependent children and of aged, blind, or disabled
individuals, whose income and resources are insufficient to meet the costs of necessary medical services,
and (2) rehabilitation and other services to help such
families and individuals attain or retain capability for
independence or self-care, there is hereby authorized
to be appropriated for each fiscal year a sum sufficient
to carry out the purposes of this subchapter. The sums
made available under this section shall be used for
making payments to States which have submitted,
and had approved by the Secretary, State plans for
medical assistance.

